<html>
<title> - AIRLINE SERVICE IMPROVEMENTS</title>
<body><pre>[Senate Hearing 110-1207]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1207
 
                      AIRLINE SERVICE IMPROVEMENTS

=======================================================================

                                HEARING

                               before the

                         COMMITTEE ON COMMERCE,

                      SCIENCE, AND TRANSPORTATION

                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 11, 2007

                               __________

    Printed for the use of the Committee on Commerce, Science, and 
                             Transportation




                  U.S. GOVERNMENT PRINTING OFFICE
79-662                    WASHINGTON : 2013
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




       SENATE COMMITTEE ON COMMERCE, SCIENCE, AND TRANSPORTATION

                       ONE HUNDRED TENTH CONGRESS

                             FIRST SESSION

                   DANIEL K. INOUYE, Hawaii, Chairman
JOHN D. ROCKEFELLER IV, West         TED STEVENS, Alaska, Vice Chairman
    Virginia                         JOHN McCAIN, Arizona
JOHN F. KERRY, Massachusetts         TRENT LOTT, Mississippi
BYRON L. DORGAN, North Dakota        KAY BAILEY HUTCHISON, Texas
BARBARA BOXER, California            OLYMPIA J. SNOWE, Maine
BILL NELSON, Florida                 GORDON H. SMITH, Oregon
MARIA CANTWELL, Washington           JOHN ENSIGN, Nevada
FRANK R. LAUTENBERG, New Jersey      JOHN E. SUNUNU, New Hampshire
MARK L. PRYOR, Arkansas              JIM DeMINT, South Carolina
THOMAS R. CARPER, Delaware           DAVID VITTER, Louisiana
CLAIRE McCASKILL, Missouri           JOHN THUNE, South Dakota
AMY KLOBUCHAR, Minnesota
   Margaret L. Cummisky, Democratic Staff Director and Chief Counsel
Lila Harper Helms, Democratic Deputy Staff Director and Policy Director
   Christine D. Kurth, Republican Staff Director and General Counsel
Kenneth R. Nahigian, Republican Deputy Staff Director and Chief Counsel


                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on April 11, 2007...................................     1
Statement of Senator Boxer.......................................     2
Statement of Senator Inouye......................................     1
    Prepared statement...........................................     1
Statement of Senator Lautenberg..................................     5
    Prepared statement...........................................     5
Statement of Senator Lott........................................    28
    Prepared statement...........................................    28
Statement of Senator Rockefeller.................................    26
Statement of Senator Snowe.......................................    24
Statement of Senator Stevens.....................................     4
    Prepared statement...........................................     4

                               Witnesses

Chandran, Rahul, Program Coordinator, Center on International 
  Cooperation....................................................    59
    Prepared statement...........................................    61
Hanni, Kate, Executive Director, Spokesperson, and Founder, 
  Coalition for Airline Passengers' Bill of Rights...............    44
    Prepared statement...........................................    48
    Letter, dated February 9, 2007 from Sheila Pfister to Hon. 
      Mike Thompson, First District of California................    52
    Article dated January 17, 2007 from Business Wire entitled 
      ``Allied Pilots Association Outraged That Executive Bonuses 
      Could Match or Exceed American Airlines' 2006 Net Profit''.    53
    Letter dated April 2, 2007 from Roger Barbour, Jr. to Kate 
      Hanni......................................................    54
    Letter dated April 6, 2007 from Katharine ``Katty'' Biscone 
      to Kate Hanni..............................................    57
Hudson, Paul, Executive Director, Aviation Consumer Action 
  Project (ACAP).................................................    35
    Prepared statement...........................................    36
May, James C., President and CEO, Air Transport Association of 
  America, Inc...................................................    62
    Prepared statement...........................................    64
Mierzwinski, Edmund, Consumer Program Director, U.S. Public 
  Interest Research Group........................................    29
    Prepared statement...........................................    31
Mitchell, Kevin P., Chairman, Business Travel Coalition..........    40
    Prepared statement...........................................    42
Reynolds, Michael W., Deputy Assistant Secretary for Aviation and 
  International Affairs, U.S. Department of Transportation.......     6
    Prepared statement...........................................     8
Scovel III, Hon. Calvin L., Inspector General, U.S. Department of 
  Transportation.................................................    11
    Prepared statement...........................................    13

                                Appendix

Kerry, Hon. John F., U.S. Senator from Massachusetts, prepared 
  statement......................................................    77
Response to written questions submitted by Hon. Maria Cantwell 
  to:
    James C. May.................................................    88
    Edmund Mierzwinski...........................................    88
    Kevin P. Mitchell............................................    89
    Michael W. Reyolds...........................................    87
    Hon. Calvin L. Scovel III....................................    88
Response to written questions submitted by Hon. Daniel K. Inouye 
  to:
    Michael W. Reynolds..........................................    78
    Hon. Calvin L. Scovel III....................................    84
Response to written questions submitted by Hon. John F. Kerry to:
    Michael W. Reynolds..........................................    80
    Hon. Calvin L. Scovel III....................................    85
Thune, Hon. John, U.S. Senator from South Dakota, prepared 
  statement......................................................    77


                      AIRLINE SERVICE IMPROVEMENTS

                              ----------                              


                       WEDNESDAY, APRIL 11, 2007

                                       U.S. Senate,
        Committee on Commerce, Science, and Transportation,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 2:35 p.m. in room 
SR-253, Russell Senate Office Building, Hon. Daniel K. Inouye, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. DANIEL K. INOUYE, 
                    U.S. SENATOR FROM HAWAII

    The Chairman. The quality of passenger service offered by 
our Nation's domestic airlines is an issue all Members of 
Congress hear about from their constituency regularly. So, this 
Committee remains active in providing oversight on the issue in 
an effort to ensure that air carriers maintain an appropriate 
level of service. This special hearing was asked for by Senator 
Boxer.
    I will ask that my statement be made part of the record.
    [The prepared statement of Senator Inouye follows:]

 Prepared Statement of Hon. Daniel K. Inouye, U.S. Senator from Hawaii
    The quality of passenger service offered by the Nation's domestic 
airlines is an issue all Members of Congress hear about from their 
constituents regularly. This Committee remains active in providing 
oversight of the issue in an effort to ensure that air carriers 
maintain an appropriate level of service.
    The Commerce Committee first held hearings in the summer of 2000, 
when air travelers experienced record delays. In 2001 an additional 
hearing was held to assess the progress airlines had made in addressing 
the problems highlighted the previous year.
    At the time of those hearings, the majority of the Nation's 
domestic airlines had begun to take a number of voluntary steps to 
address service quality concerns, in an effort to avoid a legislative 
mandate. The Air Transport Association's (ATA) member airlines agreed 
to implement an ``Airline Customer Service Commitment'' in 1999 which 
addressed, among other issues, delay notification and on-time baggage 
delivery provisions.
    In its 2001 report, the Department of Transportation (DOT) 
Inspector General noted that airlines had made some progress on these 
commitments, but there was still room for improvement.
    While service appeared to improve during the past several years, 
the recent significant growth in airline travel has revealed that these 
problems remain. Specifically, over the past several months there have 
been a number of events that have set off alarms about the underlying 
quality of airline passenger service.
    Last December and over Valentine's Day weekend, we had a number of 
cases where passengers were delayed in planes on the ground for nine or 
more hours. Further, DOT statistics show February's delays rose to the 
second highest level ever.
    Airlines point out that these problems are primarily attributable 
to weather or other uncontrollable air traffic operational problems. 
While weather can be a factor, poor management decisions by air 
carriers, a problem that is controllable, have also contributed to 
these problems.
    When American Airlines and JetBlue experienced problems earlier 
this year, the absence of sufficient staff at the right locations was a 
major factor. US Airways has experienced continuing service issues 
resulting from computer problems associated with the integration of 
America West. These types of problems are within the control of the 
airlines and should be anticipated and managed appropriately.
    The solution to these increasing problems with airline service 
quality is not clear. It appears that the voluntary commitments made by 
the airlines 8 years ago to improve service are not enough to improve 
existing conditions, much less sustain quality as capacity continues to 
increase. Yet, any comprehensive legislative solution risks 
micromanaging airlines, and possibly creating more problems through a 
one-size-fits-all approach.
    I look forward to hearing our witnesses' perspectives on the 
issues, and working with them and FAA to find effective solutions.

    The Chairman. May I recognize Ms. Boxer?

               STATEMENT OF HON. BARBARA BOXER, 
                  U.S. SENATOR FROM CALIFORNIA

    Senator Boxer. Thank you so very much, Mr. Chairman, for 
holding this hearing to shed light on an issue recently in the 
news, airlines trapping passengers on the ground in delayed 
planes for hours and hours without adequate food, water, or 
bathrooms. While this problem is not new, it's received 
increased attention since recent debacles in which airlines 
failed to properly prepare for adverse weather conditions on 
Valentine's Day and the New Year's holiday.
    Over New Year's Eve weekend, American Airlines had to 
divert flights because of weather problems at various airports. 
This isn't uncommon. All of us who travel know that weather 
can, of course, impact flights. However, what followed was 
disastrous, and it caused Senator Snowe and I to get together 
and write bipartisan legislation that we call ``A Passenger's 
Bill of Rights.''
    Passengers sat trapped on the ground in delayed planes for 
over 9 hours. Nine hours, Mr. Chairman, with nothing to eat but 
pretzels, while toilets overflowed and tempers flared.
    Six weeks later, a JetBlue airplane sat on the tarmac at 
JFK Airport in New York for 10 and a half hours. More than half 
a dozen other JetBlue flights sat on the tarmac for more than 6 
hours. Again, for the passengers, the conditions were awful. 
There wasn't enough food or potable water, and the bathrooms 
stopped working. Even worse, many passengers were given 
incomplete or misleading information, or they were refused 
help, or they were treated indifferently or disrespectfully by 
airline employees.
    Now, I'm sure many of us have been stuck on the tarmac many 
times. Certainly, it's happened to me on my travels back and 
forth to California. Sometimes, with weather and security in a 
post-9/11 world, delays are unavoidable. But it seems to me, 
and it seems to Senator Snowe and I, that airlines must have a 
plan to ensure that their passengers, who often include infants 
and the elderly, are not held what's equivalent to being 
hostages on a plane for hours and hours.
    This is not the first time that Congress has taken a look 
at the airlines' inability and unwillingness to take 
responsibility for the well-being of their passengers, who are 
their bread and butter. In 1999, after a Northwest plane was 
delayed on the tarmac for 9 hours, with poor conditions, many 
Members of Congress were outraged, and several introduced 
comprehensive Passenger Bill of Rights legislation. While those 
bills did not become law, the thought of congressional action 
had a somewhat sobering effect on the airlines, who 
subsequently agreed to a 12-point, and I quote, ``Airline 
Customer Service Plan,'' unquote. In the plan, the airlines 
committed to providing passengers with better information about 
ticket prices and delays; better efforts to retrieve lost 
luggage; fairer bumping policies; and to meeting essential 
needs during long on-aircraft delays. Now, let me reiterate 
this. The airlines themselves have a 12-point plan called the 
Airline Customer Service Plan, and on that plan it says that 
they need to make sure that essential needs are met during long 
on-aircraft delays.
    And we did see some improvements. And we thanked the 
airlines for that after 1999 and after that 12-point plan. But 
in recent years, as the industry has grown even more 
competitive in the post-9/11 environment, airlines are 
increasingly operating with no margin of error. Planes are 
completely sold out, gates are continuously utilized, airport 
facilities and our air traffic control system are stretched 
thin. This means that when bad weather hits, the airlines can 
find themselves unable to readily accommodate delays and 
cancellations. And the results, as we've seen this winter, can 
be a disaster. That is why, again, Senator Snowe and I 
introduced the Airline Passengers' Bill of Rights Act of 2007.
    The legislation requires airlines to offer passengers the 
option of safely leaving a plane that they've boarded once that 
plane has sat on the ground 3 hours after the plane door has 
closed. So, it's not 3 hours after the departure schedule, but 
3 hours after the door has closed.
    This legislation also requires airlines to provide 
passengers with necessities, such as food, potable water, 
adequate restroom facilities, while a plane is delayed on the 
ground.
    Our legislation provides two exceptions to the 3-hour 
option. The pilot may decide to not allow passengers to deplane 
if he or she reasonably believes their safety or security would 
be at risk due to extreme weather or other emergencies. So, we 
give the pilot a tremendous amount of discretion here. The 
pilot.
    Alternately, if the pilot reasonably determines the flight 
will depart within 30 minutes after the 3-hour period, he or 
she can delay the deplaning option for an additional 30 
minutes.
    To be clear, the Boxer-Snowe bill does not require the 
plane to return to the gate, as some have suggested. The 
passengers can be retrieved with stairs and a bus, as long as 
it's safe to do so, as was the case of a stranded JetBlue 
flight at Kennedy. Passenger safety must be the number-one 
priority. So, if there's dangerous weather, the plane is not 
safely accessible on the ground, or there are any other safety 
or security concerns, again, the pilot can choose not to allow 
the passengers to deplane.
    I believe this legislation is common sense and fair. It 
will benefit consumers, while not hurting airline operations or 
their revenues. Airlines provide a vital service in a 
competitive business climate, and we all want them to succeed; 
I can surely tell you that I do. Indeed, the Federal Government 
has been a longstanding partner to the aviation industry, 
providing assistance with airport infrastructure, air traffic 
control services, and, after the September 11 recovery, 
straight-out money. But, on the issue of passenger rights the 
airline industry is once again urging Congress to stay on the 
sidelines.
    That's exactly what happened in 1999. Back then, Congress 
gave airlines the benefit of the doubt. We gave them a chance 
to do right by their customers. This winter's events made clear 
that airlines have failed to live up to their own promises, 
that they literally had written down in their own Passenger 
Bill of Rights.
    Now, I do commend the efforts of companies like JetBlue, 
which responded admirably to this winter's delay by introducing 
a new Consumer Bill of Rights, their own Customer Bill of 
Rights. While this was a definite step forward, history shows 
we must do more.
    So, today I'm interested to hear what the Department of 
Transportation is doing about this problem. They also have a 
role to play in tracking and following up on consumer 
complaints and better managing flight operations in bad 
weather. And I also look forward to hearing from the Air 
Transport Association to better understand the airlines' 
concerns. But, most important, I want to hear from the 
passengers and the consumer groups to understand the human 
impact when airline operations break down to the extent that 
they have done so recently.
    Mr. Chairman, I thank you so much. I know you have a heavy 
schedule of hearings. I do appreciate your scheduling this. I 
thank the Ranking Member, as well.
    The Chairman. I can assure the Senator we're here because 
we're similarly concerned.
    Senator Stevens?

                STATEMENT OF HON. TED STEVENS, 
                    U.S. SENATOR FROM ALASKA

    Senator Stevens. Mr. Chairman, just put my statement in the 
record, will you, please? I'd like to hear from the witnesses--
--
    The Chairman. Without objection, so ordered.
    Senator Stevens.--since I do have some conflicts this 
afternoon. Thank you.
    [The prepared statement of Senator Stevens follows:]

    Prepared Statement of Hon. Ted Stevens, U.S. Senator from Alaska
    I would like to thank Chairman Inouye for calling the hearing 
today. The topic of improved airline service and airline customer 
relations has been on many minds the last few months.
    Recently, the FAA forecasted that approximately 770 million 
passengers will fly this year, and more than one billion by the year 
2015, and up to 1.2 billion by the year 2020. The sheer number of 
passengers will be a challenge for the FAA and the airlines to cope 
with in terms of developing and implementing a modern air traffic 
control system to meet this demand. For the airlines, an important 
aspect of the system will have to be the need for improved customer 
service.
    Like many of my colleagues, because of the nature of our business, 
we tend to travel often and at peak times. Over the years, we have all 
experienced less than ideal air transport situations. While most of the 
traveling public has become tolerant of modest flight delays, it is 
important that the airlines take note of the lessons learned over the 
past few months and take adequate steps to address the increasing rift 
between airlines and the traveling public.
    It is also important, with traffic rebounding like it is, that the 
FAA and the Department of Transportation further work and research into 
predictive weather models and regulatory oversight of the users of the 
system. They need to take continued steps toward how they manage delays 
in the aviation system.
    While the unintended consequences of legislating the customer 
service operations of airlines may not be the best route of action, 
airlines need to take the situation seriously. As an industry, they 
should voluntarily update their individual ground operation procedures 
and emergency situation protocols along with providing vastly improved 
disclosure of flight data and communication with their customers.
    I think we can all agree that delays will never be avoided 
altogether, but how we deal with them can certainly be improved.
    Again, Chairman Inouye, thank you for calling the hearing and I 
look forward to the testimony.

    The Chairman. Senator Lautenberg?

            STATEMENT OF HON. FRANK R. LAUTENBERG, 
                  U.S. SENATOR FROM NEW JERSEY

    Senator Lautenberg. Mr. Chairman, I, too, would ask that my 
statement, even though it's very brief, be included in the 
record. And I would like to make just a couple of comments.
    [The prepared statement of Senator Lautenberg follows:]

            Prepared Statement of Hon. Frank R. Lautenberg, 
                      U.S. Senator from New Jersey
    Mr. Chairman, thank you for holding today's hearing.
    Airlines are more than just private companies trying to earn a 
profit.
    Airlines are ``public carriers,'' which means that they have 
certain responsibilities when they offer services to everyday 
travelers.
    Weather can delay a flight. But the biggest reason the airlines 
don't live up to their responsibilities is poor planning.
    The summer of 2000 was one of the worst on record for delays.
    As for airlines themselves, some airlines are using smaller 
regional jets and overbooking them to increase their bottom line. But 
these fuller, smaller planes end up contributing to the delays.
    The end result here is that travelers suffer: They get stuck 
sitting in jets on the tarmac, sometimes for hours on end.
    And there is no excuse for not providing those passengers with 
basic needs such as food, water and functioning bathrooms.
    We thought the industry got the message in 1999. But apparently 
not.
    I am a proud cosponsor of Senator Boxer's Passenger Bill of Rights. 
It's a good start.

    Senator Lautenberg. I'm delighted to be a cosponsor of 
Senator Boxer's bill on passenger rights. And I just think back 
a little bit, what might have happened inside those cabins if I 
hadn't authored a bill to ban smoking in airplanes. Could you 
imagine the battle between the smokers and the nonsmokers 
inside the cabin? ``I've got to light up.'' ``No, you can't.'' 
Well, we know what might have happened there.
    And I ask a question here. What kind of risks might we be 
encouraging by having the crew fatigue, sitting out there 8 or 
9 hours hours. It's not well thought out. And we have 
overcrowding in the skies that's going to get worse with the 
advent of the very light jets that are coming; 5,000 are 
predicted to be in the air in the next 10 years. And I see it 
regularly, when I try to get an airplane to the New York/New 
Jersey region, get in the plane, the pilot reminds us that it's 
36 minutes of flying time, and then tells us that we have an 
hour and a half wait before we start the flying time going. And 
so, things are really terribly mixed up. And the inhumane 
treatment of passengers, and including pets that are in the 
airplane, also unable to control what--their activities, and 
what kind of a intolerable commission--condition exists in 
these airplanes.
    So, I think the airline industry has to get together and 
think through a policy that says relief must be supplied. What 
happens if the fuel gets low? They don't just take off when--
with a lesser amount of fuel than they need. And why shouldn't 
the passengers be treated the same way? I mean, at some point, 
they're out of condition, out of acceptable humane condition, 
that there isn't some relief mechanism, whether it's sending 
buses out there or something else, you're not going to have 
people load and unload with their baggage problems, security 
problems attached.
    I'll close with one thought and one quick story. My son 
came in. He lives in Colorado, and tried to land in New York--
it was a few years ago--in the snow, and they sent--diverted 
them up to Albany, New York. And they were on the plane a few 
hours. It was late at night.
    And my son got the idea to call Dominos Pizza, and the 
truck was allowed out on the airport, and everybody had a piece 
of pizza, which gave them some sense of relief. But I close, 
Mr. Chairman, by saying that if I've ever seen an argument for 
high-speed rail in this country of ours, it's now.
    [Laughter.]
    Senator Lautenberg. It is now. The highways are jammed. The 
airports are jammed. People sitting on the floor--very often, 
you trip over people. They say, ``Don't leave your baggage 
around.'' Don't leave your people around, because you trip on 
them as you walk through.
    So, we've got to think very broadly about this, Mr. 
Chairman and figure out what alternatives there can be to these 
terrible delays and discomforts.
    The Chairman. Thank you very much.
    And now we'll hear from the experts. We have two panels. 
The first panel, Mr. Michael Reynolds, Deputy Assistant 
Secretary, United States Department of Transportation, and the 
Honorable Calvin L. Scovel III, Inspector General, U.S. 
Department of Transportation, Office of Inspector General.
    May I first recognize Mr. Reynolds?

 STATEMENT OF MICHAEL W. REYNOLDS, DEPUTY ASSISTANT SECRETARY 
  FOR AVIATION AND INTERNATIONAL AFFAIRS, U.S. DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Reynolds. Mr. Chairman, Mr. Vice Chairman, members of 
the Committee, thank you for inviting me to this hearing. I 
appreciate the opportunity to testify today on behalf of the 
Department of Transportation.
    With your permission, I would like to summarize my written 
statement, which I ask be made part of the record.
    The Chairman. Without objection, so ordered.
    Mr. Reynolds. Since deregulation of the airline industry 
nearly 30 years ago, the Department has sought to balance the 
public interest in protecting consumers from unreasonable 
practices with our statutory mandate to allow market forces to 
operate to the maximum extent possible in order to determine 
what services are best provided by airlines. We continue to 
believe that this approach is the proper one.
    The cornerstone provision of DOT's Consumer Protection 
Program is a section of the U.S. Code that broadly prohibits 
unfair and deceptive practices and unfair methods of 
competition in air transportation. The Department's Office of 
the General Counsel acts as the prosecuting office for aviation 
consumer enforcement cases under that statute, which is 
enforceable in its own right, and, more importantly, serves as 
the basis for DOT policies and rulemakings.
    That office also handles all consumer complaints and 
inquiries, and publishes the Department's monthly Air Travel 
Consumer Report, which summarizes airline data on flight 
delays, mishandled baggage, and denied boardings, and also 
lists, by airline, the number of complaints registered with 
DOT. It's important to note that between 2000 and 2006, 
complaints filed with the Department went down by nearly two-
thirds; however complaint numbers are starting to rise this 
year.
    Let me now touch upon the incidents of this past winter, 
involving airline passengers being trapped for many hours on 
aircraft on the ground. The most highly publicized events 
involved American Airlines, in late December of last year, and 
JetBlue Airways, in February, both of which were related to 
adverse weather. Although these two carriers received extensive 
media attention, virtually all carriers have had problems 
related to customer service, including, on occasion, flights 
that experience long tarmac delays.
    Secretary Peters and the Department were troubled by 
incidents like these, particularly to the extent that food, 
water, and other basic needs were not being met by the 
airlines. That is why we are pleased to see that the airlines 
involved in these specific incidents appear to be taking some 
corrective actions.
    In response to its December incident, American Airlines 
reportedly instituted new guidelines which implemented--which 
included limiting tarmac delays to no more than 4 hours. 
JetBlue very publicly accepted responsibility for its 
shortcomings and took a number of steps, including adopting 
what it terms a Customer Bill of Rights.
    Although extended tarmac delays are statistically rare, as 
I'll discuss in a moment, airlines must have adequate plans in 
place to deal with these types of situations as they arise. 
Clearly, stranding hundreds of passengers aboard aircraft 
sitting on tarmacs for as many as 9 hours is not acceptable. 
And incidents like these raise serious concerns about planning 
for such events. Passenger carriers should do everything 
possible to ensure situations like this do not occur again.
    The Department strongly prefers that the airlines address 
their customer service issues, rather than the Federal 
Government, but sometimes outside action may be necessary. That 
is why Secretary Peters formally asked the Department's 
Inspector General to conduct an investigation into these 
incidents. The Secretary further requested that the IG examine 
how the major air carriers are doing on the commitment they 
made nearly 9 years ago to ensure that basic needs of 
passengers are met during long ground delays. After the IG's 
review, we will consider what, if any, further action is 
appropriate.
    It is important to keep the issue of tarmac delays in 
context. Airline networks are extremely complex operations that 
balance many operational, mechanical, safety, regulatory, and 
other constraints. Any new requirement has the potential to add 
to the complexity and costs of these operations.
    Also, between 2000 and 2006, complaints to DOT about tarmac 
delays have decreased significantly, both in absolute number 
and as a percentage of total complaints.
    With regard to recent tarmac delays, DOT's statistics show 
that in 2006 less than two-hundredths of 1 percent of all 
flights by the largest 20 airlines were delayed by more than 3 
hours in taking off after leaving the gate. Further, your 
chances, last year, of being on the tarmac for more than 5 
hours after leaving the gate were about 1 in 200,000. Of 
course, we recognize that statistics mean nothing to the 
passengers who are victims of lengthy tarmac delays, and, 
therefore, statistics cannot be the sole factors to consider.
    We empathize with passengers delayed on airplanes for long 
periods of time. We also empathize with passengers who want to 
get to their destinations and, despite weather-induced delays, 
would like airlines to make every effort to get them there as 
quickly as possible. I can assure the Committee that the 
Department will review the IG's report carefully, and, if 
necessary, take appropriate actions to ensure that airlines are 
adequately protecting consumers in relation to the possibility 
of extended on-ground delays.
    Thank you, again, for the opportunity to testify, and I'd 
be happy to answer any questions you may have.
    [The prepared statement of Mr. Reynolds follows:]

 Prepared Statement of Michael W. Reynolds, Deputy Assistant Secretary 
      for Aviation and International Affairs, U.S. Department of 
                             Transportation
    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee, 
thank you for inviting me to this hearing. I appreciate the opportunity 
to testify today on behalf of the Department of Transportation.
    I want to emphasize to the Committee at the outset of my statement 
that the issue prompting this hearing today, which involves the 
treatment of consumers by airlines during extended on-ground flight 
delays, commonly referred to as tarmac delays, is being taken seriously 
by the Department, as evidenced by our prompt action following the 
recent incidents, which I will discuss shortly. Before I discuss that 
action, however, I would like to give you a broad overview of our 
authority to regulate in matters involving airline consumer protection, 
including tarmac delays, and our continuing efforts to ensure that 
passenger carriers meet their obligations to consumers.
    Since deregulation of the airline industry nearly 30 years ago, the 
Department--as well as its predecessor, the Civil Aeronautics Board--
has sought to balance the public interest in protecting consumers from 
unreasonable practices with our statutory mandate to permit market 
forces to operate to the maximum extent possible in order to determine 
what services are best provided the public by airlines. When action has 
been required, we have tried, wherever possible, to implement measures 
to enhance the functioning of the marketplace, such as publishing 
carrier performance data, or requiring the airlines themselves to 
disclose data to consumers that may be of use in making their choices 
of which carriers to use. We continue to believe this approach to be 
the proper one.
    The cornerstone provision for DOT's consumer protection program 
covering all economic regulatory matters, as opposed to those involving 
safety, is section 41712 of Title 49 of the U.S. Code, which broadly 
prohibits unfair and deceptive practices and unfair methods of 
competition in air transportation. The Secretary's Office of the 
Assistant General Counsel for Aviation Enforcement and Proceedings 
(Enforcement Office) acts as the prosecuting office for aviation 
consumer enforcement cases, including those involving unfair and 
deceptive practices. That office may act on its own initiative, and it 
also reviews formal third-party complaints alleging violations of the 
statute or the Department's consumer protection rules and either 
dismisses them or pursues enforcement action. It also has the authority 
to enter into settlements relating to those cases. Section 41712 is 
enforceable in its own right, but violations can be difficult to 
demonstrate. Even if a prosecution is ultimately successful, such cases 
are resource intensive, time consuming, and of limited precedential 
value because each is highly dependent on its own set of facts. That 
section is more important as the basis for DOT rulemaking and 
policymaking, where the public interest dictates, to define the extent 
of its statutory reach. For example, section 41712 provides the 
statutory basis for our airline full fare advertising and oversales 
compensation rules.
    The Aviation Consumer Protection Division, within the Enforcement 
Office, handles all consumer complaints and inquiries involving 
economic regulatory matters and works with airlines and other companies 
to resolve informal consumer complaints relating to air transportation. 
Complaints filed with that division are often helpful to us in 
reviewing specific problem areas or industry trends that may need to be 
addressed through administrative action. That division also 
investigates apparent violations of consumer protection requirements, 
refers matters to the Enforcement Office where appropriate, and 
performs consumer protection rulemaking functions. In addition, the 
Aviation Consumer Protection Division has significant public 
information, education, and outreach programs, including publications 
that provide general air travel consumer information, such as the 
Department's monthly Air Travel Consumer Report. That report summarizes 
data filed with DOT by carriers on flight delays, mishandled baggage, 
and denied boardings, and also lists by carrier the number of 
complaints registered in a variety of areas, including baggage, 
refunds, and flight irregularities. Complaints filed with the 
Department over the past several years have trended downward from a 
high of about 23,000 in calendar year 2000, with about 8,300 being 
filed with us last year. However, complaint numbers are starting to 
increase this year.
    Let me now touch upon the incidents of this past winter involving 
airline passengers being trapped for many hours on aircraft on the 
ground. The most highly-publicized events included serious service 
disruptions and lengthy tarmac delays experienced by American Airlines 
in late December of last year after severe weather hit the Southwest. 
Also, more recently, JetBlue Airways experienced severe flight 
irregularities and lengthy on-ground delays on Valentine's Day and the 
days that followed during a period of adverse weather in the Northeast. 
Although American and JetBlue received extensive media attention, 
virtually all carriers have had problems related to customer service, 
including, on rare occasion, flights that experience long tarmac 
delays.
    Secretary Peters and the Department were troubled by incidents like 
these, particularly to the extent that food, water, and other basic 
needs were not being met by the airlines. That is why we were pleased 
to see that the airlines involved in these specific incidents appeared 
to be taking substantial corrective actions. In response to its 
December incident, American Airlines reportedly instituted new 
guidelines, which included limiting tarmac delays to no more than 4 
hours. JetBlue very publicly accepted responsibility for its 
shortcomings and took a number of steps to address its customers' 
concerns. Significantly, it adopted what it termed a ``Customer Bill of 
Rights,'' by which it promises to (1) provide passengers on lengthy on-
board delays with food, water, and medical care, if necessary; (2) 
compensate passengers for extended tarmac delays; and (3) set a time 
limit of 5 hours on the maximum duration of any tarmac delay. This 
policy has been widely disseminated and made available to the public on 
the carrier's website. Importantly, JetBlue incorporated its bill of 
rights into its contract of carriage, providing passengers a legally 
binding avenue of redress if the carrier fails to follow through on its 
promises.
    Although extended tarmac delays are statistically rare (as I'll 
discuss in a moment), airlines must have adequate plans in place to 
deal with these situations as they arise. Clearly, stranding hundreds 
of passengers aboard aircraft sitting on tarmacs for as many as 9 hours 
is not acceptable, and incidents like these raise serious concerns 
about planning for such events. Passenger carriers should do everything 
possible to ensure that situations like these do not occur again.
    The Department strongly prefers that the airlines address customer 
service issues rather than the Federal Government, but sometimes 
outside action may be necessary. That is why Secretary Peters formally 
asked the Department's Inspector General (IG) to conduct an 
investigation into these incidents and further requested that the IG 
examine how all the major airlines are doing on the commitment they 
made nearly 8 years ago to ensure that the basic needs of passengers 
are met during long ground delays. After the IG's review, we will 
consider what, if any, further action is appropriate. This review will 
also look at whether any ``best practices'' exist that can afford an 
opportunity for all carriers to learn from these experiences and ensure 
they are not repeated.
    It is important to keep the issue of tarmac delays in context. Our 
Aviation Consumer Protection Division records complaints concerning the 
number of unreasonable tarmac delays, which have ranged from 753 during 
the year 2000 to just over 100 last year. Tarmac delay complaints have 
not only generally decreased in absolute numbers over the years, but 
importantly, the number of such complaints as a percentage of total 
complaints has decreased from 3.2 percent in the year 2000 to only 1.3 
percent last year.
    Separately, the Bureau of Transportation Statistics collects data 
regarding taxi-out times for the 20 largest airlines. With regard to 
recent tarmac delays, our statistics show that in 2006, out of a total 
of more than 7.14 million flights, just under 1,300 (1,295) were 
delayed more than 3 hours in taking off after leaving the gate. 
Excluding flights that were diverted or ultimately canceled (our 
reporting requirements do not capture data on delays associated with 
such flights), this means that less than two-hundredths of 1 percent 
(0.018 percent) of all these flights experienced tarmac delays in 
excess of 3 hours after leaving the gate. Last year, your chances of 
being on the tarmac for more than 5 hours after leaving the gate were 
about 1 in 200,000.
    Of course, we recognize that statistics mean nothing to the 
passengers who are themselves the victims of unreasonable tarmac delays 
and therefore statistics cannot be the sole factor to consider in 
determining what, if anything, we should do to address tarmac delays. 
Indeed, the Department is of the firm belief that each carrier should, 
at a minimum, make clear what passengers can expect with regard to 
extended ground delays and, in particular, should have in place 
comprehensive plans to ensure that efforts will be made to get 
passengers off an aircraft when ground delays, involving either 
departing or arriving flights, are expected to extend beyond a 
reasonable period of time.
    What the Secretary has asked the Inspector General to do is a 
challenging task. I assure the Committee that the Department will 
review the report carefully and, if necessary, take appropriate actions 
to ensure that airlines are adequately protecting consumers in relation 
to the possibility of extended on-ground delays.
    As policymakers consider these incidents, it is important to 
understand that airline networks in the 21st century are extremely 
complex operations involving myriad operational, mechanical, safety, 
regulatory, and other constraints. Unlike many other service industries 
and despite technological advances, air transportation is still a 
complicated process that requires close coordination among many 
different organizations, including various divisions of an airline, an 
airport, the FAA's Air Traffic Organization, and many ground service 
and maintenance providers. As we have seen, when complex airline 
operating systems are interrupted by weather or other irregularities, a 
breakdown in the business or operational practices anywhere in the 
system can have significant ripple effects from which it becomes 
increasingly difficult to recover.
    Given this complexity, we believe the facts must be better 
understood before determining what, if any, action by the government is 
warranted. We empathize with passengers delayed on airplanes for long 
periods of time. We also empathize with passengers who want to get to 
their destinations and--despite weather-induced delays--would like 
airlines to make every effort to get them there as quickly as possible. 
We first need to understand better the root causes of extended tarmac 
delays and determine whether the causes are specific to an individual 
airline's business and operational procedures or more systemic in 
scope. That is why we asked the IG to investigate with a view toward 
not only understanding the issues, but also exploring industry best 
practices that may address them.
    A discussion of what today's aviation passenger faces in our 
current system would not be complete without a discussion of our plans 
for transforming the system to the Next Generation Air Transportation 
System (NextGen). I know this Committee held hearings last month on the 
work of the Joint Planning and Development Office (JPDO), but it is 
worth a brief mention here because unless we lay the foundation today 
for NextGen, airline passengers will encounter untold delays and 
service disruptions in the future. If an overloaded system begins to 
grind to a halt, it will matter little how well airlines handle 
customer service.
    We already see the impact of the effects of increased demand for 
service on the air transportation system. Last year stands as one of 
the worst on record for delays, with about one in four flights of the 
20 largest carriers arriving late. This year is looking no better. In 
February, only 67.3 percent of the domestic flights by those carries 
arrived on time, making it the 5th worst month for on-time performance 
since 1995. Looking well down the road, we predict delays will increase 
62 percent by 2014 without NextGen. There is simply no way we can 
overcome congestion of this magnitude without transforming the air 
traffic management system. Other issues, ranging from environmental 
concerns to the complexities of homeland security, are placing 
additional stress on the system. It's a sobering picture. Without 
NextGen, some parts of the system will ``freeze'' first. Then other 
areas will follow. The system will reach its absolute breaking point, 
and our customers, especially the passengers, will be the ones who 
suffer.
    The people whom we serve--our customers--don't deserve to be mired 
in congestion. Investing now in NextGen systems will avoid that 
outcome. We must replace our outdated air traffic control architecture 
with a 21st century satellite-based navigation system. Such a system 
will safely handle dramatic increases in the number and type of 
aircraft using our skies, without being overwhelmed by congestion. The 
JPDO released the NextGen Concept of Operations for public comment on 
February 28. It is now available on the JPDO website for review and 
comment by aviation stakeholders. The NextGen Enterprise Architecture 
and the Integrated Work Plan should be released within the next few 
months. These documents provide us with that picture of where we want 
to go and the plans for how to achieve it.
    As you know, the Administration believes that the current funding 
system is out of step with critical future needs. Without a rational 
funding mechanism that is tied to costs and future infrastructure 
development needs, the best laid plans for the NextGen system could be 
wasted, and long delays, on the ground and in the air, will only get 
worse. In other words, passenger well-being in the future depends on 
what the Federal Government does now as much as what the airlines do. I 
know you've had hearings on the specifics of our funding proposal, so I 
won't repeat them here. I would, however, like to emphasize the urgent 
need for a more equitable system of fees that more accurately reflects 
the true cost of services that various types of users actually consume.
    Thank you again for this opportunity to testify. I would be happy 
to answer any questions you may have.

    The Chairman. I thank you very much.
    And may I now recognize Mr. Scovel?

       STATEMENT OF HON. CALVIN L. SCOVEL III, INSPECTOR 
           GENERAL, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Scovel. Mr. Chairman, Mr. Vice Chairman, and members of 
the Committee, I appreciate the opportunity to testify this 
afternoon. This hearing is both timely and important, given the 
recent events this past winter involving extended ground delays 
with passengers stranded onboard aircraft for extended periods, 
some for 9 hours or longer.
    Secretary Peters has serious concerns about this issue, and 
has asked my office to review the airlines' customer service 
commitments and policies for dealing with extended ground 
delays and the airlines' contingency planning for such events.
    As this Committee is aware, airline customer service took 
center stage in January 1999, when a similar situation 
occurred, with hundreds of passengers trapped onboard planes on 
snowbound runways in Detroit. Following congressional hearings 
at that time, member airlines of the Air Transport Association, 
ATA, agreed to execute a voluntary airline customer service 
commitment to demonstrate their dedication to improving air 
travel.
    In February 2001, we reported that the ATA member airlines 
were making progress toward meeting the commitment, which has 
benefited air travelers in a number of important areas. 
However, the commitment did not directly address the underlying 
cause of deep-seated customer dissatisfaction: flight delays, 
and cancellations. And this is still the case.
    The debate today is over the best way to ensure improved 
airline customer service, whether it's voluntarily implemented 
by airlines, legislated by Congress, further regulated by the 
Department, or some combination thereof. This is clearly a 
policy issue for Congress to decide.
    Today, I would like to discuss three important points 
regarding airline customer service, as we see them, based on 
the results of our previous airline customer service reviews 
and our ongoing work.
    First, the airlines must refocus efforts to improve 
customer service. In November 2006, we reported that ATA member 
airlines' customer service plans were still in place to carry 
out the provisions of their commitment, including meeting 
passengers' essential needs during long onboard delays. 
However, we found several areas where the airlines needed to 
refocus efforts to improve customer service.
    The airlines needed to resume efforts to self-audit their 
customer service plans. A quality assurance and performance 
measurement system, combined with self-audits, are necessary to 
ensure the success of both the commitment and the customer 
service plans. In our 2006 review, however, we found that just 
five of the ATA airlines had quality assurance systems and 
performed self-audits.
    Next, the airlines must also emphasize to their customer 
service employees the importance of providing timely and 
accurate flight information to passengers.
    Further, the airlines must disclose chronically delayed 
flights to customers. We recommended, in our 2001 report, that 
the airlines disclose to their passengers, at the time of 
booking and without request, the on-time performance for those 
flights that are consistently delayed. To date, none of the 
airlines have adopted this recommendation.
    Second, the Department should take a more active role in 
airline customer service issues. DOT is responsible for 
oversight and enforcement of air travelers consumer protection 
requirements. However, when DOT discovered violations and 
assessed penalties, it almost always forgave the penalty if the 
airline agreed to mitigate the condition for which the penalty 
was assessed. DOT's follow-up to ensure compliance was limited, 
and, in some cases, there was no follow-up monitoring at all. 
Also, instead of onsite compliance reviews, the Department has 
primarily relied on air carriers' self-certifications.
    Third, the airlines must overcome challenges in mitigating 
extraordinary flight disruptions. In 2006, approximately 10 
percent of all commercial flights were delayed due to poor 
weather conditions. As I mentioned earlier, meeting passengers' 
essential needs during long onboard delays is a serious concern 
of Secretary Peters. She asked my office to examine the 
airlines' customer service plans for dealing with these events, 
especially the recent events at American and JetBlue, and 
provide recommendations as to what can be done to prevent a 
recurrence of such events.
    We are in the early stages of this review, and plan to 
brief the Secretary in June, and issue our report and 
recommendations shortly thereafter. However our work, thus far, 
has shown that there are a number of actions that airlines, 
airports, the Department, and FAA can undertake immediately, 
without congressional action, to improve airline customer 
service.
    One, airlines should implement quality assurance and 
performance measurement systems, and conduct internal audits of 
their compliance with the commitment provisions.
    Two, the Department should revisit its current position on 
chronic delays and cancellations, and take enforcement actions 
against air carriers that consistently advertise flight 
schedules that are unrealistic, regardless of the reason.
    Three, the airlines, airports, and FAA should establish a 
task force to coordinate and develop contingency plans to deal 
with lengthy delays, such as working with carriers and airports 
to share facilities and make gates available in an emergency.
    Finally, the Department, in collaboration with FAA, the 
airlines and airports, should review incidents involving long 
onboard ground delays and their causes, identify trends and 
patterns in such events, and implement workable solutions for 
mitigating extraordinarily flight disruptions.
    This concludes my statement. I'd be glad to answer any 
questions you or other members of the Committee may have.
    [The prepared statement of Mr. Scovel follows:]

  Prepared Statement of Hon. Calvin L. Scovel III, Inspector General, 
                   U.S. Department of Transportation
    Mr. Chairman, Mr. Vice Chairman, and Members of the Committee:
    I appreciate the opportunity to be here today to discuss airline 
customer service. This hearing is both timely and important given the 
recent events that occurred this past winter involving extended ground 
delays. In some cases, passengers were stranded aboard aircraft at the 
gate or on the airport tarmac for 9 hours or more due to severe weather 
conditions.
    It is also important to recognize that Secretary Peters has serious 
concerns about the airlines' treatment of passengers during extended 
ground delays; as such, she requested that we examine the airlines' 
customer service plans, contracts of carriage,\1\ and internal policies 
dealing with long, onboard delays and the specific incidents involving 
American Airlines and JetBlue Airways when passengers were stranded 
onboard aircraft for extended periods of time. She also requested that 
we provide recommendations on what actions should be taken to prevent a 
recurrence of such events.
---------------------------------------------------------------------------
    \1\ A contract of carriage is the document air carriers use to 
specify legal obligations to passengers. Each air carrier must provide 
a copy of its contract of carriage free of charge upon request. The 
contract of carriage is also available for public inspection at 
airports and ticket offices.
---------------------------------------------------------------------------
    Currently, the debate is over the best way to ensure improved 
airline customer service: either through voluntary implementation by 
the airlines, legislation, additional regulations, or some combination 
of these. This is clearly a policy issue for Congress to decide. Our 
testimony today is based on the results of our previous airline 
customer service reviews as well as our ongoing work. I would like to 
discuss three key points dealing with actions that would help to 
improve customer service:
    The airlines must refocus their efforts to improve customer 
service. In November 2006, we reported \2\ that Air Transport 
Association (ATA) \3\ airlines' customer service plans were still in 
place to carry out the provisions of the Airline Customer Service 
Commitment that the airlines promised to execute. These provisions 
include meeting passengers' essential needs during long, onboard 
delays. However, we found that the airlines must refocus their efforts 
on airline customer service by resuming efforts to self audit their 
customer service plans, emphasizing to their customer service employees 
the importance of providing timely and adequate flight information, 
disclosing to customers chronically delayed flights, and focusing on 
the training for personnel who assist passengers with disabilities.
---------------------------------------------------------------------------
    \2\ OIG Report Number AV-2007-012, ``Follow-Up Review: Performance 
of U.S. Airlines in Implementing Selected Provisions of the Airline 
Customer Service Commitment,'' November 21, 2006. OIG reports and 
testimonies can be found on our website: www.oig.dot.gov.
    \3\ The Air Transport Association is the trade association for 
America's leading air carriers. Its members transport over 90 percent 
of all the passenger and cargo traffic in the United States.
---------------------------------------------------------------------------
    The Department should take a more active role in airline customer 
service issues. Oversight and enforcement of air traveler consumer 
protection rules are the responsibility of the Department's Office of 
General Counsel. These rules encompass many areas, including unfair and 
deceptive practices and unfair methods of competition by air carriers 
and travel agents, such as deceptive advertising. We found that while 
the Office has made efforts to enforce civil rights violations, it 
needs to improve its oversight of consumer protection laws, including 
its efforts to monitor compliance with the terms and conditions of 
enforcement actions. In recent years, the Office has not conducted 
onsite compliance reviews, relying instead on self-certifications and 
company-prepared reports submitted by the air carriers without 
supporting documentation.
    The airlines must overcome challenges in mitigating extraordinary 
flight disruptions. This past winter's severe weather events 
underscored the importance of improving customer service for passengers 
who are stranded onboard aircraft for extended periods of time. 
According to the Department's Bureau of Transportation Statistics, 
approximately 722,600 flights were delayed in 2006 due to poor weather 
conditions (10 percent of all commercial flights). Meeting passengers' 
essential needs during long, onboard delays is a serious concern of 
Secretary Peters and the Department. Therefore, she asked our office to 
examine the American Airlines and JetBlue Airways events of December 
29, 2006, and February 14, 2007, respectively, and provide 
recommendations as to what, if anything, the airlines, airports, or the 
Government--including the Department--might do to prevent a recurrence 
of such events.
    Before I discuss these points in detail, I would like to briefly 
describe why airline customer service is a ``front-burner'' issue and 
highlight a few statistics on the development of the current aviation 
environment.
    As this Committee is aware, airline customer service took center 
stage in January 1999, when hundreds of passengers remained in planes 
on snowbound Detroit runways for up to 8 and a half hours. After those 
events, both the House and Senate considered whether to enact a 
``passenger bill of rights.''
    Following congressional hearings on these service issues, ATA 
member airlines agreed to execute a voluntary Airline Customer Service 
Commitment \4\ to demonstrate their dedication to improving air travel 
(see figure 1), with provisions such as meeting passengers' essential 
needs during long, on-board delays.
---------------------------------------------------------------------------
    \4\ ATA signed the Commitment on behalf of the then 14 ATA member 
airlines (Alaska Airlines, Aloha Airlines, American Airlines, American 
Trans Air, America West Airlines, Continental Airlines, Delta Air 
Lines, Hawaiian Airlines, Midwest Express Airlines, Northwest Airlines, 
Southwest Airlines, Trans World Airlines, United Airlines, and US 
Airways).
---------------------------------------------------------------------------
Figure 1. Provisions of the Airline Customer Service Commitment

  <bullet> Offer the lowest fare available.

  <bullet> Notify customers of known delays, cancellations, and 
        diversions.

  <bullet> Deliver baggage on time.

  <bullet> Support an increase in the baggage liability limit.

  <bullet> Allow reservations to be held or canceled.

  <bullet> Provide prompt ticket refunds.

  <bullet> Properly accommodate disabled and special-needs passengers.

  <bullet> Meet customers' essential needs during long, on-aircraft 
        delays.

  <bullet> Handle ``bumped'' passengers with fairness and consistency.

  <bullet> Disclose travel itinerary, cancellation policies, frequent 
        flyer rules, and aircraft configuration.

  <bullet> Ensure good customer service from code share partners.

  <bullet> Be more responsive to customer complaints.

Source: Airline Customer Service Commitment, June 1999.

    However, aviation delays and cancellations continued to worsen, 
eventually reaching their peak during the summer of 2000. In 2000, more 
than 1 in 4 flights (26 percent) were delayed, with an average arrival 
delay of 51 minutes.
    Congress then directed our office to evaluate the effectiveness of 
the Commitment and the customer service plans of individual ATA 
airlines.
    We issued our final report \5\ in February 2001. Overall, we found 
that the ATA airlines were making progress toward meeting the 
Commitment, which has benefited air travelers in a number of important 
areas. We found that the airlines were making the greatest progress in 
areas that are not directly related to a flight delay or cancellation, 
such as offering the lowest fare available, holding reservations, and 
responding in a timely manner to complaints.
---------------------------------------------------------------------------
    \5\ OIG Report Number AV-2001-020, ``Final Report on Airline 
Customer Service Commitment,'' February 12, 2001.
---------------------------------------------------------------------------
    Although the ATA airlines made progress toward meeting the 
Commitment, we found that the Commitment did not directly address the 
underlying cause of deep-seated customer dissatisfaction--flight delays 
and cancellations. This is still the case today.
    Since our 2001 report, the air carrier industry has faced a series 
of major challenges, including a weakened economy; the terrorist 
attacks of September 11, 2001; the Severe Acute Respiratory Syndrome 
epidemic; the war in Iraq; and soaring fuel prices. As we reported in 
November 2006, the network air carriers generated about $58 billion in 
net losses from 2001 through 2005. They have also made unprecedented 
changes to their operations to regain profitability. Eight commercial 
air carriers have filed bankruptcy, two major air carriers have merged, 
and one has ceased operations. While four of the eight air carriers 
have emerged from bankruptcy, fuel prices continue to climb; this makes 
cost control a key factor in not only sustained profitability but also 
in overall survival of an airline.
    We revisited airline customer service issues to a limited extent 
following the December 2004 holiday travel period, when weather and 
other factors led to severe service disruptions in some parts of the 
country. While our review \6\ focused on the inconveniences experienced 
by Comair and US Airways passengers, we found that nearly half of all 
flights, system-wide, during the 7-day travel period were either 
delayed or canceled, affecting hundreds of thousands of passengers.
---------------------------------------------------------------------------
    \6\ OIG Report Number SC-2005-051, ``Review of December 2004 
Holiday Air Travel Disruptions,'' February 28, 2005.
---------------------------------------------------------------------------
    Flight delays and cancellations continue as a major source of 
customer dissatisfaction. A review of vital statistics shows the 
environment that air travelers faced in 2006 compared to peak year 
2000.
Traffic and Capacity

  <bullet> The number of scheduled flights (capacity) declined from 8.1 
        million in 2000 to 7.6 million in 2006, a drop of 6.4 percent. 
        Scheduled seats declined by 9.5 percent between 2000 and 2006, 
        from 921 million to 834 million.

  <bullet> Even as the number of flights and scheduled seats declined, 
        passenger enplanements were up nearly 7 percent, from 699 
        million passengers in 2000 to 745 million passengers in 2006.

  <bullet> Reduced capacity and increased demand led to fuller flights. 
        For 2006, load factors averaged nearly 80 percent for 10 of the 
        largest ATA airlines, compared to average load factors of just 
        over 72 percent for 2000.

  <bullet> Reduced capacity and higher load factors can also result in 
        increased passenger inconvenience and dissatisfaction with 
        customer service. With more seats filled, air carriers have 
        fewer options to accommodate passengers from canceled flights.

Flight Delays

  <bullet> The number of delayed flights has declined from 2.09 million 
        in 2000 to 2.02 million flights in 2006, a decrease of 3.5 
        percent.

  <bullet> The percentage of delayed flights also declined from 
        approximately 26 percent in 2000 to 25 percent in 2006.

  <bullet> Nevertheless, the average flight delay increased from 51 
        minutes in 2000 to 53 minutes in 2006.

  <bullet> While flight delays have declined nationwide since 2000, 
        some individual airports experienced significant reductions in 
        service and a subsequent reduction in delays. However, traffic 
        and delays continued to increase at other airports. For 
        example, between 2000 and 2006, George Bush Intercontinental/
        Houston Airport experienced a 27 percent increase in scheduled 
        flights and a 55 percent increase in delays. This increase is 
        important to note because Houston added a new runway in 2003 at 
        a cost of $267 million that was supposed to alleviate delays. 
        In comparison, Newark International Airport had a 3 percent 
        reduction in scheduled flights but experienced a 34 percent 
        increase in flight delays during this same time period.

    Consumer complaints are rising. While the 2006 Department of 
Transportation (DOT) Air Travel Consumer Report disclosed that 
complaints involving U.S. airlines for 2006 had declined by 6.6 percent 
(6,900 to 6,448) compared to complaints in 2005, February 2007 
complaints increased by 57 percent (423 to 666) over complaints in 
February 2006, with complaints relating to delays, cancellations, and 
missed connections nearly doubling (127 to 247) for the same period.
    Over the last several years, DOT ranks flight problems (i.e., 
delays, cancellations, and missed connections) as the number one air 
traveler complaint, with baggage complaints and customer care \7\ 
ranked number two and number three, respectively. As shown in figure 2, 
flight problems accounted for more than one-quarter of all complaints 
the Department received in 2006.
---------------------------------------------------------------------------
    \7\ Complaints such as poor employee attitude, refusal to provide 
assistance, unsatisfactory seating, and unsatisfactory food service are 
categorized as customer care complaints.
<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Historically, most chronically delayed and canceled flights occur 
during the busy summer travel season--which will soon be upon us. The 
extent to which delays and cancellations will impact passengers in 2007 
depends on several key factors, including weather conditions, the 
impact of the economy on air traffic demand, and how existing capacity 
is managed at already congested airports.
    I would now like to turn to my three points on airline customer 
service.
    Airlines Must Refocus Their Efforts To Improve Customer Service. In 
June 2005, the Chairman of the House Subcommittee on Aviation requested 
that we follow up on the performance of U.S. air carriers in 
implementing provisions of the Commitment since the issuance of our 
2001 report.
    Unlike our prior work, which reviewed each provision, this review 
focused on selected Commitment provisions.\8\ We reviewed 
implementation of the selected Commitment provisions by the 13 current 
ATA member airlines; this included JetBlue Airways, which became an ATA 
member in 2001. JetBlue has not adopted the June 1999 Commitment and 
does not consider itself bound by its provisions. We also reviewed 
implementation of the selected provisions by two non-ATA airlines that 
are not signatories to the Commitment--AirTran Airways and Frontier 
Airlines.
---------------------------------------------------------------------------
    \8\ Our 2006 review focused on notifying passengers of delays and 
cancellations, accommodating passengers with disabilities and special 
needs, improving frequent flyer program issues, and overbooking and 
denied boardings. We did not include the Commitment provision regarding 
on-time checked baggage delivery, which was subject to a hearing before 
the House Subcommittee on Aviation in May 2006.
---------------------------------------------------------------------------
    In November 2006, we reported that the ATA airlines' customer 
service plans were still in place to carry out the provisions of the 
Commitment and that the Commitment provisions were still incorporated 
in their contracts of carriage, as we recommended in our 2001 review. 
This is important because unlike DOT regulations, which are enforced by 
the Department and may result in administrative or civil penalties 
against an air carrier, contracts of carriage are binding contracts 
enforceable by the customer against the air carrier.
    However, we found that the airlines must refocus their efforts on 
airline customer service by taking the following actions.
    Resuming Efforts To Self Audit Their Customer Service Plans: In our 
2001 report, we recommended, and the ATA airlines agreed, that the 
airlines establish quality assurance and performance measurement 
systems and conduct internal audits to measure compliance with the 
Commitment provisions and customer service plans.
    In June 2001 (about 5 months later), we confirmed that 12 of the 14 
ATA airlines that were signatories to the Commitment had established 
and implemented their quality assurance and performance measurement 
systems. In our 2006 review, however, we found that the quality 
assurance and performance measurement systems were being implemented at 
just five of the ATA airlines.\9\ The other ATA airlines had either 
discontinued their systems after September 11, 2001, or combined them 
with operations or financial performance reviews where the Commitment 
provisions were overshadowed by operational or financial issues. We 
also found that the two non-ATA airlines we reviewed did not have 
comprehensive quality assurance and performance measurement systems or 
conduct internal audits to measure compliance with their customer 
service plans.
---------------------------------------------------------------------------
    \9\ At the time of our 2006 review, quality assurance and 
performance measurement systems were being implemented at Alaska 
Airlines, Continental Airlines, Delta Air Lines, Northwest Airlines, 
and United Airlines.
---------------------------------------------------------------------------
    A quality assurance and performance measurement system is necessary 
to ensure the success of the Commitment and customer service plans. 
Therefore, the success of the customer service plans depends upon each 
airline having a tracking system for compliance with each provision 
along with an implementation plan for the Commitment. These systems and 
audit procedures will also help DOT to more efficiently review the 
airlines' compliance with the Commitment.
    Emphasizing to Their Customer Service Employees the Importance of 
Providing Timely and Adequate Flight Information: The ATA airlines 
committed to notify customers who are either at the airport or onboard 
an affected aircraft of the best available information regarding 
delays, cancellations, and diversions in a timely manner.
    All of the airlines included in our 2006 review made up-to-date 
information available about their flights' status via their Internet 
sites or toll-free telephone reservation systems. However, we still 
found that the information provided in boarding areas about delays and 
cancellations was not timely or adequate during our tests. In 42 
percent of our observations, airline gate agents did not make timely 
announcements (defined as approximately every 20 minutes) about the 
status of delays, and the information they provided was not adequate 
about 45 percent of the time.
    This is one area where the airlines' self-audits would be effective 
in monitoring compliance with the Commitment provision and their own 
internal policies.
    Disclosing Chronically Delayed Flights to Customers: On-time flight 
performance data should also be made readily available to passengers at 
the time of booking. We recommended in our 2001 report that the 
airlines disclose to passengers at the time of booking--without being 
asked--the prior month's on-time performance for those flights that 
have been consistently delayed (i.e., 30 minutes or greater) or 
canceled 40 percent or more of the time. We have recommended this 
several times, but none of the airlines to date have chosen to adopt 
it.
    Currently, the airlines are required to disclose on-time 
performance only upon request from customers. However, the information 
that the agents provide about on-time performance through the airlines' 
telephone reservation systems is not always accurate or adequate. In 41 
percent of our 160 calls to the airlines' telephone reservation 
systems, we were told that the information was not available or the 
agents either guessed what they thought the on-time performance was or 
gave the data for only the previous day.
    The on-time performance for consistently delayed or canceled 
flights is readily available to the airlines. Continuing to operate 
chronically delayed flights could potentially constitute a deceptive 
business practice. Not disclosing such chronic delays on a flight could 
be viewed as contributing to such a deceptive practice. Therefore, we 
continue to believe--as we recommended in 2001--that on-time 
performance should be disclosed at the time of booking for those 
flights that have been consistently delayed and should not require a 
customer request.
    Focusing on the Training for Personnel Who Assist Passengers With 
Disabilities. The needs and perspectives of passengers with 
disabilities are of paramount importance in providing satisfactory 
service. This is especially true during extended flight delays whether 
the passengers are onboard aircraft or in the airlines' gate area.
    The ATA airlines committed to disclose their policies and 
procedures for assisting special needs passengers, such as 
unaccompanied minors, and for accommodating passengers with 
disabilities in an appropriate manner.
    In our 2001 review, the airlines performed well with respect to 
this provision. However, in our 2006 review, we found that the majority 
of airlines (11 of 15) and their contractor personnel who interact with 
passengers with disabilities were not complying with the Federal 
training requirements or with their own policies. In over 15 percent of 
the 1,073 employee training records we reviewed, airline employees were 
either not trained, not promptly trained, did not have records to 
support completion of training, or were not current with annual 
refresher training.
    The airlines need to refocus their attention in this area and 
ensure that employees who assist passengers with disabilities are 
properly trained.
    The Department Should Take a More Active Role in Airline Customer 
Service Issues. Oversight and enforcement of air traveler consumer 
protection rules are the responsibility of the Department's Office of 
General Counsel. These rules encompass many areas, including unfair and 
deceptive practices and unfair methods of competition by air carriers 
and travel agents, such as deceptive advertising.
    In our 2001 customer service report, we recommended that the 
Department be given additional resources to investigate and enforce 
cases under its statutory authority, and Congress did so. As part of 
our 2006 review, we examined how the Department has used the additional 
resources Congress appropriated to oversee and enforce air travel 
consumer protection requirements.
    We found that DOT was using its additional resources to oversee and 
enforce air travel consumer protection requirements with a focus on 
investigations and enforcement of civil rights issues, including 
complaints from passengers with disabilities. But, when DOT discovered 
violations and assessed penalties, it almost always forgave the penalty 
if the air carrier agreed to mitigate the conditions for which the 
penalty was assessed. DOT's follow-up monitoring of compliance with 
these conditions was limited, and in some cases there was no follow-up 
monitoring at all. In recent years, DOT has not conducted onsite 
compliance reviews, relying instead on air carriers' self-
certifications and company-prepared reports submitted without 
supporting documentation.
    We also found that DOT's increased responsibilities--especially as 
they relate to civil rights issues--had diverted resources away from 
its other consumer protection activities, such as regular on-site 
consumer protection and related compliance and enforcement visits to 
airlines.
    Given the results of our 2006 review and the extended ground delays 
that stranded passengers onboard aircraft this past winter, DOT should 
take a more active role in overseeing airline customer service.
    The Airlines Must Overcome Challenges in Mitigating Extraordinary 
Flight Disruptions. The airlines continue to face challenges in 
mitigating extraordinary flight disruptions, including long, on-board 
delays during extreme weather. According to DOT's Bureau of 
Transportation Statistics, approximately 722,600 flights were delayed 
in 2006 due to poor weather conditions (10 percent of all commercial 
flights). For that same year, over 73,000 flights experienced taxi-out 
and taxi-in times of 1 hour or more. The airlines, the Federal Aviation 
Administration (FAA), and the Department cannot prevent significant 
weather events. What they can do, however, is work together to plan for 
such events and minimize the impact on passengers.
    This past winter's severe weather events underscored the importance 
of improving customer service for passengers who are stranded onboard 
aircraft for extended periods of time.

  <bullet> On December 20, 2006, severe blizzards closed Denver's 
        airport, causing several airplanes to divert to other airports. 
        United Airlines diverted two flights to Cheyenne, Wyoming. The 
        following morning, United's flight crew and attendants boarded 
        the aircraft and departed, leaving all 110 passengers behind to 
        fend for themselves.

  <bullet> On December 29, 2006, the Dallas-Fort Worth area experienced 
        unseasonably severe weather that generated massive thunder, 
        lightning storms, and a tornado warning; this caused the 
        airport to shut down operations several times over the course 
        of an 8 hour period. American Airlines diverted over 100 
        flights and many passengers were stranded onboard aircraft on 
        the airport tarmac for 6 hours or more.

  <bullet> On February 14, 2007, snow and ice blanketed the 
        northeastern United States. JetBlue Airways stranded scores of 
        passengers aboard its aircraft on the tarmac at John F. Kennedy 
        International Airport (JFK). At 1 point during that day, 
        JetBlue had 52 aircraft on the ground with only 21 available 
        gates. JetBlue has publicly admitted shortcomings in its 
        systems that were in place at the time for handling such 
        situations.

  <bullet> On March 16, 2007, an ice storm hit the Northeast, causing 
        numerous delays and cancellations and forcing passengers to 
        endure long, on-board flight delays. In fact, several Office of 
        Inspector General staff were flying that day and experienced a 
        9 hour, on-board delay.

    Meeting Passengers' Essential Needs During Long, Onboard Delays Is 
a Serious Concern of Secretary Peters and the Department. As a result 
of the December 29, 2006, and February 14, 2007, incidents; Secretary 
Peters expressed serious concerns about the airlines' contingency 
planning for such situations. On February 26, 2007, she asked our 
office to do the following:

  <bullet> Examine the airlines' customer service commitments, 
        contracts of carriage, and policies dealing with extended 
        ground delays aboard aircraft.

  <bullet> Look into the specific incidents involving American and 
        JetBlue, in light of whatever commitment these carriers made 
        concerning policies and practices for meeting customers' 
        essential needs during long, on-board delays.

  <bullet> Provide recommendations as to what, if anything, the 
        airlines, airports, or the Government--including the 
        Department--might do to prevent a recurrence of such events and 
        highlight any industry best practices that could help in 
        dealing with such situations.

    Our work in this area began March 12, 2007, with site visits to 
JetBlue Airways in New York (including JFK) and American Airlines in 
Texas--specifically, Dallas-Fort Worth International and Austin-
Bergstrom Airports. During the past 30 days, we have done the 
following:

  <bullet> Collected voluminous amounts of information and data from 
        American and JetBlue regarding the events of December 29, 2006, 
        and February 14, 2007. We are in the process of analyzing this 
        information. While we are in the early stages of our review, we 
        can report that American and JetBlue have revised their 
        operating practices for mitigating long, on-board delays. For 
        example, American instituted a new policy designed to prevent 
        on-board delays from exceeding 4 hours. JetBlue also set a time 
        limit of 5 hours maximum duration for any long, on-board delay 
        away from a gate.

  <bullet> Received information from other carriers providing service 
        from Dallas-Fort Worth, Austin, and New York airports and met 
        with officials from FAA air traffic control and those three 
        airports. We are in the process of receiving contingency plans 
        from the ATA airlines (system-wide plans) and the major 
        airports they serve (each airport operator's plan).

    We expect to brief the Secretary by the end of June and issue a 
report shortly thereafter.
    Airlines Must Implement More Effective Contingency Plans. One 
observation we can share today regarding our current review is that 
contingency planning for extreme weather is not a new concern for 
airlines, as evidenced by the June 1999 Commitment provision, which 
states that:

  <bullet> The airlines will make every reasonable effort to provide 
        food, water, restroom facilities, and access to medical 
        treatment for passengers aboard an aircraft that is on the 
        ground for an extended period of time without access to the 
        terminal, as consistent with passenger and employee safety and 
        security concerns.

  <bullet> Each carrier will prepare contingency plans to address such 
        circumstances and will work with carriers and the airport to 
        share facilities and make gates available in an emergency.

    However, as we noted in our 2001 report, the airlines had not 
clearly and consistently defined terms in the Commitment provision such 
as ``an extended period of time.'' We also noted only a few airlines' 
contingency plans specify in any detail the efforts that will be made 
to get passengers off the aircraft when delayed for extended periods, 
either before departure or after arrival. Our opinion was then, as it 
is now, that this should be a top-priority area for the airlines when 
implementing their contingency plans, especially with long, on-board 
delays on the rise from 2005 to 2006--particularly those exceeding 4 
hours.
    In response to our 2001 report recommendations, the airlines agreed 
to do the following:

  <bullet> Clarify the terminology used in their customer service plans 
        for extended delays.

  <bullet> Establish a task force to coordinate and develop contingency 
        plans with local airports and FAA to deal with lengthy delays.

    While a task force was formed, the effort never materialized as 
priorities shifted after September 11, 2001. We are examining airline 
and airport contingency planning as part of our ongoing review.
    JetBlue and ATA Announced Initiatives To Address Long, Onboard 
Delays but More Needs To Be Done. These two initiatives address the 
recent events. First, on February 20, 2007, JetBlue published its own 
customer bill of rights. JetBlue plans to offer compensation in the 
form of vouchers for flight disruptions, such as cancellations. While 
this is a step in the right direction, this bill of rights is limited; 
JetBlue needs to clarify some of the terms. The JetBlue bill of rights 
only addresses 3 of the 12 Commitment provisions: flight delays and 
cancellations, onboard delays, and overbookings. Also, JetBlue needs to 
clearly define all terms in its bill of rights, such as ``Controllable 
Irregularity,'' so that passengers will know under what specific 
circumstances they are entitled to compensation.
    While JetBlue believes that its bill of rights goes beyond the 
Commitment provisions in some areas, re-accommodating passengers for 
flight cancellations is already required under its contract of 
carriage. Additionally, while JetBlue will compensate its customers for 
being bumped from their flights, compensation is already required under 
an existing Federal regulation but not to the extent of JetBlue's 
compensation of $1,000.
    Second, on February 22, 2007, ATA announced the following course of 
action:

  <bullet> Each airline will continue to review and update its policies 
        to ensure the safety, security, and comfort of customers.

  <bullet> Each airline will work with FAA to allow long-delayed 
        flights to return to terminals in order to offload passengers 
        who choose to disembark without losing that flight's position 
        in the departure sequence.

  <bullet> ATA will ask the Department to review airline and airport 
        emergency contingency plans to ensure that the plans 
        effectively address weather emergencies in a coordinated manner 
        and provide passengers with essential needs (food, water, 
        lavatory facilities, and medical services).

  <bullet> ATA will ask the Department to promptly convene a meeting of 
        air carrier, airport, and FAA representatives to discuss 
        procedures to better respond to weather emergencies that result 
        in lengthy flight delays.

    While we understand the pressures that ATA and its member airlines 
face in maintaining profitability in today's environment, we are 
concerned that the actions proposed merely shift responsibility from 
ATA to the Department. We agree that the Department must be an active 
partner, but ATA's proposed course of action is not significantly 
different than what the airlines agreed to do in response to our 2001 
recommendations, such as ``to establish a task force to coordinate and 
develop contingency plans with local airports and FAA to deal with 
lengthy delays.''
    As mentioned earlier, how to ensure airline customer service is 
clearly a policy issue for Congress to decide. Given the problems that 
customers continue to face with airline customer service, Congress may 
want to consider making the Airline Customer Service Commitment 
mandatory for all airlines.
    However, there are actions that the airlines, airports, the 
Department, and FAA can undertake immediately without being prompted by 
Congress to do so. For example:

  <bullet> Those airlines that have not already done so should 
        implement quality assurance and performance measurement systems 
        and conduct internal audits of their compliance with the 
        Commitment provisions. The Department should use these systems 
        to more efficiently review the airlines' compliance with those 
        Commitment provisions governed by Federal regulation.

  <bullet> The Department should revisit its current position on 
        chronic delays and cancellations and take enforcement actions 
        against air carriers that consistently advertise flight 
        schedules that are unrealistic, regardless of the reason.

  <bullet> The airlines, airports, and FAA should establish a task 
        force to coordinate and develop contingency plans to deal with 
        lengthy delays, such as working with carriers and the airport 
        to share facilities and make gates available in an emergency.

  <bullet> The Department's Office of General Counsel; in collaboration 
        with FAA, airlines, and airports; should review incidents 
        involving long, on-board ground delays and their causes; 
        identify trends and patterns of such events; and implement 
        workable solutions for mitigating extraordinary flight 
        disruptions.

    That concludes my statement. I would be glad to answer any 
questions you or other Members of the Committee might have.

    The Chairman. I thank you very much, sir.
    And, Senator Stevens?
    Senator Stevens. Thank you very much, Mr. Chairman.
    I would very much like to hear the second panel, so I'm not 
going to submit any questions at this time.
    The Chairman. Senator Lautenberg?
    Senator Lautenberg. Thanks, Mr. Chairman.
    One thing I noticed in the testimony or Mr. Scovel----
    The Chairman. You got your mic on?
    Senator Lautenberg.--opened with a comment that says that 
oversight and enforcement of air traveler consumer protection 
rules are the responsibility of the Department, Office of 
General Counsel. Now, is that in the present format of the 
structure of the Transportation Department, the aviation 
division itself? Does the Counsel have an opportunity, or an 
obligation, to intervene in these things, or is this done at 
the Secretary's level? And should that be the policy, 
generally, as opposed to saying that a more active role should 
be taken by the General Counsel?
    Mr. Scovel. Thank you, Senator Lautenberg.
    As you pointed out, responsibility for pursuing and 
enforcing consumer protection requirements resides at the 
Department level, not with the FAA, which is sometimes a 
misconception on the part of many observers. The FAA plays an 
important role regarding flight rules; for instance, flight pay 
for flight time for pilots, duty time, departure sequence 
rules, and so forth; but, when it comes to consumer protection 
requirements, that's the responsibility of the Office of 
Aviation Enforcement and Proceedings within the Office of 
General Counsel at the Department. Their responsibility 
specifically is to enforce regulations that the Department has 
issued regarding customer service-related items, such as 
nondiscrimination on the basis of disability, fare changes, 
overbooking, baggage liability and responsibility, check-in 
requirements, and refund conditions and limits.
    The Office of Aviation Enforcement and Proceedings does 
have responsibility to investigate when complaints are 
presented to it. One of the findings of my staff in its 2006 
audit review was that the Office of Aviation Enforcement and 
Proceedings has sometimes been lax in pursuing those 
investigations. For instance, in 2006 we discovered at least 
one case, dating back to 2004, that, in fact, my staff had 
referred to OAEP, involving customer service provisions that 
had not yet been investigated by that office. I related, as 
well, in my opening statement, and my testimony for the record 
lays this out further, that sometimes the Office of Aviation 
Enforcement and Proceedings does not execute onsite compliance 
reviews, and, in our view, does not pursue sufficient 
compliance monitoring when a settlement agreement is reached 
with an airline as a result of a customer's complaint.
    Senator Lautenberg. Mr. Scovel, does the DOT Airline 
Enforcement Office have sufficient staff working on general 
consumer complaints?
    Mr. Scovel. To be entirely fair to the Department, it is my 
understanding that their resources have been limited in recent 
years. I give credit to the Congress. A number of years ago, 
perhaps 5 or 6 years ago, they received a special appropriation 
with the idea of increasing the resources for this office so 
that they could pursue customer service-related inquiries. The 
Department has focused those inquiries largely on the civil 
rights side, and deservedly so; however, that has operated 
somewhat to the disadvantage on the consumer protection side, 
and, in recent years, their budget, especially their travel 
budget, for instance, to perform compliance reviews at the site 
of airline or airport complaint sites, has been limited.
    Senator Lautenberg. Mr. Scovel, just because your review 
seemed so thorough as I listened to your statement, is there 
any question raised about the fatigue factor within the crew of 
an airplane by extending their hours of service far beyond what 
it should normally be?
    Mr. Scovel. I know that's--that is a concern for both 
pilots, for airlines, certainly for passengers, and for the 
FAA. It's--I--I'm hesitant, at this time, to express any 
opinion on that, since it has not been a part of our ongoing 
study, specifically, crew fatigue. We haven't pursued that as a 
part of our ongoing study for the Secretary.
    Senator Lautenberg. Thanks.
    Mr. Chairman, I have one more question, for Mr. Reynolds.
    We know that rail service can free up precious airport 
slots for more profitable long-distance flights. What is the 
administration doing to help develop efficient passenger rail 
service?
    Mr. Reynolds. Thank you, Senator Lautenberg.
    My office deals mostly with the aviation and international 
affairs aspects of the Department, so I am not as intimately 
familiar with the--all the details, but I do know that the 
Department feels that, you know, intercity passenger rail plays 
a role, and I think that a lot of that has been laid out in the 
President's budget proposal.
    Senator Lautenberg. Thank you.
    Thanks, Mr. Chairman.
    The Chairman. Thank you.
    Senator Boxer?
    Senator Boxer. Thanks, Mr. Chairman.
    I want to thank the panel.
    Mr. Reynolds, your basic point to us, in your opening 
statement, was, ``We would prefer it if the airlines did fix 
the problem, and not the Federal Government.'' I think that's 
right, we all would rather we weren't here today having to have 
people come before us and tell us of the horrors of what 
happened. But I will tell you this, that our constituents--in 
my opinion--don't really care who fixes it, they just want it 
fixed. They can't be treated like they're not human beings, and 
that's what has happened. So, whether the airlines fix it or we 
fix it, it needs to be fixed.
    Now, Senator Snowe and I, after long and careful 
consideration, have put together a pretty modest bill that I 
think treats customers as human beings. And I think that's 
something that Congress needs to pass, because the airlines are 
not willing to pay attention to their own--their own document, 
their own pledge.
    Now, I really appreciate the work of the Inspector General 
here. And, Mr. Reynolds, I want to ask you to respond to two of 
his recommendations. He's very clear here. He says, ``Without 
Congress having to pass one thing, you, sir, are in a position 
to make things better.'' And he suggested three ideas. I'm 
going to focus in on two.
    He points out that, when the airlines don't disclose 
chronic delays, that could be viewed as a deceptive practice--
not telling people that you have these chronic delays. And he 
suggests that the Department should revisit its current 
position on chronic delays, and take enforcement actions 
against air carriers that consistently advertise flight 
schedules that are unrealistic, regardless of the reason. 
That's the first one. I want you to tell me if you agree with 
that.
    And, second, he says that the FAA, airports, and airlines 
should establish a task force to coordinate and develop 
contingency plans to deal with lengthy delays--such as working 
with carriers and the airports to share facilities and make 
gates available in an emergency. Now, this seems like a 
brilliant common sense idea to me, because you sit out there, 
and the pilot gets on there, and he says, ``Folks, I'm really 
sorry. I know you've been sitting here for 2 hours, but, guess 
what? Somebody's at the gate, they won't back up, we can't 
figure it out, no one's helping us, we have no option but to 
sit here.'' So, to have a task force that's ready to move in 
and solve the problem, seems to me to make sense.
    So, those are two things. Are you willing to take these two 
ideas and implement them without Congress having to push you to 
do that?
    Mr. Reynolds. Senator Boxer, the Department is, of course, 
very aware of the Inspector General's recommendations. They 
were part of his report in November. And the Office of Aviation 
Enforcement and the Department has taken them very seriously, 
and we are looking at them. We've responded to a variety of 
the--a variety of these recommendations, and, in fact, we are 
trying to--right now, we are looking at ways to better examine 
chronically delayed flights in terms of unrealistic scheduling 
to see if there's anything there. It is----
    Senator Boxer. Well, sir, if I might----
    Mr. Reynolds. Yes.
    Senator Boxer. I'm sorry. And I do respect your view on the 
point, but I want to just get at it a little bit more--because 
I'm finished after this question.
    You have an Inspector General. He's come in, and he's said, 
``You don't have to wait around for anything. You can do three 
things.'' I've asked you about two. One of them is pretty easy: 
start taking enforcement actions. And what you're saying is, 
``Gee, we've seen a lot of these things.'' I'm asking you about 
these two. Can you answer me? Are you open to taking 
enforcement actions against air carriers that continually 
advertise flight schedules that are unrealistic? And are you 
ready to develop contingency plans to deal with these lengthy 
delays?
    Mr. Reynolds. Yes, we're absolutely open to taking----
    Senator Boxer. Good.
    Mr. Reynolds.--enforcement actions. And the Department has 
done that in the past. In the last 1980s----
    Senator Boxer. I know, but I'm asking you about now.
    Mr. Reynolds.--we had----
    Senator Boxer. So----
    Mr. Reynolds. Yes. I mean, and we always remain----
    Senator Boxer.--I'm glad you said that. And could you 
follow this up in writing, in the next week, to tell me what 
you decided to do, and when?
    Thank you, Mr. Chairman.
    Mr. Reynolds. Absolutely.
    The Chairman. Thank you.
    Senator Snowe?

              STATEMENT OF HON. OLYMPIA J. SNOWE, 
                    U.S. SENATOR FROM MAINE

    Senator Snowe. Thank you, Mr. Chairman.
    And I first want to say that I'm very pleased to join 
Senator Boxer in introducing this legislation concerning a 
Passenger Bill of Rights. Frankly, the airlines have no 
accountability, and it's obvious that the--that your Department 
is not demanding accountability on the part of the airlines. I 
mean, these are instances--when you're having these prolonged 
delays on the tarmac--that can be potentially life-threatening 
situations. You know, when you look at the American Airlines, 9 
and 10 hours sitting on the tarmac. It was a diabetic 
individual that was in serious danger, that they finally 
returned to the gate. It doesn't matter what the statistics 
say, although I think the statistics are rather alarming. I 
mean, the Bureau of Transportation Statistics indicated that 
the high--that delays in February are the second highest rate 
ever. And then, when you combine that with the number of 
baggage lost, for example, when you think about one-quarter of 
all flights arrive late, more passengers got bumped in 2006 
than in the previous year that this was reported in one of the 
press accounts, in all combinations, doesn't describe a very 
positive picture.
    And I think the time has come to at least demand a 
reasonably based position, and that's why we're here today. And 
I think the legislation that Senator Boxer and I have 
introduced--for example, 3--basically 3 and a half hours 
sitting on the tarmac--3 hours, and it gives--if the pilot 
knows that the plane will be departing within a half hour, it 
would be 3 and a half hours, total.
    And then it's left to the pilot's discretion in case it, 
you know, endangers passenger safety to leave the plane, for 
example. So, then it's up to the discretion of the pilot. I 
think that's a very modest approach.
    These situations should not occur. That is the bottom line 
here. And so, Mr. Reynolds, why is that so difficult? I mean, 
why would you, you know, be opposed to that kind of 
requirement? Because your Department is not enforcing that 
standard, you're not enforcing accountability. This should not 
be happening.
    And then, when you look at the record of the airlines with 
respect to their own policy at self-regulation--we had hearings 
here in 1999, because we had a series of incidents with another 
airline, as you'll recall, and I think it was in the Detroit-
Fort Wayne Airport. And so, at that point, the airline industry 
said, ``Yes, we will implement the Airline Customer Service 
Commitment.'' You listened to Mr. Scovel and his report. Pretty 
abysmal, when you think that during their review, they 
discovered that quality assurance and performance measurement 
systems are being implemented at just five of the ATA airlines 
out of 13 members. Only five.
    And then, if you go and look at the report, again, with 
respect to notification of delays to customers, you know, in--
at the gates at the airports, said, ``Based on our 
observations, 13 of 15 airlines at 17 airports nationwide, 
airline gate agents did not make timely announcements during 42 
percent of the observations.'' And it goes on and on.
    So, we have a problem here. People make significant 
investments, you know, in buying--in purchasing a ticket, not 
to mention the cascade effect that it has, whether it's their 
vacation plans, or it could be a family emergency, whatever the 
case may be. And I see that there's no accountability. I mean, 
we're at the airports every week. You know, we have a chance to 
observe. That's the problem here. But it goes beyond the 
imagination to require anybody to sit on a plane for 9, 10, or 
11 hours. And that should not happen. It shouldn't happen once. 
And that's what this is all about here today.
    And so, our legislation is a very modest approach to what 
could be a very serious situation where people have no choice, 
because, you know, they've been perpetrated with this abuse of 
sitting on the plane for that long, and have no choice, no 
functioning restrooms, no basic necessities, let alone of 
whether or not they have access to their medications. They 
might have been checked.
    So, that's what the situation is here at hand, and I don't 
hear anything to suggest that--how this is going to be altered, 
because they've already abandoned, to an extent, this airline 
customer service commitment.
    So, do you have any response to that? And how do you think 
that they're going to correct it, to have the self-correcting, 
self-regulating policy that they've already distanced 
themselves from, they've retreated from, in many instances 
already, based on the Inspector General's report?
    Mr. Reynolds. Well, we certainly understand and appreciate 
all the efforts that people are undertaking to address tarmac 
delay issues, and we're studying the proposals that are out 
there. Obviously, we've asked the Inspector General to look 
further into the specific incidents and offer recommendations. 
Secretary Peters and the Department were very troubled by these 
incidents, as well, and the fact that people were out there for 
extended periods of time. Of course, again, as a general 
matter, we'd like to see the marketplace discipline them. And 
we've already seen a little bit of that at work with American 
Airlines and JetBlue taking some steps in the wake of the 
incidents that they experienced. Nevertheless, we are awaiting 
the outcome of the Inspector General's report, in light of, 
also, his earlier report, in November, to see what might be the 
further appropriate action for us to take.
    Senator Snowe. Do you think 3 hours is long enough?
    Mr. Reynolds. That's a very difficult question.
    Again, I don't know that we want to, you know--a specific 
remedy, at this point, it's difficult to say. One-size-fits-all 
solution has--can have many downsides. Some passengers may want 
to wait an extra hour if it means getting to their destination; 
if they have to get off the aircraft, or the aircraft has to be 
diverted to a gate, it may mean that the plane never makes its 
destination at all that day. And some people may need to--want 
to continue their flights. So, there are a lot of factors. 
Some--for some, it may be 4 hours, it may be more. Certainly, 
it's an issue when passengers are on a plane for an extended 
period of time, that some of their basic needs to--are being 
met. And that's one of the things specifically that we asked 
the Inspector General to look into.
    Senator Snowe. Well, I, frankly, think that if all airlines 
had to abide by the same standard, that the system would work. 
And there is a point in drawing that line. The question is, you 
never know. One hour becomes another hour, so you've got 3 
hours, 4 hours, 5 hours, and 6 hours, and, obviously, on and on 
it goes, because they never know. And I think that's the 
problem, that ultimately, as we saw, you know, in these two 
instances, where good judgment was not exercised, and the 
passengers have no control over that circumstance of that 
situation.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Rockefeller?

           STATEMENT OF HON. JOHN D. ROCKEFELLER IV, 
                U.S. SENATOR FROM WEST VIRGINIA

    Senator Rockefeller. Thank you, Mr. Chairman.
    Mr. Reynolds, I think, in some ways, actually, this sort of 
helps you, but it may embarrass you. The--I was not here, 
because we had an extraordinarily long caucus, which caused 
Frank, and then Barbara and myself, to be very late, for which 
we apologize. But the testimony that you gave, you didn't sit 
down last week or last night and write that, did you? That 
testimony, in fact, had to be vetted by the Office of 
Management and Budget before it could be presented to us. Is 
that correct?
    Mr. Reynolds. That's true.
    Senator Rockefeller. And I want the audience to understand 
the meaning of that. This is true with every single Agency--and 
it's true in the intelligence community--committees--every 
single relatively high representative of any of our Cabinet 
agencies, they are not free to say what they feel. Now, there 
may be a convergence from time to time about what they are 
allowed to say by the Office of Management and Budget, which, 
as far as I know, doesn't have a whole slew of people out at 
any airports, but it needs to be understood that, in a sense, 
it doesn't demean this hearing, but it downgrades it from your 
point of view and from mine. I'm not going to ask the IG, 
because I assume that the IG does his own.
    Mr. Scovel. That is correct, sir. We are subject to 
screening by no one.
    Senator Rockefeller. That's correct. And that's good. So, 
you are answering questions, which you might answer in a very 
different fashion if you were a free person, even though you're 
a very high official.
    [Laughter.]
    Senator Rockefeller. And I want people to understand that, 
because it's true in every committee--in Armed Services, in 
Commerce, and anywhere else, it's always true, the Office of 
Management and Budget--the budget being the amount of dollars 
that you have; management being what kind of policy you will 
have--is determined by them, and you have to follow.
    Now, having said that, I am particularly offended by what I 
thought we'd discussed here quite a long time ago and Senator 
Boxer brought up, and that's the question of delay and 
cancellation notices. There has been some modicum of 
improvement--and I'm traveling a lot, but it still is way off 
the mark. And it causes people to miss flights which they might 
otherwise make, knowing that they were not going to make that 
flight. Happened to me the other day in Tennessee, where there 
was a flight that was canceled, and I said, ``Good, well, we 
can make this next one coming up.'' And then, it turned out 
that the flight which was canceled actually wasn't, and it was 
actually about to land at the airport. And so, it was a--it was 
a happy ending. But there can be no excuse for that.
    Now, that's my first point. And I'm not asking you to 
respond to it.
    The second is, I think that this panel, which Trent Lott 
and I co-chair under the direction of Senator Inouye and 
Senator Stevens--and I agree on virtually all matters--that you 
don't have money. I mean, it's like this question of Veteran's 
hospital, building number 18. What are the Veterans doing about 
it--what are the Veterans hospitals doing about it? They're 
under a budget. The war is not in the budget. That's borrowed 
money from China, Japan, South Korea, et cetera. So, it's not 
in the budget. But the Veterans Administration is in the 
budget, and it has to live within that budget. That budget has 
always been short, under both Democrats and Republicans. It has 
always been short. And now we have people coming back with 
wounds that they never even conceived were possible, and we 
don't have the finances to be able to help them. Well, we're 
going to change that this year. We're going to change that this 
year. I simply share the frustration of customer service.
    Now, I'll say one thing, which may depart a little bit from 
what others have said. I think the airline business is the most 
complicated business in the world. You're basically having to 
operate off an analog air traffic control system. We do not 
have the money, at this point, to come up with a digitalized 
air traffic control system. When we do, we're going to have to 
build one, while still operating the other; therefore, paying 
for two--so that the measurement between how close planes are 
to each other, how quickly they could land, what the difference 
in altitude and all of that is, will--is just one of the 
complications that we face.
    I don't think that you can cure all customer problems. We 
had an example here a number of years ago where somebody wanted 
to actually lay out the number of inches which could apply 
between seats in economy class. A Member of Congress saying 
there can be this many inches, and there has to be, on every 
single plane. And, frankly, on that, I don't think Congress has 
any business doing that, simply because we don't know, and we 
can't. But I think the performance--I think you're trying, but 
you don't have any money, so you don't have any people. And I 
wish you could just say that. I'd almost like to ask you to, 
but I don't want you to, because it would be--I don't know what 
it would do to you.
    [Laughter.]
    Senator Rockefeller. But you don't have the people to go 
out and investigate all of these different problems. The 
customer service plans that were agreed to, you know, you don't 
have the people to go out and look at all that. And so long as 
that's true, problems are going to continue.
    So, Mr. Chairman, I just apologize for taking more time 
than I should, but it's a great frustration to me, because 
Americans now do travel. I can remember--West Virginia is not--
it's not San Francisco, let me put it that way. All right? And 
it used to be that a lot of our people didn't fly. Now a lot of 
our people do fly. So, this becomes more and more important--
hold-ups, cancellations; in bigger airports, huge crowds. Is it 
your fault that we haven't reconfigured O'Hare Airport? If we 
spent $12 billion, reconfigure those eight landing runways, we 
could change the entire American aviation system, make it 30 
percent more efficient. We don't have that money. You haven't 
pushed for that money. My guess is, you want that money.
    I went out to Chicago for a hearing on that. Everybody in 
the world agrees with it. But the Department of Transportation 
doesn't, and that's for a budget reason, because money is being 
spent for different ventures overseas or tax cuts or for other 
things that are felt to be more important.
    So, my, sort of, sense of this is that it's very sad--a 
very sad situation, because, number one, if you had the people, 
you could do a lot better. Second, if you had the people who 
had the--and they had the authority, they could go in, and they 
could take some situations and really scare some airlines, and 
make enormous improvements, as you indicated JetBlue and 
American have made some improvements. And I'm not here to judge 
that. I'm simply here to say that the system of where the 
executive branch of Government cannot come clean to the 
legislative branch of Government in a formal hearing is, I 
think, a great sadness. And I wish that system would end and 
you could talk exactly how you feel.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    Senator Lott?

                 STATEMENT OF HON. TRENT LOTT, 
                 U.S. SENATOR FROM MISSISSIPPI

    Senator Lott. Mr. Chairman, I'll pass for now. I'd like to 
hear the next panel. Thank you very much for having the 
hearing.
    [The prepared statement of Senator Lott follows:]

  Prepared Statement of Hon. Trent Lott, U.S. Senator from Mississippi
    I am pleased that Senator Inouye has called this afternoon's 
hearing on airline service improvements.
    Recent forecasts show that we need to modernize our air traffic 
control system by 2015 or face severe gridlock in our skies. With such 
a large amount of people who depend on air travel in the U.S., it is 
vital that we address these issues sooner, rather than later.
    The recent incidents in which airline passengers were delayed for 
several hours have given us a taste of what the aviation industry could 
be like if we don't move out aggressively on modernizing our air 
traffic control system.
    Now, I think I can safely say that just about everybody in this 
room has experienced some sort of delay or inconvenience while 
traveling on an airline--I know I most certainly have. Some experiences 
are worse than others, which is understandable, but that's just the 
nature of the beast.
    I think the real solution to this problem will come from 
modernizing the air traffic control system to reduce delays and not 
having the Federal Government dictate how long you have to sit on the 
tarmac before you get a glass of water. We need an air traffic control 
system that reduces congestion and that does a better job of dealing 
with bad weather.
    But, this shouldn't let the airlines off the hook. With traffic 
back to pre-9/11 levels and still on the rise, airlines need to come up 
with their own plans for properly managing severe delays that best fit 
their structure and allow them to provide safe and comfortable flights.
    I look forward to hearing from the witnesses.

    The Chairman. I have just one question.
    Much has been said about delays and cancellations, et 
cetera. Do you believe that legislation is necessary?
    Mr. Reynolds. Again, Senator, I think we'd like to think a 
little bit more on the problem, have the benefit of the 
Inspector General's report on these particular incidents, and 
see what further recommendations his office may provide to us.
    Of course, we're always willing to work with this Committee 
on anything that it may be moving forward.
    The Chairman. Thank you very much. Thank you very much, Mr. 
Reynolds and Mr. Inspector General.
    Our next panel is the Consumer Program Director of the U.S. 
Public Interest Research Group, Mr. Ed Mierzwinski; Executive 
Director of the Aviation Consumer Action Project, Mr. Paul 
Hudson; Chairman of the Business Travel Coalition, Mr. Kevin 
Mitchell; Spokesperson and Founder, Coalition for Airline 
Passengers' Bill of Rights, Ms. Kate Hanni; Program 
Coordinator, Center on International Cooperation, Mr. Rahul 
Chandran; and President and CEO, Air Transport Association of 
America, Mr. James C. May.
    On behalf of the Committee, welcome to the hearing, and 
thank you all for your testimony.
    May I call upon Mr. Mierzwinski? I know I've mispronounced 
it, but--how do you pronounce that name, sir?
    Mr. Mierzwinski. Mierzwinski, sir. And I hope I pronounce 
Inouye right.
    The Chairman. That's pretty close.
    Mr. Mierzwinski. That's pretty close?
    The Chairman. Yes.
    Mr. Mierzwinski. Thank you, Mr. Chairman.

           STATEMENT OF EDMUND MIERZWINSKI, CONSUMER 
     PROGRAM DIRECTOR, U.S. PUBLIC INTEREST RESEARCH GROUP

    Mr. Mierzwinski. I'm Ed Mierzwinski, and I am the Consumer 
Program Director for the Public Interest Research Groups. And, 
Chairman Inouye, Senator Stevens, and members of the Committee, 
it's a privilege to represent the nonpartisan, nonprofit PIRGs 
here at this hearing today.
    We are here today to support, on behalf of our one million 
members and air travelers in general, S. 678, the bipartisan 
Airline Passengers' Bill of Rights Act of 2007 offered by 
Senators Boxer and Snowe.
    We believe that consumers have often complained about a 
number of problems on airplanes. They've complained about being 
late, they've complained about chronically being late, they've 
complained about the seat sizes on some airlines, they've 
complained about the new fees, but things have gotten to a new 
level with the recent problems that customers have faced when 
they have been stranded on the tarmac, or even left at airports 
by planes that have taken off without them, in some of the 
recent cases. And my fellow witnesses, who have been victims of 
some of these cases, are better qualified than I am to speak 
about some of these matters. So, in the interest of time, I 
won't comment on them.
    But whether these delays and significant hassles passengers 
are facing are due to the weather, due to air traffic control 
systems, due to security after 9/11, due to carriers gaming the 
on-time takeoff data system to appear to be better than they 
actually are, or due to airline cost-squeezing, is not the 
point today. What is at issue is simple: consumers should not 
be treated like cattle and they should have rights and remedies 
when they are so treated.
    Safety is our most important factor, and security is as 
important as safety. But customers should not be simply treated 
on the basis of the market. I thought that I heard the 
Department's testimony today infer that, ``Well, a couple of 
airlines have had a couple of problems. They've said they're 
going to do better.'' Does that mean that every airline will 
get one bite of the apple? Does that mean that every airline 
will have a chance to mess up as badly, and then say, ``We're 
sorry, we'll do better''? We think we need minimum standards, 
enforceable minimum standards.
    As has been widely pointed out by several of the witnesses 
and Senators today, these are not one-off incidents, these are 
incidents that have been occurring for years. The airlines made 
promises that they have not kept, 8 years ago, and that has 
been a problem, as well.
    The proposed legislation from Senators Boxer and Snowe 
should be enacted immediately. It simply states that passengers 
on planes that have left the gate have a Federal right to 
adequate food, potable water, and working toilets during 
delays, and, importantly, a right to deplane if the problem 
lasts for more than 3 hours, or 3 and a half hours. We would 
urge you to add to this bill the right to adequate ventilation, 
reasonable temperatures, and medical access, if needed. We 
would urge you to consider extension of appropriate rights to 
passengers whose planes have left without them after they've 
been diverted to other airports, as well.
    We also believe that any final legislation should make 
these rights more enforceable to consumers, by consumers. And, 
as has been pointed out by the Inspector General, the 
enforcement by the Department has been inadequate. They enforce 
the rules under their unfair and deceptive practices 
regulations, but they don't often impose fines or penalties. 
One of the big problems here is that a 1992 Supreme Court 
decision took away the right of State attorneys general to 
enforce their unfair and deceptive practices rules and 
regulations against the airlines in an interpretation of the 
1978 Act. We would encourage any final legislation to also 
reinstate the right of State attorneys general to enforce at 
least the Federal law, and, ideally, to enforce their own 
unfair and deceptive practices under all of their State laws.
    In addition, we would urge you to give consumers greater 
private rights of action in the contracts of carriage, which 
are currently merely contracts of adhesion that largely 
immunize the airlines, rather than provide a fair contract. 
Second, we would urge you to increase the penalties for bumping 
and the penalties for lost baggage. The penalties for bumping, 
in particular, have been frozen at $400 for years and years and 
years.
    We would also urge you to consider taking a small amount of 
airline funds and form an independent congressionally chartered 
consumer group to represent consumers before the Department. 
And whether or not such a passenger advocacy group is 
established, the Committee should compel the FAA and the DOT to 
do a better job.
    Finally, I would point out that--some of the comments that 
Senator Lautenberg made--in my written testimony I do point out 
that consumer groups have long supported his proposals. The 
airlines use scarce resources--gates, runways, and other public 
resources--that might be better served by giving us different 
modes of transportation, by encouraging high-speed rail and 
taking some of the pressure off the airlines.
    So, I thank you for the opportunity to testify today in 
support of a strong Passenger Bill of Rights bill.
    [The prepared statement of Mr. Mierzwinski follows:]

 Prepared Statement of Edmund Mierzwinski, Consumer Program Director, 
                  U.S. Public Interest Research Group
    Mr. Chairman Inouye, Senator Stevens, Senator Boxer and members of 
the Committee: Thank you for the opportunity to present the views of 
the U.S. Public Interest Research Group,\1\ which serves as the non-
profit, non-partisan federation of state PIRGs. We are pleased today, 
on behalf of our one million members and all airline passengers, to 
support S. 678, a proposed Airline Passengers' Bill of Rights, as 
introduced by Senators Boxer and Snowe, and to offer other comments on 
airline customer service.
---------------------------------------------------------------------------
    \1\ .uspirg.org.
---------------------------------------------------------------------------
    The frustrations travelers generally have with airlines are widely-
reported. Major newspapers have columns, such as The Wall Street 
Journal's ``The Middle Seat,'' and The New York Times' ``On the Road'' 
and ``Memo Pad'' from Joe Sharkey. Frustrated consumers have created 
websites such as http://www.untied.com/ (United), .northworstair.org/ 
(Northwest) and .dontflycontinentalairlines.com.\2\ Travel sites and 
online newsletters provide tips to frequent travelers about a wide 
variety of problems air travelers face. Among the issues discussed are 
the following:
---------------------------------------------------------------------------
    \2\ Note that these are examples. Not all these sites are still 
active. Others exist.

---------------------------------------------------------------------------
  <bullet> flights that are chronically late,

  <bullet> what to do if the airline loses your bags,

  <bullet> the latest Transportation Security Administration issues,

  <bullet> your incredibly shrinking airline miles (due to increased 
        mileage requirements for ``free flights,'' more blackout dates, 
        and the threat of airline bankruptcy),

  <bullet> shrinking seat sizes on some airlines, where you pay extra 
        for a ``real'' seat,

  <bullet> obnoxious fees and harsh restrictions for changing your 
        flight for virtually any fare class, or new nuisance fees for 
        all-of-a-sudden overweight or ``too-manypieces'' of luggage, 
        and even fees for so-called ``snacks'' or ``meals'' onboard,

  <bullet> the non-responsiveness of airlines to reasonable and 
        legitimate service complaints, and

  <bullet> numerous other problems.

    But lately, the news has been about more than these hassles. It's 
about passengers being trapped on planes sitting on runways, in 
primitive non-hygienic conditions, or even left at airports to fend for 
themselves. The incidents appear to be getting worse:

  <bullet> Hundreds of JetBlue passengers were stranded for hours in 
        planes on runways in mid-February, when weather incidents 
        affecting some flights cascaded into a multi-day fiasco. While 
        JetBlue has made all the right promises, it is only one 
        airline.

  <bullet> Similarly, in late December, American Airlines passengers 
        were stranded on runways in Austin, as my fellow witness Kate 
        Hanni is more qualified to explain, since she was there for 9 
        hours, stuck on one of those planes, without food, water or 
        working toilets, or even helpful information other than airline 
        propaganda announcements.

  <bullet> 220 passengers on two separate flights were left stranded in 
        Cheyenne on 21 December by United Express after their diverted 
        planes inexplicably took off without them.\3\ In February, two 
        more planes, a United Express and an American Connection 
        flight, similarly abandoned passengers in Nebraska.\4\
---------------------------------------------------------------------------
    \3\ ``Airline officials say the jets flew without passengers to 
Kansas City and Indianapolis on Dec. 21 because the jets were needed 
for other routes.'' See ``Abandoned'' In Cheyenne, by Gary Stoller, USA 
Today, 20 February 2007, available at http://www.usatoday.com/travel/
flights
/2007-02-19-cheyenne-coverusat_x.htmst visited 10 April 2007.
    \4\ See ``2 more flights abandoned fliers on way to Denver,'' by 
Gary Stoller, USA Today, 21 
February 2007, available at http://www.usatoday.com/travel/flights/
2007-02-20-airport-abandoned-usat_x.htmst visited 10 April 2007.

    Whether these delays and significant hassles passengers face are 
due to the weather, the air traffic control system, increased security 
due to 9/11, carriers gaming the on-time takeoff data or airline cost-
squeezing is not at issue here today.
    What is at issue is simple: consumers should not be treated like 
cattle and should have rights and remedies when they are so treated.
    It is important to note that these incidents are not new isolated 
one-off incidents. Similar runway problems--such as a well-publicized 
Detroit snowstorm that left passengers stranded for 8\1/2\ hours in 
1999--as well as an increasing number of passenger complaints, led to 
Congressional consideration of an airline bill of rights in 1999-2000. 
As then state attorney general and current U.S. Senator Ken Salazar 
wrote to his Congressional delegation in 2000:

        As you are aware, airline passengers in Colorado and throughout 
        the country are experiencing a disturbing number of flight 
        delays and cancellations. This is particularly true with United 
        Airlines, the primary carrier serving Colorado. I am 
        particularly concerned about the reported accounts of United's 
        failure to provide its advertised air transportation services, 
        and by allegations that United is providing false or misleading 
        information to the traveling public. Additionally, there are 
        accounts of United failing to accommodate its stranded 
        customers pursuant to applicable airline regulations.\5\
---------------------------------------------------------------------------
    \5\ Letter of 9 Aug. 2000 to Congressional delegation re 
``Deceptive Practices by Air Carriers'' available at http://
www.ago.state.co.us/press_detail.cfm?pressID=567 Last visited 10 April 
2007.

    Yet, following a series of largely-failed voluntary promises by the 
airlines, this promising airline bill of rights effort was delayed. In 
February 2001, DOT Inspector General Kenneth Mead had told this 
committee \6\ that delays and complaints were up, despite the voluntary 
commitment,\7\ which included a promise to ``Meet customers' essential 
needs during long on-aircraft delays.''
---------------------------------------------------------------------------
    \6\ Hearing on the DOT Inspector General's Final Report on Airline 
Customer Service, U.S. Senate Committee on Commerce, Science, and 
Transportation, Statement of The Honorable Kenneth M. Mead, Inspector 
General, Department of Transportation, 13 February 2001, available at 
http://commerce.senate.gov/hearings/0213mea.pdf Last visited 10 April 
2007.
    \7\ From the Mead testimony: The Airlines Commit to: Offer the 
lowest fare available, Notify customers of known delays, cancellations, 
and diversions. On-time baggage delivery, Support an increase in the 
baggage liability limit, Allow reservations to be held or canceled, 
Provide prompt ticket refunds, Properly accommodate disabled and 
special needs passengers, Meet customers' essential needs during long 
on-aircraft delays, Handle ``bumped'' passengers with fairness and 
consistency, Disclose travel itinerary, cancellation policies, frequent 
flyer rules, and aircraft configuration, Ensure good customer service 
from code-share partners, Be more responsive to customer complaints.
---------------------------------------------------------------------------
    Then, any review of the airline promises was largely shelved after 
the tragic events of 9/11. As it should have, attention turned to 
safety and security. Yet, the decline in air travel that occurred may 
have masked the strains on the system that now is again at the breaking 
point. Now, 6 years after 9/11, with air travel volumes again at peak 
levels, the same customer service problems that were not addressed in 
1999 have returned.
    In our view, while safety and security must remain the top 
priorities of our air travel system, passengers still deserve an 
enforceable bill of rights. The market has failed to adequately provide 
customers with the minimum standards of civilization when they travel. 
Neither airlines nor Federal regulators are adequately accountable.
    The proposed legislation from Senators Boxer and Snowe should be 
enacted immediately. S. 678, the Airline Passengers' Bill of Rights, 
addresses the worst of these problems in a well-thought-out and 
appropriate way. It simply states that passengers on planes that have 
left the gate have a Federal right to adequate food, potable water and 
working toilets during delays, and importantly, also have a right to 
deplane if the delay lasts more than 3 hours.
    We would urge you to extend these basic rights to include rights to 
adequate ventilation, reasonable temperatures and medical access if 
needed.
    We would urge you to consider extension of appropriate rights to 
passengers of diverted flights as well.
    In the 21st century, nearly one hundred years after scheduled 
passenger airline service began internationally and nearly forty years 
since men first walked on the moon, these are reasonable requests.
    We also believe that any final legislation should make these rights 
enforceable. We would also urge the Committee to review some of the 
other effects of the 1978 Airline Deregulation Act. For example, 
following concerns raised by state attorneys general in the 1980s that 
the Act had resulted in violations of state unfair practices acts, and 
a failure by Federal regulators to protect passenger rights, the 
attorneys general proposed a set of standards, after finding in 1988 
that:

        Consumer dissatisfaction with the airline industry has reached 
        crisis proportions. Federal agencies have focused their 
        attention on airline scheduling problems, on time performance, 
        safety, and other related issues, but have not addressed 
        airline advertising and frequent flyer programs. Unchecked, the 
        airlines have engaged in practices in these areas that are 
        unfair and deceptive under state law.

    Yet, after the attorneys general attempted to negotiate with the 
airlines to treat consumers more fairly, the airlines successfully 
obtained a Supreme Court ruling sweepingly eliminating any state 
authority over airlines, even against deceptive advertising of their 
prices.
    A 2000 letter \8\ to Congress by Iowa Attorney General Tom Miller 
explains:
---------------------------------------------------------------------------
    \8\ Letter of 15 September 2000 to U.S. Senator Tom Harkin, 
available at http://www.state.ia.us/government/ag/consumer/
press_releases/airline-preemption-releasefor_web.html. Last visited 10 
April 2007.

        Under a 1992 U.S. Supreme Court decision \9\, Morales v. Trans 
        World Airlines, Inc., U.S. 374 (1992), State Attorneys General 
        are blocked from enforcing their state consumer protection laws 
        against airlines. The Court held that states are preempted 
        under the Airline Deregulation Act of 1978 [Pub. L. 95-504] 
        from taking action against airlines, even if the airlines have 
        engaged in deceptive and unfair practices. The decision says 
        states are preempted from taking action relating to 
        advertisement of rates, services, and other matters.
---------------------------------------------------------------------------
    \9\ The opinion of the Court, including the Attorney General 
Revised Guidelines as an appendix, is available here http://
www.law.cornell.edu/supct/html/90-1604.ZO.html Last visited 10 April 
2007.

    Attorney General Miller's 2000 letter went on to support an 
---------------------------------------------------------------------------
amendment, which we support today.

        We are asking Congress to eliminate the preemption. . . . The 
        amendment would simply state that the Airline Deregulation Act 
        does not prevent State Attorneys General ``from enforcing any 
        state laws prohibiting unfair or deceptive business practices 
        or unfair methods of competition with respect to air 
        transportation or the advertisement and sale of air 
        transportation services.''

    In addition to the rights enumerated in S. 678 and the 
reinstatement of attorney general authority, we urge that any final 
legislation adopt additional rights for airline passengers:

        1. Make involuntary bumping and lost/damaged baggage rules 
        subject to automatic inflationary increases. Require that 
        bumping reimbursement, including for voluntary bumping, always 
        be in cash or cash-equivalent flight coupons, not in what are 
        often currently-provided--future air travel coupons that are 
        often impossible to redeem due to blackout dates and other 
        limits.\10\
---------------------------------------------------------------------------
    \10\ Even the DOT acknowledges these deficiencies and warns 
passengers to ask: If the airline offers you a free ticket, ask about 
restrictions. How long is the ticket good for? Is it ``blacked out'' 
during holiday periods when you might want to use it? Can it be used 
for international flights? Most importantly, can you make a 
reservation, and if so, how far before departure are you permitted to 
make it? See http://airconsumer.ost.dot.gov/publications/flyrights.htm. 
Last visited 10 April 2007.

        2. Give consumers greater private rights of action in contracts 
        of carriage, which are currently merely contracts of adhesion 
        that largely immunize airlines rather than provide a fair 
---------------------------------------------------------------------------
        contract.

        3. Establish an independent airline consumer protection group 
        with some small increment of currently-collected passenger and 
        airline facility taxes. The group should have party-intervenor 
        status to represent passengers in any administrative 
        proceedings of the Department of Transportation, the right to 
        file comments at the DOT and FAA, the capacity to publish an 
        independent and passenger-friendly analysis of the on-time, 
        complaint and other data now merely data-dumped by the FAA, to 
        advise consumers on airline complaints, etc.

        4. Whether or not such a passenger advocacy group is 
        established, the Committee should compel the FAA/DOT to more 
        effectively use the power of the Internet to provide passengers 
        with more and enhanced information about the cost of flights, 
        chronically delayed flights and other airline quality 
        indicators. The department's current websites are not helpful 
        to consumers.

        5. Airlines themselves should be required to post information 
        about their own lowest-cost flights on their Internet sites, 
        and should be required to inform prospective customers more 
        clearly than in current murky codings about the on-time 
        performance of chronically-delayed and canceled flights. 
        Airlines should be required to post the Airline Passenger Bill 
        of Rights at gates in terminals as well as on ticket jackets 
        and websites.

        6. The Airline Passenger Bill of Rights disclosures should 
        include clearer and better disclosure of other rights, such as 
        the involuntary bumping and lost/damaged baggage compensation 
        rules.

        7. We also urge the Committee to conduct additional oversight 
        of the DOT's customer satisfaction and complaint handling 
        effectiveness.

    In addition, we would urge the Committee to consider some of the 
larger issues about the U.S. transportation system that have led to 
some of the pressures that the airlines are under that may contribute 
to these on-time and runway stranding problems. We call your attention 
to prescient testimony by Mark Cooper of the Consumer Federation of 
America before this committee \11\ immediately following 9/11:
---------------------------------------------------------------------------
    \11\ Hearings on the Financial Status of the Airline Industry, U.S. 
Senate Committee on Commerce, Science, and Transportation, 20 September 
2001, statement of Dr. Mark Cooper, Consumer Federation of America, 
available at http://commerce.senate.gov/hearings/092001
Cooper.pdf. Last visited 10 April 2007.

        In the longer term, building a survivable transportation 
        network requires redundancy and diversity of transportation 
        options, as well as air travel decentralization. Here are some 
---------------------------------------------------------------------------
        ideas that should be considered and debated.

        First, we should improve ground transportation, particularly 
        high-speed rail in high density air corridors. This could 
        relieve a substantial part of the load in the most densely 
        traveled routes without imposing significant indirect costs 
        (increased travel time) on the public. It would also ease 
        runway overcrowding at some airports. It would probably require 
        the airlines to cut back on some of their most densely traveled 
        and profitable routes for the sake of the public interest.

        Commercial operations that require plane changes by driving 
        traffic through hub and spoke networks make economic sense for 
        the air carriers, but they are heavy users of very scarce 
        resources--take offs, landings and air traffic control. For 
        consumers, however, the hub and spoke system has led to 
        domination of routes in some regions by a single carrier, 
        resulting in higher ticket prices. These networks also impose a 
        transaction cost on the public that may increase 
        substantially--boarding time. Concentrating traffic is 
        profitable for the airlines and it may even be efficient, but 
        it may not be in the public interest, given the new traveling 
        reality.

    We want to thank you for the opportunity to provide our views to 
the Committee today. We look forward to assisting the Committee as you 
move forward on this important legislation.

    The Chairman. Thank you very much, sir.
    May I now recognize Mr. Hudson?

STATEMENT OF PAUL HUDSON, EXECUTIVE DIRECTOR, AVIATION CONSUMER 
                     ACTION PROJECT (ACAP)

    Mr. Hudson. Thank you, Mr. Chairman. I want to thank you 
for asking me to testify here today, Chairman Inouye and 
members of the Committee.
    My name is Paul Hudson. I am Executive Director of the 
Aviation Consumer Action Project that's acted as a voice for 
air travelers on national aviation issues since, believe it or 
not, 1971.
    I was actively involved the last time this came up, now 
about 7 years ago, in the Congress. That is, to enact some 
rights for airline passengers. Unfortunately, at that time, it 
did not pass. The airlines, as has been pointed out here, said 
they would do it voluntarily. Well, we're now in take 2, and 
clearly it has not worked.
    I think a large reason why we haven't seen the problems 
that we're now seeing is because shortly after that 
congressional effort was abandoned, we had a recession. That 
lowered air traffic. Then we had 9/11, and it dropped off a 
cliff. And it only came back very slowly. So, just now, we are 
seeing air traffic reach the levels it was at prior to that 
time.
    The root cause is obviously too much air traffic for the 
infrastructure we have, but there are many things that could be 
done, with appropriate regulation, that would greatly 
ameliorate the problems we have now. When I hear that, you 
know, we should let the market take care of delays and 
scheduling and air traffic, I would say, does anyone believe 
that if we have congestion on roadways, we should leave it up 
to the drivers and to their employers? Should we get rid of 
stop signs and traffic lines and let the market take care of 
it?
    Now, after 9/11, the market took care of it, and, while all 
air traffic went down, short-haul flights dropped off a cliff. 
The market said, ``You're too unreliable, you're too slow, and 
we're getting in our cars with our cell phones, we're getting 
on teleconferences, and we're just not going to do it.''
    Now, there are bad actors in the present system, and 
there's bad behavior. What you're seeing with--I would not call 
it stranding. That used to be considered what happened when you 
were in an airport. I would call it wrongful imprisonment. In 
fact, when cases have been brought, like the Detroit cases, 
where I--I represented ACAP and a number of people there; and, 
by the way, the number was not a few hundred, it was 4,500--the 
courts have said, ``You can't do that. It's intolerable.'' And 
to keep people even 3 hours, I think, is unacceptable, when you 
consider that most flights are 2 hours or less.
    If you go look behind this, you'll find that much of the 
reason has nothing to do with weather. In fact, the DOT report 
that has come out most recently would indicate only 5 percent 
of delays are based on extreme weather. Most of these delays 
are based on financial decisions made by the airlines. And my 
testimony goes into the details of this.
    But I would just like to leave the Committee with four 
points that we think would greatly ameliorate the present 
situation:
    One is robust disclosure of the on-time statistic, which is 
now available, but you have to ask for it. Most people will not 
book a flight if it's going to be late 50, 60, 80, even 100 
percent of the time.
    Second would be appropriate compensation for delays that 
are excessive and are clearly the fault of the airlines. And 
that can be defined, it doesn't require elaborate 
investigations.
    Third, get rid of deceptive scheduling. Last statistic is, 
as of February, there were 175 flights that were regularly--
that is over 80 percent of the time--delayed. And these weren't 
small delays. We're talking half an hour to 2 hours. My 
testimony lists some of the worst cases.
    Fourth, there needs to be enforcement of rights. If rights 
have no enforcement, they are meaningless. The passenger--
customer service procedures of the airlines basically say that 
if you write them a complaint, in 60 days or so they'll send 
you a response. Most likely it's going to be, ``We don't agree 
with you. End of story.'' That does not provide any relief. 
ACAP gets many of these complaints that are copied from the 
Department, and we see this all the time.
    And finally, there needs to be mandatory minimum reserve 
capacity. Since deregulation, airlines are now operating with 
generally less than 1 percent reserve capacity. That means 
that, every single day when pilots are sick, planes are out for 
maintenance or for other reasons, flights are canceled. No 
system can operate reasonably, reliably, unless there is a 
reserve capacity. It's in each individual airline's interest to 
keep that reserve very low. And now what has happened is, the 
cost is being passed to the passenger and to the public and, 
finally, to the U.S. economy.
    I'd be glad to answer any questions, and I'd ask that my 
written testimony be submitted for the record.
    Thank you.
    [The prepared statement of Mr. Hudson follows:]

        Prepared Statement of Paul Hudson, Executive Director, 
                Aviation Consumer Action Project (ACAP)
Introduction
    Good Afternoon Chairman Inouye, Vice Chairman Stevens and members 
of the Committee. My name is Paul Hudson. I am Executive Director of 
the Aviation Consumer Action Project (ACAP) which has acted as a voice 
for air travelers on national aviation issues of safety, security, and 
airline passenger rights and interests since 1971. Thank you for 
inviting me to testify today. I would like to make some brief summary 
comments and would request that my full written testimony be submitted 
for the record.
The Situation, How Bad Is It?
    The situation today can best be described as ``deja vu all over 
again'', as the problems that nearly brought the national air 
transportation to its knees in 1999-2000 have now re-emerged. With one 
of three flights now delayed, one of twenty flights being canceled, one 
of 100 checked bags being mishandled, and most recently passengers on 
JetBlue and some other airlines being involuntarily detained in 
aircraft for up to 11 hours on the tarmac at Kennedy Airport, the 
situation requires prompt government and congressional action to 
prevent a new crisis, one that will not only cause hardship for airline 
passengers, but could negatively impact safety and the U.S. economy.
    The root cause of the current movement toward chronic air 
transportation congestion and periodic gridlock is record high air 
traffic that strains the air transportation infrastructure. The 
inadequate number of airports around Chicago, New York and a few other 
cities which are major choke-points in the system, the lack of reserve 
capacity of aircraft and flight crews, the lack of government oversight 
of airline scheduling practices and contingency planning for 
disruptions, has resulted in an air transportation system that is both 
vulnerable and deteriorating. It now takes longer to travel by air than 
it did 30 years ago, and the situation is much worse in high traffic 
areas and at peak travel times. In the past year alone, flight delays 
are up nearly 20 percent, denied boarding or bumping is up 20 percent, 
mishandled baggage is up 32 percent, and formal passenger complaints 
are up 50 percent. (Source: April 2007 Air Travel Consumer Report, U.S. 
DOT and statistics at U.S. DOT website).
What Should Congress Do?
    Over 35 years ago, Congress enacted legislation that deregulated 
the airline industry, abolished the Federal agency that had regulated 
air fares and terms of service, the Civil Aeronautics Board (CAB). The 
remaining Federal agency, the Federal Aviation Administration (FAA), 
regulates air safety, operates the air traffic control system and 
provides subsidies and grants to airports. There is also a small 
aviation consumer office in the U.S. DOT that receives airline service 
complaints, collects data from the airlines and publishes monthly 
statistical reports. And of course since 9/11, the Transportation 
Security Administration has operated the aviation security system. U.S. 
airports are still owned and operated by local government authorities, 
who control the access to major airports by airlines.
    Airlines are now free to set fares as they see fit, and can compete 
on price, service and amenities. Barriers to entry of new airlines are 
now lower than they have ever been. This has brought benefits to the 
traveling public, but also has resulted in new problems that now demand 
your attention.
    Congress must, in our view, not only address the problems that have 
caused national headlines in February and are the top passenger 
complaints (i.e., flight delays and cancellations and mishandled 
baggage), but are only the tip of the iceberg. It must also address the 
underlying problems of the national air transportation system.
Stranding and Involuntary Detention in Grounded Aircraft
    Passengers should be given the opportunity to deplane when a flight 
is delayed more than 2 hours, and airlines should also be required to 
compensate passengers for more than a 2 hour delay on a per hour basis. 
In many cases passengers can get alternate transportation or may want 
to cancel their trip, if they can escape the wrongful imprisonment that 
airlines now increasingly impose on passengers.
    There is a little known financial incentive that flight crews have 
to pull away from the gate (and not go back) even if they know the 
flight is not taking off for a long time, if at all. Most airlines only 
pay flight attendants and sometimes pilots from the time that the cabin 
door closes. This work rule goes a long way to explaining some of the 
more ridiculous stranding situations.
    This reform would also remove another financial incentive airlines 
now have to over-schedule flights that they know are going to be 
delayed or canceled due to overcrowding or weather conditions. By lying 
to and fooling the passengers, then involuntarily detaining them on 
aircraft, they avoid the massive cancellations, defections to other 
airlines, and financial losses that would occur if they provided honest 
disclosure and scheduling. Instead airlines usually blame the weather, 
FAA air traffic control or mechanical problems rather than their own 
practices.
Delay and Cancellation Abuses
    Reducing stranding and delay abuses also requires enhanced 
disclosure of the on-time statistic for each flight. This figure is now 
available, but the passenger must ask for it. All persons providing 
reservations services should be required to disclose the percentage 
that a particular flight is on time, and have available the average 
delay and cancellation rate. Chronically delayed flights should be 
posted on the carrier's and a DOT website, as well as frequently 
canceled flights.
    It is unlikely that many passengers will want to book flights that 
are delayed or canceled more than 50 percent of the time, thereby 
causing the airlines to discontinue such flights and rationalize their 
schedules, based on reality and truth in scheduling rather than 
deceptive scheduling.
    While the number one cause of delays is air traffic congestion, the 
number two cause of delays and cancellations is the airlines' lack of 
reserve capacity of aircraft and flight crews which now runs at 1 
percent or less. Extreme weather causes less than 5 percent of delays. 
No system can operate reliably without an adequate reserve capacity, 
sick pilots or mechanical problems now invariably cause daily avoidable 
delays and cancellations. Accordingly, mandating a minimum reserve 
capacity would be the fastest and cheapest way to improve reliability 
of the national air transportation system.
    However, there also needs to be a requirement that deceptively 
scheduled flights be canceled. These are flights that are delayed over 
80 percent of the time or are frequently canceled (e.g., Over 8-10 
percent of the time). As of February 2007 there were 175 flights that 
are regularly late over 80 percent of the time, typically for 30-120 
minutes. The worst examples of this Schedule Lying include Mesa Air 
Flight 7174 from Birmingham to Chicago late 100 percent of the time an 
average of over 2 hours, US Airways flight 154 from Philadelphia to San 
Francisco late 100 percent of time averaging over an hour, and Comair 
flight 1435 from Reagan National to JFK (actual flight time less than 
25 minutes) late 93 percent of the time an average of 79 minutes.
    For economic reasons, some airlines engage in the practice of 
deceptive scheduling. Since airline deregulation the FAA and airports 
exercise little if any control over airline flight scheduling. As a 
result, some busy airports now have many more flights scheduled to 
depart or land than the airport capacity will allow during certain time 
periods.
    Airlines have an incentive to schedule flights at the most popular 
times even if they know that the scheduled times cannot be met due to 
airport capacity and overcrowding. Such practices should be banned as 
they amount to a fraud on the public and may give airlines willing to 
engage in such dishonest practices an unfair competitive advantage. 
(c.f., JetBlue, Express Jet, Mesa and Comair have 8-10 percent of their 
flights regularly late over 70 percent of the time, while Southwest, 
Delta, Alaska, Hawaiian, and Aloha are at only 0.0 to 0.2 percent of 
their flights).
    The FAA also should be required to ensure that airlines do not 
chronically over-schedule, particularly at choke-point airports, as 
such practices have a negative affect on the national air traffic as 
well as flights originating or terminating at such airports. These 
airports include Chicago O'Hare, Atlanta Hartsfield, New York 
LaGuardia, Kennedy and Newark Airports, Los Angeles International, and 
San Francisco. The current non-system is analogous to having no traffic 
lights or traffic control rules to control congestion on our Nation's 
roadways.
    The next reform needed is to provide compensation for passengers 
for flights canceled by the airline for economic reasons less than 2 
hours before flight time. While the airlines will not admit it, such 
cancellations are common and amount to breach of contract and fraud. If 
a flight has so few passengers that the airline wants to cancel it, it 
should do so at least 2 hours before, so that passengers do not come to 
the airport unnecessarily, and provide passengers with alternate 
transportation within an hour of the canceled flight time plus a ticket 
refund.
    Otherwise, the airlines should provide passengers with compensation 
that is equivalent to normal breach of contract compensation (normally 
the cost of the covering the service defaulted upon with another 
provider and sometimes consequential damages) or at least equivalent to 
bumping compensation, perhaps capped at several thousand dollars. In 
case of any dispute, it should be presumed that a flight was canceled 
for economic reasons if there was no ground hold by air traffic control 
and the flight was was less than 30 percent booked.
    Passengers, who are stranded by airline delays and cancellations 
overnight, away from their home city, should receive ground 
transportation and overnight accommodations. Airlines use to provide 
this as a matter of course, but now many do not or do so only for 
certain favored passengers. This has led to chronic choke-point 
airports like O'Hare in Chicago being dubbed ``Camp O'Hare'' with over 
50,000 passengers per year being stranded and cots being set up in the 
baggage claim areas after midnight during the last high air traffic 
years (1998-2000).
Inflation Adjustment for Bumping and Lost Baggage
    Legislation is also needed for automatic inflation increases in 
compensation for bumping (involuntary denied of boarding of passengers 
with confirmed reservations due to airline overbooking). The present 
rule caps cash compensation at $400 or $200 and has not been changed or 
updated for inflation for over 25 years.
    The compensation cap for lost or damaged luggage on international 
flights to or from the U.S. is about $1,500 (this cap is based on an 
arcane treaty which provides for a compensation cap based on IMF 
special drawing rights or SDRs, this compensation cap is now badly 
outdated.) Under the common law of bailment, airlines would have 
unlimited liability. While legislation cannot change this treaty, it 
could mandate excess liability insurance be offered to passengers by 
airlines flying to or from the United States.
    On domestic flights, the U.S. DOT has recently increased lost 
baggage compensation limit to $3,000 from $2,800 under an inflation 
adjustment rule.
Enforcement
    Finally, a bill of rights for airline passengers needs to include a 
way for passengers to enforce their rights in a timely and inexpensive 
way. This is something totally lacking in the present system. 
Complaints to airlines or the U.S. DOT are regularly blown off (ACAP 
gets copies of some of these and a study can easily be done of the 
thousands of complaints to the U.S. DOT consumer affairs office that 
are simply logged for statistical purposes).
    ACAP suggests mandating a small claims arbitration process (which 
could be a private alternate dispute resolution service that uses 
retired judges, consumer affairs, or experienced arbitrators), as is 
typical in insurance and securities industry contracts with consumers, 
with the option for the customer going into local small claims court if 
the dispute is over a certain amount, like $1,000. For disputes 
involving many passengers, and millions of dollars of claims, class 
actions in state or Federal courts should be authorized, as well as 
through arbitration. There also needs to be a provision that would 
require the airline to pay the litigation expenses of the passenger if 
the resulting decision exceeds a rejected settlement offer. Now, there 
is no arbitration process, and airlines who are sued in state courts 
try to get the cases dismissed on jurisdictional grounds.
Conclusion
    The above provisions would cover the largest number of complaints 
of airline passengers, which are Flight Delays and Cancellations and 
Lost or Mishandled Luggage, as well as their most egregious complaints 
and abuses of Stranding and Wrongful Imprisonment. These reforms would 
also enhance and reward honest competition among the airlines and U.S. 
economic productivity by discouraging abusive scheduling and service 
practices now causing unnecessary air transportation delays by reducing 
flight delays and cancellations that now impose unnecessary costs on 
the overall economy as well as individual passenger inconvenience and 
hardship.
    Specific comments on the legislation recently introduced by 
Senators Boxer and Snowe, and by Congressperson Thompson of California 
are contained in Appendix A to this testimony. Thank you for holding 
this important and timely hearing. I look forward to responding to any 
questions of the Committee.
Appendix A. Comments on S. 678 and H.R. 1303--Airline Passengers' Bill 
                         of Rights Act of 2007
    Overall Comment: Such legislation is necessary and long overdue. It 
should be comprehensive and address the major complaints of airline 
passengers which are flight delays and cancellations, mishandled 
baggage, and the lack of any enforceable rights are for service 
complaints. Finally, there should be consideration of rights of 
passengers concerning aviation security measures which have become a 
major concern since 9/11.
    Specific Comments:
    S. 678 (by Senators Boxer and Snowe) as introduced February 17, 
2007:
Sec. 41781(a)(2) Right to Deplane
    The right to deplane should be triggered after 2 hours or less, not 
three. Most flights are under 2 hours duration. Many passengers can 
obtain alternate transportation if they are permitted to deplane. 
Wrongful imprisonment lawsuits have resulted in recovery for 
unreasonable detention as short as 2 hours. This provision could be 
used by the airlines to legitimize involuntarily detaining passengers 
for 3 hours or more, and therefore could be a step backward for 
passenger rights and could potentially lead to an increase in stranded 
and involuntarily detained passengers.
    H.R. 1303 (Mr. Thompson of California, et. al) as introduced March 
1, 2007:
Sec. 41782 Standards for air carrier passenger services
    (a) This provision would allow for no change in existing procedures 
for handling passenger complaints, which give air carriers the near 
absolute power to reject complaints with no effective recourse or 
remedy for the complaints. Airline procedures generally provide that 
any pro-consumer policies and practices are not part of the contract 
for carriage and legally unenforceable, and there is no neutral third 
party mediation or arbitration for unresolved complaints.
    (2) methods of notification--Should also provide for and include 
direct notification of passengers by telephone or e-mail of flight 
delays. Airlines now have phone numbers for all passengers and often e-
mail for passengers and should be required to directly notify them of 
delays or cancellations that are known more than 2 hours before flight 
time. This will prevent unnecessary or untimely travel to, congestion 
at airports, and general cost and aggravation for all concerned.
    (1) right of passengers to exit an aircraft--Same comment as under 
Right to Deplane above.
    After section on Chronically Delayed Flights there should be a 
section for Frequently Cancelled Flights (canceled more than 5-10 
percent of the time) that requires such to be discontinued and 
compensation paid to passengers as in bumping regulations.
Sec. 41783 Procedures for Departure Delays
    (a) Should also include permitting deplaning passengers without 
returning to gate which is often feasible especially where passengers 
are transported to aircraft by bus.
    (2) meeting--This provision should include representatives of 
passengers, not just government and industry representatives.
    Goal of contingency plans should be ``graceful degradation'' of 
national air traffic in weather related, natural, or man made disasters 
and emergencies, using diversion to pre-designated alternative and 
secondary airports and enhanced ground transportation. The current 
system effectively causes national air traffic brownouts and blackouts 
that take as long as a week to recover from, whenever a major airport 
is unavailable.

    The Chairman. I thank you very much.
    May I recognize Mr. Mitchell?

           STATEMENT OF KEVIN P. MITCHELL, CHAIRMAN, 
                   BUSINESS TRAVEL COALITION

    Mr. Mitchell. Thank you, Mr. Chairman, members of the 
Committee, for inviting the Business Travel Coalition to 
testify before this Committee again, and to provide our views 
on the subject of airline passenger service.
    I'm here representing corporations that purchase millions 
of dollars in air tickets each year and dispatch millions of 
travelers on the road each day. Formed in 1994, BTC has 
consistently advocated the need for improved airline service, 
and has provided the Congress and DOT with suggestions on how 
to ensure such service is implemented in the marketplace. 
However, legislation in this area is not needed, and, in BTC's 
view, would make matters worse, in terms of safety margins, 
flight cancellations, and higher airfares.
    These recent unfortunate incidents do not rise to a level 
of national seriousness to warrant Federal laws governing 
airline industry customer service. As pointed out earlier, 
massive delays are unusual. This is not to say, however, that 
Congress does not have an important role here. Indeed, this 
hearing is timely in a larger customer-service sense.
    Progress, at the beginning of this decade, against airline 
service commitments was recorded for a few quarters. Then the 
tragedy of 9/11 and new security requirements struck, followed 
by SARS, the Iraqi War, sky-high jetfuel prices and $40 billion 
in losses. Airlines, press, the DOT, the Congress, consumer 
groups, we all lost focus on these customer service 
commitments.
    Indeed, it is time for airlines to refocus. Importantly, 
DOT is already moving on this issue. In addition, the FAA is 
examining its role in contributing to extended delays. For 
example, with the confusion created during the New York storm 
in February by varying interpretations of the regulation 
concerning ice pellets.
    DOT, Congress, passenger groups, and the press are a potent 
combination, a highly visible bully pulpit to inform consumers, 
who then make purchasing decisions that drive the market. 
Reporters and customers pounded JetBlue in the aftermath of its 
customer-service fiasco. Customers do have choices, the power 
to effect change. In the case of JetBlue, the operational 
debacle cost it millions of dollars and tarnished its image. 
The effectiveness of management in responding with changes to 
policies and procedures will determine its future success. The 
marketplace is, indeed, holding JetBlue accountable.
    In addition, in the aftermath of the terrible conditions 
American Airlines customers endured in December, as noted, the 
airline implemented new policies and procedures. Legislation, 
in our view, is not the answer.
    One proposal calls for the return of jets to gates after 3 
hours. Consider a Friday afternoon scenario at O'Hare. Arriving 
planes take up most of the gates, 50 jets are lined up, but 
unable to take off due to worsening weather conditions. At the 
3-hour point, like a line of dominoes, the aircraft become 
paralyzed in a regulatory limbo, with nowhere to go. The impact 
would ripple through the system. Travelers would be stuck in 
Chicago for the weekend, those in distant cities would, 
likewise, be stranded in their aircraft, or because their 
aircraft is at--are at O'Hare. There is little doubt that such 
legislation would lead to higher airline staffing, operational 
costs, and increased business airfares. If you can legislate 3 
hours, why not 2 hours? It doesn't make sense.
    Another proposal would require compensation to passengers 
when airlines fail to deliver services, as promised. It is 
imprudent to mix government-imposed financial incentives and 
penalties with airline go/no-go decisions and safety judgments.
    On February 19, 2005, the number-two engine of a Boeing 747 
failed after takeoff from LAX on a flight to Heathrow with 351 
passengers onboard. The captain decided to continue anyway, 
with three engines. Because it was unable to attain normal 
cruising speeds and altitudes, the aircraft was forced to 
divert to Manchester, England. Under European Union passenger 
rights legislation, had the plane returned to LAX, BA would 
have had to compensate passengers some $250,000. BA denies the 
penalty influenced its decision.
    A recent BTC survey underscores the safety concern. Of 144 
corporate travel managers surveyed, only 10 percent would 
support a passenger bill of rights in the absence of an 
ironclad commitment that safety margins would not be decreased.
    There are actions the Federal Government can take to 
improve the experience of the flying public:
    One, increase airline competition through Open Skies 
Agreements and a promotion of new entrants, such as Virgin 
America. Prevent radical consolidation of the airline industry; 
the greater the competition, the more influence the customer 
has in driving airline service improvements.
    Number two, invest in new satellite system--a new satellite 
system for air traffic control to reduce delays and improve 
system efficiency, especially during times of severe weather 
systems. Pass FAA reauthorization so that the Government and 
the industry can head off a real crisis in passenger service.
    Three, build more runways, such as at O'Hare.
    Four, insist on better decisionmaking on rules promulgated 
by the FAA to prevent highly confusing and service-degrading 
circumstances, such as with the pellet--the ice pellet 
situation.
    Five, and finally, require greater DOT enforcement of 
existing carrier commitments and existing laws and regulations.
    In conclusion, while BTC believes that the airlines must do 
more to reduce delays and minimize customer hardship during 
delays, we believe that the Federal legislation would prove to 
be counterproductive and something we cannot support.
    Thank you.
    [The prepared statement of Mr. Mitchell follows:]

          Prepared Statement of Kevin P. Mitchell, Chairman, 
                       Business Travel Coalition
    Mr. Chairman and Members of the Committee, thank you for inviting 
the Business Travel Coalition (BTC) to testify before this Committee 
again and to today provide our views on the subject of airline 
passenger service. I am here representing the interests of corporations 
that purchase billions of dollars of commercial air transportation 
services, and dispatch millions of travelers each day.
    Formed in 1994, BTC has consistently advocated on behalf of 
business travelers the need for improved airline service and has 
provided the Congress and U.S. Department of Transportation specific 
suggestions on how to ensure such improved service in the marketplace. 
However, Federal legislation in this area is not needed and, in BTC's 
view, would make matters worse, not better, in terms of reduced safety 
margins, more flight cancellations and higher airfares.
Background
    BTC testified in 1999 against proposed passenger rights 
legislation. The Coalition believed it was a bad idea then, and 
believes it still is today. Congressional mandating of customer service 
standards in any industry represents a dangerous precedent. In the case 
of the airline industry, such legislation would increase business 
travel costs, stifle innovation and raise safety issues.
    The proximate cause of the legislative initiative in 1999 was a 
Northwest Airlines' plane and its passengers that had been stuck on the 
tarmac in Detroit during a horrendous snow storm in January of that 
year. Investigative reporters at The Wall Street Journal later 
uncovered that it was managerial incompetence manifest in a series of 
poor decisions that led to the customer service meltdown. That 
discovery certainly would not have appeased any passenger that was on 
that plane that day.
Threshold for Legislation
    However, like the present day's issue during recent storms in Texas 
and New York, these unfortunate incidents do not rise to a level of 
national seriousness to warrant Federal laws governing airline industry 
customer service. Massive delays are unusual. According to the Bureau 
of Transportation Statistics, in 2006 just 36 out of 7.1 million 
commercial flights sat on the ground for 5 hours or more.
    In vivid contrast, an aviation issue that has reached the threshold 
of national seriousness, sufficient to warrant Federal legislation, is, 
by way of example, that of outsourcing aircraft heavy maintenance to 
overseas contractors with less expertise, virtually no background 
checks on mechanics and woefully inadequate oversight. It is literally 
an accident waiting to happen.
The Bully Pulpit
    This is not to say that Congress does not have an important role to 
play. Indeed, this hearing is timely in a much larger airline industry 
customer service sense. Progress at the beginning of the decade against 
airline voluntary customer service commitments was recorded for several 
quarters, but then fell off.
    Suddenly in early 2001, a fundamental marketplace shift caught the 
airlines off guard. Then the tragedy of September 11 and new security 
requirements struck, followed by SARS, the Iraq war, sky-high jet fuel 
prices and $40 billion in losses. Painful restructurings eliminated 
more than 147,000 airline industry jobs--many were customer-facing. 
During this period, cutbacks in customer service and passenger 
amenities were implemented just for basic survival. Airlines, 
passengers, consumer groups, press and government all lost their focus 
on the industry customer service commitment.
    Indeed, it is time for airlines to refocus on customer service. 
Importantly, the U.S. Department of Transportation (DOT) is already 
moving on the issue. Secretary Mary Peters recently issued an urgent 
call for the Department's Inspector General to review the current state 
of airline customer service and to develop proposals to address any 
problems. In addition, the FAA is examining its own role in 
contributing to extended delays. For example, the confusion created 
during the New York storm by the varying interpretations of the FAA 
regulation concerning ice pellets.
    DOT, Congress, passenger groups and the press are a potent 
combination, a highly visible bully pulpit to inform consumers who in 
turn make purchasing decisions that drive the market. Reporters and 
customers, for example, pounded JetBlue in the aftermath of its 
customer service fiasco.
    ``Thousands of fuming JetBlue passengers were grounded this weekend 
. . .'' said The New York Post. ``JetBlue red-faced over strandings at 
JFK'' read a Star-Ledger headline. ``In today's society we as citizens/
customers have the opportunity to disrupt a company's reputation,'' 
stated the founder of JetBlueSucks.net. ``The cancellations raise new 
questions about whether JetBlue's management is equal to its 
ambitions,'' exclaimed The New York Times.
Marketplace Solutions
    In the marketplace for commercial airline services, customers do 
have choices and the power to effect change. In the case of JetBlue, 
the operational debacle cost it millions of dollars in near-term lost 
revenue and higher costs, and badly tarnished its superior customer 
service image. The effectiveness of management in responding with 
changes to policies and procedures will determine its future success. 
The marketplace is holding JetBlue accountable, and like competitors 
before them, the pounding has led to positive change with a passenger 
bill of rights and a compensation plan for inconvenienced customers.
    JetBlue's CEO David Neeleman is a smart, world-class entrepreneur 
and an airline industry icon. He will be driven to make sensible 
adjustments for the benefit of his customers and shareholders. In the 
immediate aftermath of the terrible conditions American Airlines' 
customers endured on December 29, 2006, during a storm that paralyzed 
air traffic in Texas, the airline implemented new policies and 
procedures. The infamous January 1999 debacle at Detroit, during a 
horrendous snow storm, led to structural changes at Northwest Airlines 
and the justification of a new runway at Detroit Metro Airport.
The Problem with a Legislative Solution
    Legislation is not the answer. One proposal calls for the return of 
jets to gates after 3 hours. Consider this Friday afternoon scenario at 
O'Hare: arriving planes take up most of the gates, 50 jets are lined 
up, but unable to take off due to deteriorating weather. At the three-
hour point, like a line of dominos, the aircraft become paralyzed in 
regulatory limbo with nowhere to go. The impact would ripple through 
the system. Travelers would be stuck in Chicago for the weekend; those 
in distant cities would likewise be stranded as their aircraft are at 
O'Hare. There is little doubt that such legislation would lead to 
higher airline staffing and operational costs, and increased business 
airfares.
    Another proposal would require compensation to passengers when 
airlines fail to deliver services as promised. This may be well 
intentioned, but it is an example of a dangerous idea with all manner 
of potential unintended consequences. It is imprudent to mix 
government-imposed financial incentives and penalties with airline 
operations, go, no-go decisions and safety judgments.
    On February 19, 2005, the No. 2 engine of a Boeing 747 failed after 
takeoff from LAX on a flight to Heathrow with 351 passengers onboard. 
The captain decided to continue anyway with 3 engines. Because it was 
unable to attain normal cruising speeds and altitudes, the aircraft was 
forced to divert to Manchester, England. Under European Union passenger 
rights legislation, had the plane returned to LAX, BA would have had to 
compensate passengers some $250,000. BA denies that the penalty 
influenced its go, no-go decision.
    A BTC survey underscores the safety concern. Of 144 corporate 
travel managers recently surveyed, only 10 percent would support a 
Passenger Bill of Rights in the absence of an ironclad guarantee that 
safety margins would not be decreased. There are safety concerns as 
well as questions regarding the efficacy of Congressional intervention. 
Consider this representative comment from survey participants:

        ``Not to minimize this recent event, but let's focus on the 
        millions of airline flights across America and the world that 
        take place every day without incident. Do we really need the 
        government legislating ``common sense'' customer service. No 
        doubt, JetBlue will handle the bad publicity and attempt to 
        appease those unfortunate passengers. No amount of vouchers or 
        free tickets can undo their intolerable experience. How about 
        we take a business approach and let the marketplace decide what 
        retribution JetBlue should suffer, if any.''

    The Coalition has never adopted the premise of ideological purists 
who insist the marketplace will solve all of the travel industry's 
ills. There's a place for regulation. It's just that it's not in this 
arena, and not at this point.
    As aviation attorney Susan Jollie states, ``The questions I wished 
politicians asked themselves are, `Is there a significant persistent 
market failure that can only be remedied by government involvement?' 
And perhaps more importantly, `Why do I believe that government 
personnel would have the necessary background, intelligence, integrity 
and dedication to make better decisions than those in industry whose 
role they would be taking over?' ''
Steps Government Can Take to Improve the Flying Experience
    There are actions the Federal Government can take to improve the 
experience of the flying public.

        1. Increase airline competition through Open Skies Agreements 
        and the promotion of new entrants such as Virgin America. 
        Prevent radical consolidation of the airline industry. The 
        greater the level of competition, the more influence the 
        consumer has in driving the market and airline service 
        improvements.

        2. Invest in a new satellite system for air traffic control to 
        reduce delays and improve system efficiency, especially during 
        times of severe weather systems. Pass FAA reauthorization so 
        that the government and the industry can head off a real crisis 
        in passenger service.

        3. Build more runways such as the Chicago O'Hare modernization, 
        which BTC supported.

        4. Insist on better, more inclusive decisionmaking on rules 
        promulgated by the FAA to prevent highly confusing and service 
        degrading circumstances such as the ice pellet regulation.

        5. Require greater DOT enforcement of existing carrier 
        commitments and existing regulations and laws.

    While BTC believes that the airlines can and must do more to reduce 
delays and minimize consumer hardship during delays, we believe that 
Federal customer service legislation would prove to be 
counterproductive and thus something BTC cannot support.

    The Chairman. Thank you very much, Mr. Mitchell.
    May I now recognize Ms. Hanni?

          STATEMENT OF KATE HANNI, EXECUTIVE DIRECTOR,

 SPOKESPERSON, AND FOUNDER, COALITION FOR AIRLINE PASSENGERS' 
                         BILL OF RIGHTS

    Ms. Hanni. Thank you, Mr. Chairman.
    My name is Kate Hanni, and, on behalf of the Coalition for 
an Airline Passengers' Bill of Rights, I'd like to thank the 
Committee--Commerce Committee Chairman Inouye, Aviation 
Subcommittee Chairman Rockefeller, Senator Boxer, and Senator 
Olympia Snowe, and all the other members of the Committee, for 
the opportunity to address you today.
    I am here in part because of the cruel and inhumane manner 
in which my family and thousands of other stranded passengers 
were treated on several American Airlines flights during the 
holiday season of 2006, and, most importantly, our mission to 
ensure that no other airline passenger has to endure our 
horrific ordeal ever again.
    First, I want to offer a brief synopsis of what happened to 
us on December 29, 2006, and then I will inform the 
distinguished members of this Committee why we have formed this 
coalition, our mission, and what we hope Congress will do in 
order to safeguard the flying public.
    We were headed to Point Clear, Alabama, from San Francisco, 
for a needed family holiday vacation which started off much 
like our other trips, since my husband and I are frequent 
business flyers, but what should have been a short trip turned 
into an odyssey that lasted more than 57 hours and almost 3 
days.
    The most desperate hours of our ordeal--9, to be precise--
were spent stranded on the tarmac of Austin International 
Airport with no food, no potable water, overflowing toilets, 
and anger toward American Airlines for turning what was 
supposed to be a holiday vacation into a chaotic and traumatic 
experience for myself, my husband, and both of my children, one 
which I am certain the hundreds of passengers aboard our plane 
will never forget.
    During those 9 exasperating hours, we were besieged with an 
overwhelming sense of fear and desperation, not knowing when, 
and if, we would ever be able to get out of the aircraft. Our 
pilot did the best he could under the circumstances. He 
reminded us to be patient. But after 9 hours of being held 
against your will in an airplane, knowing full well that we 
could have spent that time at least in the airport, we could no 
longer remain calm.
    We had just had to endure the foul stench of overflowing 
toilets for 9 hours, as our ventilation was turned off. Some 
people with medical conditions, such as diabetes, ran out of 
medication, others had no water with which to take their 
medications. We were, and remain, extremely angry and 
disappointed that American Airlines--at American Airlines for 
having failed miserably at providing its passengers the very 
basic level of customer service during and after our horrific 
experience.
    According to thousands of e-mails--and I have my left hand 
on the 15,000 e-mails that I've received from flyers who have 
not filed their complaints with the Department of 
Transportation----
    Two days later, when we finally arrived at our destination, 
I contacted my Congressman's office asking for help. I had 
never contacted him before. I explained that we were trying to 
reach American Airlines to finally receive some explanation as 
to how they can hold people on an aircraft for so long, but 
have received no response from them. Our e-mails were kicked 
back, and our telephone calls were rebuked. They told us, ``Do 
not blame us for the weather.''
    Congressman Mike Thompson wrote a letter to Gerard Arpey, 
President of American Airlines, on our behalf. There was no 
response to that letter, other than a perforated postcard 
several weeks later, stating that they had received our 
correspondence. It actually said, ``Dear Valued Customer, We 
have received your correspondence.'' But it was not a direct 
response to our letter or our requests.
    That was the tipping point for me. I had had enough. As I 
began to contact the other passengers on our flight through 
blogs, which I had never done before, and through a Google 
search, all of the other stranded flights in Austin began to 
appear. I realized the problem was much bigger than just three 
or four American Airlines planes that we thought had been 
stranded. My husband started a blog and a petition, forming the 
Coalition for Airline Passengers' Bill of Rights.
    Since forming the Coalition, there has been an epidemic 
number of strandings just this year alone. Similar situations, 
different airlines, different airports, but with the same level 
of frustration and anger against an airline industry that puts 
the well-being and welfare of its passengers last, and is much 
more concerned with their own bottom line.
    Members of the Committee, this is simply unacceptable. We 
all know about the JetBlue Valentine's Day strandings. One of 
the passengers, Michael Skolnik, a film producer trying to get 
to an important meeting in Los Angeles, was not only stranded 
on one jet for 11 hours, but, when they finally deplaned him, 
shell-shocked and dumbfounded, he happened to have his carry-on 
baggage only, so they said, ``If you'll just run to get on this 
other flight, we can get you to Los Angeles.'' He then sat for 
another 6 and a half hours on a second plane on the tarmac at 
JFK. Seventeen and a half hours in two JetBlue planes in one 
24-hour period, with no water, adequate food, adequate 
ventilation. I don't know how a person can tolerate that.
    Then United Airlines stranded people at Chicago O'Hare for 
8 hours in the middle of the night. Then you have Philadelphia 
and JFK, 2 weeks later. One particular passenger, who's sitting 
next to me and will testify, Rahul Chandron, was a second-time 
victim, having been on the Northwest Airlines incident in 
Detroit in 1999. The airlines say it's improbable. Evidently 
not.
    There's another crisis to address, and it happened in 
Cheyenne and in Scott's Bluff, Nebraska. It's abandonment by 
the airlines. Entire planeloads of diverted passengers were 
dropped off in an airport, not their destination, and left 
there with no resources. Roger Barbour was trying to get to his 
wedding, when he was dropped in Cheyenne by United Airlines. It 
ended up costing him $3,000 to get home. I just received the 
video of the planes leaving the airport and leaving all the 
passengers last week.
    But that's not even close to being the full story. Airline 
and government agencies intentionally fail to maintain 
statistics for flights that never reach their destinations. So, 
if an airline leaves the gate, but never takes off, neither the 
airlines nor the government keep statistics about those 
flights. And I'm actually referring more to the strandings of 
American Airlines, where we were already departed from the 
airport and put down in Austin. And I actually have the data 
log from our American Airlines flight 1348 that doesn't show 
that we ever landed in Austin; it shows not any time on the 
tarmac, and it shows at no point when were--when we replaned 
and left that airport. There's just a single flight 
cancellation in the Government's book. That means that there 
are no time-on- the-tarmac statistics kept for the American 
Airlines December 29 diversions, JetBlue and other flights that 
sat on the Newark, New Jersey, tarmac for 11 hours in February, 
nor for the more recent flights that were held for over 9 hours 
at JFK in March. To the Secretary of Transportation, it's as if 
they never happened.
    We found out that, on December 29, 2006, due to 
thunderstorms over Dallas/Fort Worth area, in addition to our 
flight, 71 other flights were diverted from Dallas/Fort Worth 
to land at other regional airports. Those flights held 5,000 
passengers.
    Except for the people trapped on those runways, like us and 
other members of our coalition on other flights, no one knows 
exactly how long all of those flights were held, because there 
are no statistics kept. The reality is, the airlines, 
conveniently, aren't required to report the amount of time 
those planes sat on those runways.
    Why is the failure to maintain these statistics so 
important? The problem may be orders-of-magnitude greater than 
delay statistics currently maintained by the Government; but, 
without valid statistics, nobody knows the full extent of the 
problem, including our lawmakers.
    To get some idea, we can look at one statistic that is 
kept. Last year, 16,186 flights were diverted to other 
airports. Assuming at least 100 passengers per flight, that 
means over 1.6 million Americans may have experienced 
circumstances similar to the December 29, 2006, Austin debacle. 
And those numbers aren't apparent to us anywhere. We can't find 
anywhere that statistically records those.
    That is why, members of the Committee, we have turned anger 
into advocacy. That is one of the few bright spots of our 
ordeal and the reason why I'm here speaking in front of you 
today.
    It is with a great deal of determination that we have 
formed the Coalition for Airline Passengers' Bill of Rights. In 
just 3 short months, we have become the fastest-growing airline 
passengers organization in the country. Our membership is 
15,000, and continues to expand. We know the airlines wish we 
would just go away, but there's one key factor the airlines 
have discounted, and that is the will and anger of airline 
passengers that are saying, ``Enough is enough.''
    This is why we are here today, urging members of this 
distinguished Committee and Congress to adopt the Airline 
Passengers' Bill of Rights, as written by Barbara Boxer and 
Olympia Snowe. And I'm very proud that it's a bipartisan piece 
of legislation that's been brought forward. I am very impressed 
with these ladies for bringing it, and so is the entire 
coalition.
    Congress must now step up, and--once again, in the latest 
annual airline quality rating report, Congress must now step up 
and use FAA reauthorization legislation to ensure that airlines 
make passengers' rights a top priority, once and for all. The 
last thing that we should do is provide more giveaways to the 
airlines and less accountability to consumers and Congress, 
while airlines continue to strand passengers in communities all 
across the country.
    In addition, I understand that the airlines plan for 
reauthorization would wrongly slash funds by $600 million, 
jeopardizing efforts to modernize our air traffic control 
system. Safety and well-being should be our focus, not tax 
breaks. The flying public needs a voice and legal recourse so 
that we can stop these horrific stories experienced by 
thousands of stranded passengers from happening, once and for 
all. For the last 8 years and longer, the airlines have had the 
opportunity to make good on their promises, their commitments, 
to improve customer service and ensure basic human rights for 
passengers. It's time for Congress to ensure that airlines make 
passengers their top priority.
    Thank you, once again, for the opportunity to address 
members of the Committee and for allowing me to share our story 
on behalf of the Coalition for an Airline Passengers' Bill of 
Rights. I am happy to answer any questions that you may have.
    [The prepared statement of Ms. Hanni follows:]

Prepared Statement of Kate Hanni, Executive Director, Spokesperson, and 
       Founder, Coalition for Airline Passengers' Bill of Rights
    My name is Kate Hanni and on behalf of the Coalition for Airline 
Passenger's Bill of Rights, I'd like to thank Commerce Committee 
Chairman Inouye, Aviation Subcommittee Chairman Rockefeller, Senator 
Boxer and members of the Committee for the opportunity to address you 
today.
    I am here in part because of the cruel and inhumane manner in which 
my family and thousands of other stranded passengers were treated on 
several American Airlines flights during the holiday season of 2006 and 
more importantly, our mission to ensure that no other airline passenger 
has to endure our horrific ordeal ever again. First, I want to offer a 
brief synopsis of what happened to us on December 28, 2006 and then I 
will inform the distinguished members of this Committee why we have 
formed this Coalition, our mission and what we hope Congress would do 
in order to safeguard the flying public.
    We were headed to Point Clear, Alabama from San Francisco for a 
needed family holiday vacation, which started off much like our other 
trips since my husband and I are frequent business flyers, but what 
should have been a short trip turned into an odyssey that lasted more 
than 57 hours and almost 3 days. The most desperate hours of our 
ordeal--9 to be precise--were spent stranded on the tarmac of Austin 
International Airport with no food, no running water, overflowing 
toilets and anger toward American Airlines for turning what was 
supposed to be a holiday vacation into a chaotic and traumatic 
experience--one which I am certain the hundreds of passengers aboard 
our plane will never forget.
    During those 9 exasperating hours, we were besieged by an 
overwhelming sense of fear and desperation, not knowing when and if we 
would ever be able to get out of the aircraft. Our pilot did the best 
he could under the circumstances, he reminded us to be patient, but 
after 9 hours of being held against your will in an airplane--knowing 
full well that we could have spent that time at least at the airport--
we could no longer remain calm. We had just had to endure the fowl 
stench of overflowed toilets for 9 hours as our ventilation was turned 
off. Some people with medical conditions such as diabetes ran out of 
medication, and others had no water with which to take theirs.
    We were and remain extremely angry and disappointed at American 
Airlines for having failed miserably at providing its passengers the 
very basic level of customer service during and after our horrific 
experience. According to thousands of e-mails and phone calls I've 
received since then, the same thing was happening in several other 
airports around the region.
    Two days later when we finally arrived at our destination, I 
contacted my Congressman's office asking for help. I explained that we 
were trying to reach American Airlines to finally receive some 
explanation as to how they can hold people on an aircraft for so long, 
but had received no response. Congressman Mike Thompson wrote a letter 
to Gerald Arpey, President of American Airlines, on our behalf. There 
was no response to that letter, other than a perforated post card 
several weeks later stating they had received our correspondence. That 
was the tipping point for me--I had had enough.
    As I began to contact the other passengers on our flight and other 
stranded flights in Austin, I realized the problem was much bigger than 
just the 3 or 4 American Airlines planes that we thought had been 
stranded. My husband started a blog and a petition, forming the 
Coalition for Airline Passengers' Bill of Rights. Since forming the 
Coalition, there has been an epidemic number of similar strandings just 
this year alone--similar situations, different airlines, different 
airports but with the same level of frustration and anger against an 
airline industry that puts the well-being and welfare of its passengers 
last and is much more concerned with their own bottom line.
    Members of the Committee--this is simply unacceptable!!
    We all know about the JebBlue Valentine's Day strandings. One of 
the passengers, Michael Skolnik, a film producer trying to get to an 
important meeting in Los Angeles, was not only stranded on one jet for 
11 hours, but when they finally deplaned them--shell-shocked and 
dumbfounded--he then sat for another 6.5 hours on another JebBlue 
aircraft stuck to the tarmac, still trying to get to Los Angeles. 17.5 
hours in two JebBlue planes in 1 day?
    Then United Airlines stranded people at Chicago O'Hare for 8 hours 
in the middle of the night.
    Then, you have Philly and JFK strandings. One particular passenger, 
Rahul Chandron, was a second time victim having been on the Northwest 
Airlines incident in Detroit in 1999.
    The airlines say it's improbable  . .  evidently not.
    There is another crisis to address and it happened in Cheyenne and 
Scotts Bluff, Nebraska. It's abandonment by the airlines. Entire plane 
loads of diverted passengers were dropped off at an airport, not their 
destination, and left there with no resources. Roger Barbour was trying 
to get to his wedding when he was dropped in Cheyenne by United 
Airlines. It ended up costing him $3,000.00 to get home.
    But that's not even close to being the full story. Airline and 
government agencies intentionally fail to maintain statistics for 
flights that never reach their destinations. So, if an airplane leaves 
the gate but never takes off, neither the airlines nor the government 
keep statistics about those flights--they're just a single flight 
cancellation in the government's book. That means there are no ``time 
on the tarmac'' statistics kept for the American Airlines December 29 
diversions, JebBlue and other flights that sat on the Newark, NJ tarmac 
for eleven hours in February, nor for the more recent flights that were 
held for over 9 hours at JFK in March. To the Secretary of 
Transportation, it is as if they never happened!
    We found out that on December 28, 2006, due to thunderstorms over 
the Dallas/Fort Worth area, in addition to our flight, 70 other flights 
were diverted from DFW to land at other regional airports. Except for 
the people trapped on those runways like us and other members of our 
Coalition on other flights--no one knows exactly how long all of those 
flights were held because there are no statistics kept. The reality is 
that airlines conveniently aren't required to report the amount of time 
those planes sat on those runways.
    Why is the failure to maintain these statistics so important? The 
problem may be orders of magnitude greater than delay statistics 
currently maintained by the government, but without valid statistics 
nobody knows the full extent of the problem, including our lawmakers. 
To get some idea, we can look to one statistic that is kept. Last year, 
16,186 flights \1\ were diverted to other airports. Assuming at least 
100 passengers per flight, that means over 1.6 million Americans may 
have experienced circumstances similar to the December 28, 2006 Austin 
debacle. And those numbers aren't reported anywhere!
---------------------------------------------------------------------------
    \1\ Source: http://www.transtats.bts.gov/
HomeDrillChart_Month.asp?Sel_Year=2006&Arr_
Del=1&Sel_Carrier=000&Sel_Airport=000&URL_SelectYear=2007&URL_SelectMont
h=1.
---------------------------------------------------------------------------
    That is why, Members of the Committee--we have turned anger into 
advocacy --that is one of the few bright spots of our ordeal and the 
reason why I am here speaking in front of you today.
    It is with a great deal of determination that we have formed the 
Coalition for Airlines Passengers' Bill of Rights. In just three short 
months, we have become the fastest growing airline passenger's 
organization in the country and our membership of 15,000 continues to 
expand.
    I'm here to urge Members of this Committee, the Senate and Congress 
to enact legislation of an Airline Passengers' Bill of Rights that 
holds airlines accountable to their customers, while providing the very 
basic level of customer service.
    The Airline Passengers' Bill of Rights is not about:
    This is not about reasonable and inevitable flight delays or route 
diversions due to weather conditions.
    This is not about delays for mechanical problems that could affect 
the safety of a flight.
    This is not about putting unreasonable pressures on airline 
professionals that would compromise passenger safety in any way.
    This is not about adding unreasonable financial burden to the 
airline industry.
    The focus of our Coalition is about:

  <bullet> Passengers being held as veritable hostages and the whim and 
        convenience of the airlines due to completely controllable 
        events and airline practices.

  <bullet> Passengers having the right to be returned to the gate after 
        a reasonable amount of time.

  <bullet> Passengers on flights being allowed to deplane to make 
        travel arrangements.

  <bullet> Passengers being provided basic services such as food, clean 
        water and toilet facilities when passengers must be held on the 
        plane for valid safety reasons.

  <bullet> Airlines ending the practice of holding passengers hostage 
        in airplanes after pushing back from the gate, with full 
        knowledge . . . to preserve ``on-time'' status.

  <bullet> An industry with so few rules and such poor oversight by so 
        many governmental agencies that even in the face of epidemic 
        strandings and reports that point to a continued and massive 
        decline in customer service, refuses to police themselves and 
        take necessary actions to correct their mistakes.

  <bullet> Passing legislation for controllable events that the 
        airlines in the past have acknowledged exist, yet have failed 
        to adopt.

    We know the airlines wish we would just go away. But there's one 
key factor the airlines have discounted and that is the will and anger 
of airline passengers that are saying: Enough is Enough!
    This is why we are here today, urging Members of this distinguished 
Committee and Congress to adopt the Airline Passenger's Bill of Rights 
and not let the airlines off the hook once again with their empty 
promises. After years of broken promises and declining customer 
service--as we saw once again in the latest Annual Airline Quality 
Rating Report--Congress must now step up and use FAA reauthorization 
legislation to ensure that airlines make passengers' rights a top 
priority once and for all. The last thing that we should do is provide 
more giveaways to the airlines and less accountability to consumers and 
Congress while airlines continue to strand passengers in communities 
all across the country. In addition, I understand that the airlines' 
plan for reauthorization would wrongly slash funds by $600 million, 
jeopardizing efforts to modernize our air traffic control system. 
Safety and well-being should be our focuses, not tax breaks.
    The flying public needs a voice and legal recourse so that we can 
stop these horrific stories, experienced by thousands of stranded 
passengers, from happening once and for all. For the last 8 years and 
longer, the airlines have had the opportunity to make good on their 
promises to improve customer service and ensure basic rights for 
passengers. It's time for Congress to ensure that airlines make 
passengers their top priority.
    Thank you once again for the opportunity to address members of the 
Committee and for allowing me to share our story on behalf of the 
Coalition for an Airline Passenger's Bill of Rights.
          * * * * *
    Below is a detailed account of the 9 hours of sheer frustration and 
exasperation endured by our family and hundreds of other passengers on 
American Airlines flight 1348 on the tarmac of Austin International 
Airport.
    3 AM Dec. 29th my family left our home in Napa, CA for the San 
Francisco airport. We travel a lot, but hadn't been all together for a 
long time and this was to be a restorative vacation that my husband 
negotiated in exchange for doing wine programs at the Marriot Grand 
Hotel in Point Clear, Alabama. It was my first trip since being 
brutally assaulted in a vacant home in Napa in June of 2006.
    5 AM. We arrived at the airport for our 6:30 a.m. departure, 
scheduled to land in DFW at 11:30 a.m., where we would catch our 
connecting flight and be in Mobile, AL by 3 p.m. Wouldn't that have 
been nice?
    From approximately 5:30 until 6:15 a.m. they moved us from one gate 
to another, to another 3 gates.
    We finally boarded at the third gate at 6:30 a.m. There had been a 
mechanical problem so we were subject to a short delay. The flight was 
uneventful until we got to DFW airspace. The pilot came on and said 
that there were some ``Fingers of weather'' rolling through Dallas and 
that we would be able to get there, but would have to divert to Austin 
briefly to wait out the ``Wave/Finger of weather currently hitting 
DFW.'' We put down in Austin sometime around 12 p.m. We pulled into a 
parking lot type situation and were first in line and closest to the 
terminal so we could see the gates and traffic as it came and went.
    It was a sunny landing, the weather was clear in Austin.
    Hour one: Pilot says still awaiting clearing of weather. Passengers 
restless and nervous about connecting flights, but still okay.
    Hour two: Pilot still giving us 15 minute updates and telling us 
he's sure we'll take off, but weather still not clear and heavy traffic 
in the sky preventing take off. People becoming more restless. Several 
people who live in Austin and have weddings, funerals, parents' deaths 
to attend to are now upset and want off the plane. Pilot says he'll ask 
for a bus to come get some folks off, but accompanies that with a 
threat ``if you deplane you are on your own, you cannot get back on, 
you have no guarantee of when you will get your luggage.''
    Two and \1/2\ hours: He gets clearance to take off, but he decides 
it's not safe, he can see an impending thunder head and says we must 
wait 5-10 minutes for it to clear. It blows through, but he loses 
clearance to take off. People are getting angry and calling AA Customer 
Service to find out about their connecting flights. AA states they will 
surely make their connections, just stay put and that all flights have 
been delayed out of DFW, not canceled.
    Three hours: Pilot says a bus is coming for some passengers if 
would we be so kind as to allow the passengers who are disabled, 
elderly and folks with small children to deplane first. Again he 
accompanies it with a threat of losing your luggage, etc. We don't try 
to deplane at this point as my kids are older and the bus only holds 15 
people. People storm the back of the plane. We see the people with the 
kids, the elderly and disabled return to their seats but there are a 
few less people onboard. That is the last bus . . .
    Three and \1/2\ hours: Flight isn't going to fly. Pilot informs us 
he is waiting now for a gate and has made a request. Many planes have 
gathered next to us in the parking lot. All of them originated in 
California--all American Airlines. None get gates. The pilot opens the 
cockpit door and invites us to speak to him in the front if we want to.
    Hour 4: People are very frustrated, hungry, angry, restless and 
needing their medications.
    Hour 5: The toilets begin to stink a little, the pilot is still 
telling us he has requested busses to get us off, requested a gate, 
requested food and beverages be brought to the plane. None arrives.
    Hour 6: The stewardess passes out a bag of pretzels and water from 
the bathroom sinks in plastic cups. A woman has run out of diapers and 
is making one out of a t-shirt. We have kids screaming and running up 
and down the aisles and people are fed up.
    Hour 7: The toilets really stink, the pilot lets us know he is 
still requesting and being promised busses, to deplane us, bring food 
and beverages and to empty the toilets. He is angry they aren't giving 
us a gate and tells us so. He is also angry they aren't bringing us 
food.
    Hour 8: There is another onset of thunder and lightning and 
suddenly a transformer is hit and all the lights go out around us. I 
can see a man flashing SOS signs out the window of his plane, I see 
people out on the tarmac walking their dogs, I see an ambulance and 
police car circling a plane. At this point I'm totally freaked out. I 
go to the front of the plane. The pilot is exiting the bathroom and I 
want to enter it. He holds the door shut and says enter at your own 
risk. I was already aware the rear toilets weren't usable so I entered 
at my own risk. The smell was intoxicating in a bad way. I could hardly 
stand it. I exit the bathroom and there is a crowd around the cockpit. 
I overhear a pilot from an adjacent aircraft state that a dog has 
``defecated'' all over some passengers and that a woman is now throwing 
up and the air quality onboard has deteriorated to an inexplicable 
extreme. He was summarily told to stop asking for a gate. We could see 
available gates, but we weren't being allowed to go to them. I then see 
Hazmat going to a plane and the police entering another plane. An 
ambulance and paramedics have entered another aircraft. All were denied 
gates. Feeling so much anxiety that I was having chest tightness, I 
asked the pilot whether if I were to have a medical emergency would 
they allow him a gate. He said no, they will send out an ambulance to 
get you like they are doing over there. I now know that flight 534 on 
our tarmac had a diabetic paraplegic who was going into shock. They 
tried to treat him onboard but couldn't, but when they tried to remove 
him on the tarmac, the passengers began to revolt. At that point they 
asked his brother to declare an entire onboard emergency. He did and 
they were allowed a gate. They were the only plane that evening allowed 
to a gate prior to the restaurants closing in the terminal.
    9 Hours: Our pilot again says he is not being allowed a gate. He 
says he's talking to the number one and number two managers at the 
airport and the number one and number two managers at the airlines and 
being rejected. The rear of our plane was beginning to get very noisy. 
People were angry and trying very hard not to yell, they walked to the 
front of the plane and talked to the pilot. There was one particular 
gentleman that wasn't going to take it any more. He went to the front 
of the plane and had a heart to heart with the pilot. Voices were 
raised. At that point the pilot came on and said that he felt that it 
was no longer safe to hold the plane and that he may lose his job, but 
was taking the plane in anyway. He turned out the lights in the cabin, 
we applauded, he shut the cockpit door and began to move at a snails 
pace since he didn't have the appropriate guidance and clearance to 
pull in. It appeared he was pulling toward the path of an incoming jet. 
It was very scary. He made a series of U-Turns and pulled up behind 
another jet and waited until they backed away from the jet way. They 
did and he pulled forward. It was another 15 minutes or so before the 
jet way moved into position for us to deplane.
    The pilot, Jesse Fedoro, told us they will get our bags off for us, 
so we should go to Baggage Claim 3 and wait there for our bags. As we 
deplaned it was like aliens coming off of a spacecraft on a different 
planet. We were shell-shocked. You could see it in everyone's face. The 
restaurants had closed 30 minutes earlier so we couldn't even buy a 
meal. We went down to baggage claim and there were the media, The 
Dallas Morning News, CBS Channel 42 and others. I was interviewed by 
CBS and pointed out that the arrivals board didn't have our flight 
mentioned. My kids were tired, hungry and angry. My youngest went to 
sleep on the tile floor in baggage claim. My oldest bought Doritos and 
sodas for sustenance. We waited 2.5 hours for our bags and they never 
arrived. There were now a sea of bags and an even larger sea of people. 
We asked a security guard who was standing next to the baggage claim 
about the bags. She said, ``Oh, they decided 2 hours ago not to remove 
the bags, just come back in the morning and `resume' your flight.'' 
``Resume?'' You mean the flight isn't over? How do we get back in the 
airport without boarding documents?
    We went in the middle of the night to Waffle House and got a hotel 
room. We returned the next day to 700 of our new best friends at the 
airport trying to get in and couldn't. I bought a copy of The Dallas 
Morning News which had our flight on the front page. Good thing. I was 
able to tip the curbside guy and get a dummied up boarding pass, both 
of which had different times on them. We made it to the gate and our 
crew was there. They said our flight wasn't going to fly, so we went 
standby on another flight. They gave no explanation for why it didn't 
fly. We took off from Austin and headed for Dallas, our baggage still 
in Austin. We were upset about that. Being in the same clothes for 2 
days and counting, I wanted my bags. We got to Dallas and as we landed 
the pilots said if there is a flight at a gate going to where you are 
going, then get to it. We had called the night before and had confirmed 
that we ``should'' be on the flight since we didn't make the night 
before. We got clear across the DFW airport and the gate agent said, 
``I have good news Mrs. Hanni, your bags are on the plane. But I have 
bad news, Mrs. Hanni, you are not.'' I looked at the pilot armed with 
The Dallas Morning News and said, ``You have no idea what we've been 
through here.'' He said, ``Unless you are the Queen of England, you 
aren't getting on this plane.'' I asked him repeatedly to remove our 
bags and they declined. When we complained, they said ``don't blame us 
for the weather.'' They said that they were even removing people from 
the plane with ``confirmed'' seats against their will due to a baggage 
overage. We asked for a voucher for the hotel and the gate agent said, 
``Don't blame us for the weather.''
    We spent the second night in Dallas, and contacted AA again. They 
said we had confirmed seats to get to Mobile the next day. We returned 
and did make our flight to Mobile. Our bags were there waiting for us. 
When we did get to our hotel, they had given our rooms to someone else, 
thinking we weren't going to arrive. My husband had lost the vacation 
portion of the trip for him, but had to complete the work over the next 
4 days as committed.
    57 hours in total. Enough is enough!
                                 ______
                                 
                                        Azusa, CA, February 9, 2007
Hon. Mike Thompson,
First District of California
Washington, DC.

Re: A.A. Flight #2412 (Known as the Dog Pooped on Passenger's Flight) 
            Stranded in Austin

    Flight 2412 left LAX at 6:30 a.m. to arrive in DFW at 11:40 a.m. 
After circling DFW for 40 min. due to weather we were diverted to 
Austin for refueling and to wait clearance back to DFW. According to 
cell phone records upon arrival at Austin tarmac time was 12:32 p.m. 
There were several other planes to our right and left. The weather upon 
arrival was fair no severe thunder or lighting storms. The captain came 
on in intervals telling us that due to storms back at DFW and current 
weather conditions he would have to wait for clearence.We were aware of 
other planes taking off and in fact 2 AA planes to our right did 
finally depart. During the time on the plane they had run out of snack 
boxes, sodas, and water. You could drink the water from the bathroom 
tap but as the toilets were getting full to the point that you couldn't 
flush them as the contents had no where to go!
    Three major incidents on my flight were: 1. Back at DFW my daughter 
who has an Autistic 2 yr. old was driving around the airport wondering 
where I was. Finally after a phone call from me she parked went to the 
AA ticket counter to ask for information which was rudely told ``Its 
the weather haven't you been watching TV?'' to which she replied she 
had been circling the airport. When ask when the flight would arrive 
she was told it the weather. The customer service was horrible. 2. I 
had a woman on my flight that had recently had back/hip surgery. Upon 
taking her pain medication with no food she vomited. She asks the 
stewardess to take the bag and dispose of it and her reply was we have 
no trash bags you'll have to hold on to it. 3. There was a small lap 
dog who had doggie poop on the seat and the owner upon being given 
napkins for the passenger to clean up the mess she also was told to 
hold on to the mess as there were no trash bags. Not only was the smell 
horrific and people were also getting sick but the Captain announced to 
the pilots of the other planes the truth.  . . . We just had a dog s--t 
and our cabin air has just gone to h--l. According to my phone records 
at somewhere between 5:23 and 6:03 p.m. we knew we were not going to be 
able to get to DFW. At that time I had my daughter look for lodging as 
well as a flight out the next day. We were told by the crew that if we 
left the plane we would be responsible for finding our way to our final 
destination and that our luggage would remain on the plane. We did have 
a few Austin bound only passengers allowed off after a 1 hour plus wait 
for the 15 person van. If the weather was the issue and yes there was a 
thunder/lighting storm but it did not last the entire length we sat on 
the tarmac, and if safety was a concern of the airline as it should be 
(we were told that is why we couldn't taxi to the terminal if a gate 
became available safety for the ground crew as well) why were people 
let off the plane next to us to walk there dogs on the tarmac! We were 
told due to certain regulations the crew would had to get off the plane 
and suddenly a gate became available. We deplaned 9:04 p.m.
    Upon exiting we were told to go to a certain gate to get 
information which no one was there so we were directed to the ticket 
counter where it was also a chaotic mess. We were issued a piece of 
paper and told make you own arrangements as our flights are booked and 
we can't help. Luckily my daughter had called and we were able to get a 
distressed passenger rate at the Austin Hilton. (How ironic that a 
hotel had a distressed passenger program) I passed the phone number 
around to other passengers so they didn't have to sleep in a closed 
airport with no restaurants open and empty vending machines BUT working 
bathrooms. This was all out of our pocket there were no vouchers issued 
for anything. Upon my arrival at the airport the next day to my dismay 
my flight 1250 which was scheduled to leave at 6:40 was delayed not due 
to weather but they couldn't find a flight crew!!

                                            Shelia Pfister.
                                 ______
                                 

                    Business Wire--January 17, 2007

 Allied Pilots Association Outraged That Executive Bonuses Could Match 
              or Exceed American Airlines' 2006 Net Profit

``Aren't Bonuses Normally Paid for a Job Well Done?''
    Fort Worth, Texas--The Allied Pilots Association, collective 
bargaining agent for the 12,000 pilots of American Airlines (NYSE:AMR), 
expressed its outrage over executive bonuses scheduled for payout in 
April that could match or even exceed the airline's Fiscal Year 2006 
net profit of $231 million announced today by parent company AMR Corp.
    Based on yesterday's closing price of $40.23 per share for AMR 
stock, the April bonuses will total some $218 million. The exact amount 
of executive bonuses depends on the price of AMR stock on April 18. A 
disproportionate share of those payouts will go to a select group of 
around 50 senior executives.
    ``It's clear that American Airlines' financial performance has 
improved substantially, thanks in large measure to the deep sacrifices 
by our pilots and other employees beginning in 2003,'' said Captain 
Ralph Hunter, APA President. ``The $1.1 billion improvement in AMR's 
results would not have been possible without the $1.6 billion in annual 
concessions agreed to by AA non-management employees, who are the real 
heroes behind American's return to profitability. While line employees 
are still carrying the burden of these massive cuts in pay and 
benefits, it is insulting for senior managers to be receiving a 
windfall that may equal or exceed all of our airline's earnings in 
2006.
    ``It is particularly egregious to pay large bonuses when our 
airline has been experiencing such serious operational problems. What 
we have today is a small set of underperforming managers whose personal 
financial recovery is out of line with American's troubled performance 
in the field. Aren't bonuses normally paid for a job well done?''
    Hunter cited the widely publicized incidents that occurred on Dec. 
29, 2006--such as American Airlines Flight 1348, which sat on the 
tarmac in Austin, Texas for some 8 hours with no food or water and 
overflowing toilets before the Captain elected to taxi to the terminal, 
despite on-duty managers' refusal to provide a gate--as symptomatic of 
a management team more concerned with its compensation than with 
improving the airline's lagging operational performance. According to 
an article last week in The Wall Street Journal about this and similar 
incidents aboard various American Airlines flights that day, ``This 
wasn't a story about the `perfect storm,' but about corporate cultures 
that don't put customer service first.''
    According to Hunter, when APA contacted management to ask how it 
planned to prevent such operational miscues in the future, management 
justified its performance by noting that no one was hurt on Dec. 29.
    ``Safe transportation is the absolute minimum our passengers expect 
and deserve. Not injuring anyone is a wholly unsuitable measure of 
success,'' Hunter said.
    He also cited American Airlines' fourth-place performance in the 
November 2006 Department of Transportation (DOT) A+14 Dependability and 
fifth-place finish in Survey America's (SAM) ``Overall Travel 
Experience'' measure as further indication that serious work remains to 
be done to improve the airline's operational performance and customer 
experience.
    ``In announcing these latest results to employees, management 
appeared to celebrate the fact that the airline had improved upon its 
dismal prior showings in both surveys,'' Hunter said. ``We believe the 
airline would be better served by management focusing on how to improve 
customer service, rather than celebrating mediocrity.''
    ``Management's recent decision to amend its application for DFW-
Beijing service to include a Chicago stopover on the outbound leg is 
another indication of misplaced priorities,'' Hunter said. ``The China 
route award was within American's grasp, yet management made little 
more than superficial attempts to negotiate the necessary pilot 
contractual provisions to make it happen. Management gave away a 
profitable route by rejecting a fair and reasonable APA proposal that 
would have cleared the way for American Airlines to win the Dallas-
Beijing route award.
    ``This outcome is particularly inexplicable in light of the fact 
that APA's proposal was actually less expensive than the amended route 
proposal management ultimately submitted and the DOT rejected. We still 
fail to see the business case behind management's decision to abandon 
negotiations with its pilots, withdraw its application for a valuable 
new international route and forgo hundreds of millions in additional 
revenue for both the airline and the region.''
    ``Management's recent decisions are costing American Airlines 
millions in lost opportunities. They should stop rewarding themselves 
for their failures.''
    Founded in 1963, APA is headquartered in Fort Worth, Texas. There 
are currently more than 2,800 American Airlines pilots on furlough. The 
furloughs began shortly after the Sept. 11, 2001 attacks. Also, several 
hundred American Airlines pilots are on full-time military leave of 
absence serving in the armed forces. The union's website address is 
www.alliedpilots.org. American Airlines is the Nation's largest 
passenger carrier.
                                 ______
                                 
                                                      April 2, 2007

                      Abandoned by United Airlines

    To Whom It May Concern:

    My name is Roger Barbour, Jr. I was on the United Airlines Flight 
7529 Dec. 20, 2006 that left its passengers in Cheyenne, Wyoming with 
no help or support. Here is my story of what happened to me and the 
disgraceful misconduct of United Airlines for abandoning us.
    I first purchased my round trip United Airlines ticket in November 
because my father's health was declining and I had not seen my parents 
for over 4 years. However, I had purchased my ticket to leave in 
December and see my family. I never though I would never see my father 
again. He passed away in his sleep on November 20, 2006 before I could 
see him.
    The day that I arrived at the International Airport in Edmonton, 
United Airlines was behind at that very moment. They told us to be 
there at 4 a.m. and did not open the ticket counter till about 6 a.m. 
The custom agents were not happy. I hope that this would be the only 
problem that I would encounter. The flight from there to Cedar Rapids, 
Iowa was uneventful.
    On December 20, 2006 my best friend Mike drove me to the Cedar 
Rapids airport. I arrived very early in the morning without a thought 
of any problems. When I arrived at the aircraft gate for United 
Airlines the passengers were informed that there was a mechanical 
problem with the computer systems of the aircraft because the night 
before it had a hard landing. They did not fix the problem till over 2 
hours later. Most of the people were fine with this little problem 
thinking that though we would be late United Airlines would call ahead 
and take care of any problems that the passengers might have with 
connecting flights.
    After 2 hours we finally boarded the aircraft and headed to Denver, 
Colorado and this is when everything started to go wrong. When we 
entered Denver airspace we were informed that we would be in a holding 
pattern to land at Denver International Airport. We were in the air 
flying in a holding pattern for an hour. Then we were informed that we 
were going to land in Cheyenne, Wyoming to refuel the aircraft and then 
we would depart for another airport. We were on the plane for an hour 
or more before the pilot said he would let us off till they got the 
planes refueled. We waited in the terminal for about 2 hours waiting 
for the planes. There was also another United Airlines plane that was 
diverted with us. This senior pilot started to offer people a seat on 
their aircraft for Chicago if anyone wanted to go there to catch 
another flight. I asked him if I could go, but then changed my mind and 
would stay with my aircraft.
    While at the airport people started to leave since their final 
destination was Denver, Colorado and their relatives were coming to 
pick them up. So, the rest of the passengers just waited. Then after 
about 2 hours we were allowed back on the planes after a security check 
was preformed on every passenger. We were then again on the plane for 
about an hour or so before the pilot said the deicer that was being 
used was freezing before we could take off again and for safety reason 
we should wait till the next day to fly to a major airport. This was 
fine with all the passengers because the last thing we wanted to do is 
crash on take off. However, this started the major problems.
    When we were back in the terminal as we waited for our luggage to 
be offloaded we thought that United Airlines would help us with this 
problem. When we got the luggage off the airlines everyone started to 
make calls and try to find a place to stay. This was a major problem 
for me since I only had $600 in U.S. currency on me at that time. This 
money is all I had left to help pay my tuition (though this was not 
even close to being enough to pay it off). Since my father passed away 
all of his retirement pay and any money that my parents had were frozen 
by the government. I had given my mother some money to help here and my 
professor said he would find me a job at my university to help me out 
when I got back.
    The pilots and crew from both aircraft were taken to the Holiday 
Inn first with the passenger waiting for a ride to go there. We thought 
that United Airlines would help us with the rides to the Holiday Inn, 
but they did nothing. Each person paid about $5 U.S. to get to the 
Holiday Inn. Ann Kinney, another lady, and I were helped with a ride 
from the outfitter company for hunters at the airport. We paid him for 
taking us to the Inn. By the time we left the airport it was dark 
outside and the weather was getting worse. Once at the Holiday Inn we 
got our rooms (most people had 2-3 roommates to help pay for the 
rooms). Each person paid about $35 U.S. for the room. Everyone was 
trying to get information of what was going on and trying to figure out 
what we should do.
    I started to make calls to United Airlines as soon as I could. It 
took sometimes over an hour to get through to the ticket agents. After 
talking with them for about 30 minutes they were able to get me another 
plane that would be leaving on the 21st if I remember right. That was 
fine and the person provided me with standby for other aircraft. The 
one thing that scared me though is that United Airlines did not even 
know that we were stranded in Cheyenne, Wyoming till we called them.
    After I came downstairs I was talking with the senior pilot from 
the other aircraft. He was helpful and told everyone that he would do 
anything he could to get us out of Cheyenne, Wyoming and that he wanted 
us to be at the airport in the morning at 10:30 a.m. Anyone who wanted 
to come with him could. He then told us that the airport in Denver was 
closed till December 22, 2006. I was shocked since the man at United 
Airlines had informed me that the airport would be open in the morning 
and that I would be able to leave on the 21st of December. So I had to 
call them back again and see what I could get. At that time it was very 
difficult to get anything. When I was able to connect I was hung up on 
by the United Airlines representative.
    When I woke up in the morning I headed downstairs with my luggage 
ready to head back to the Cheyenne Wyoming Airport. When I got 
downstairs to the main lobby the senior pilot was eating breakfast. I 
spoke with him and told him I was trying to get back home to get 
married and that my father had just passed away and I just wanted to 
get home. He called up his office that very moment and they told him 
that the plane would be leaving with passengers that morning (This was 
around 7:30 a.m. December 21). He told me to get to the airport by 
10:30 a.m. and he gave me his room number and told me to call him. 
Around 9:45-9:50 a.m. I called him and he told me to head to the 
airport and that is what I did. The pilot of our aircraft was rude and 
did not inform us of anything and did not even want to talk with us at 
all when we asked him questions.
    Once I went outside the sky was blue and it was warm. The snow was 
melting and we thought without question we would be leaving. I arrived 
at the airport a little before 10:30 a.m. Almost all the passengers 
were there and we started to feel happy, but cautious at the same time. 
The time then was 11 a.m. and the pilots were nowhere to be seen. We 
were not sure what was going on. Then around 11:30 a.m. someone spotted 
the pilots outside with the aircrafts. This caught us off guard since 
they just went right to the planes and did not even talk with us.
    Then someone found out that one of the passengers that was waiting 
with us was a United Airlines pilot in training and he told us that the 
aircraft was leaving without us so it could fly to another city to pick 
up passengers. We were shocked by what he said! He told us he had 
called his headquarters and they told him this. Then right in front of 
us he called them again and was told the same thing! We did not know 
what to do. The pilots did not even come into the terminal and talk 
with us and tell us what was going on. Then the plane pulled up close 
to the terminal and the pilot-in-training was screened and his bags 
were screened by the security personal. We were shocked sitting there 
watching the planes take off without us. At that very moment people 
started to sign a paper to take legal action against United Airlines 
(this paper was given to me). Then people started to take pictures and 
video of the aircrafts leaving us behind with no help. We were 
abandoned by United Airlines. We paid for service that was not 
provided.
    At this moment we knew we were on our own and we tried our best to 
find rental cars and what not to get away from this super small airport 
because we had no options for flying out since the only airline that 
operated from this airport was closed and when it opened they said they 
would have no fights till December 26, 2006. Also, the small airline 
only flies to Denver International Airport. So the only option was to 
get a rental car and go from there.
    Everyone was looking for a rental car or anything that would get us 
out of this place. After a few hours of people trying to get cars the 
ticket counter for the small airline company told us that United 
Airlines had called them and told them that tomorrow they might send a 
bus to pick us up and drive us to Denver International Airport. This 
was not good enough since most of the people needed to get home before 
that date. Half of people wanted to head to Salt Lake City, Utah to get 
to the airport there (The pilots told us we could have went to Salt 
Lake, but they wanted to land in Cheyenne Wyoming) and get a flight. A 
very nice man gave me $40 to get something to eat since I had not eaten 
for one full day because I was scared to spend any money.
    After the sun was going down, 5 people and myself were fortunate to 
get a minivan to drive to Denver. This cost everyone about $30-$35 
each. One of the guys that were with me has become a good friend. His 
name Sean Moleski and he is a U.S. Marine. As of March 30, 2007 he is 
now serving in Iraq and told me to keep him up-to-date with what is 
going on. We drove as a group to Denver International Airport and saw 
that no one was there. So we headed to another hotel to wait till the 
morning. That night I had to again call to get another ticket to fly 
out of Denver. I was told I could be put on standby for another flight 
sometime during the week.
    When the morning came we all pitched in another $35 for the hotel 
and got something to eat (For me this was 2 days without eating so I 
ate a lot that morning). When we got to the airport we were shocked 
with how many people were there. We all had to wait for 6 hours just to 
talk with someone. All the other people with me were able to get 
flights. I was told I could be put on standby for a flight on December 
23 and that is all they could do. I found out by myself that Air Canada 
was part of an airline alliance with United Airlines. I called them up 
and was able to get a ticket that cost me about $200 U.S. to leave on 
the 23 December without question. The manager at the Florida office 
told me he knew what I was going though and did everything he could to 
help. I ended up getting a $1,599 U.S. dollar ticket for a little over 
$200. Later I was told though that the airlines were canceling flights 
to Edmonton. I called Air Canada back up and within 2 minutes the guy 
had got me a flight out of Denver that very night at 8:30 p.m. flying 
into Toronto, Canada with a connection flight to Edmonton at 8 a.m. in 
the morning. This would allow me to arrive in Edmonton on December 23 
at 10:30 a.m. I was so happy and got the ticket.
    I went and bought something to eat while I was waiting for the 
aircraft. Something strange though started to happen. The aircraft was 
delayed due to rain in Toronto and was pushed back till 9 p.m., then 10 
p.m., and then it dropped off the board. I was shocked and people were 
all wondering what was going on. Then we saw the aircraft and the 
French Canadian pilot came out and said we were getting off the ground 
in a few minutes to make sure we don't get stuck in Denver. That pilot 
got us off the ground and flew so fast we arrived almost 40 minutes 
early in Toronto. I was never so happy to see an Air Canada plane and 
was so happy that they came to pick us up. I was able to make it to my 
wedding on the 29th of December.
    In about a month after I was home in 2007 I checked how much I owed 
on for my cell phone bill. I saw $100+ Canadian on it and was very 
happy. The next day however I received a bill that was almost $800 
Canadian! I was shocked and did know what do to! I called up my service 
provider and they were able to get it down to about $550. However, that 
was still more money than what I could spend. Then when my professor 
helped me out with a job and I played it off and hoped for the best. I 
also used my savings that was just about $200 U.S. to help pay it off. 
I was broke after this and was very worried. I spoke with the Dean of 
Computer Science and he got me a teaching job to help me out. Also, the 
scholarship for graduate students that I had applied for I received and 
it helped. This helped me get out dept, but I was still hurt 
financially. I did call United Airlines up and was hung up on not once 
but two times.
    A week or so later I received a call from Gary Stoller a News 
reporter for USA Today news group called me and told me he had heard 
about what United Airlines had done to the passengers or should I say 
what they did not do for the passengers. I helped him the best way that 
I could with his story. The story ran front page on USA Today news 
papers across the Nation. I was so happy that someone was helping us. I 
was then contacted by the Denver Post and told the news reporter there 
about what had happened. However, with all this happening United 
Airlines did not even contact me and most of the other passengers. When 
Mr. Stoller asked them why they did not contact me (since I was one of 
the main individuals in the news article) they told him that they did 
not have any contact information for me. I bought my ticket using my 
credit card and provided them with contact numbers so Mr. Stoller and I 
thought this was very odd and untruthful.
    Then later after Mr. Stoller told them that he would be running 
another story about what happened I received a phone call from United 
Airlines. They told me they would provide me with a $300 voucher to fly 
again and it would expire in 1 year. I will not write down the words 
that I said to this individual over the phone, but it was along the 
effect of ``You can take that voucher and put it were the sun does not 
shine!'' I also told this individual that I had spoken with a major law 
firm that sues airlines and they told me that I can take full legal 
action against them. Another thing I told her was what makes her think 
that I would ever want to fly with them again! They treated us like 
garbage and did not care one bit about what happened to us and the only 
reason they called was because of the story in USA Today.
    I was absolutely shocked that United Airlines would treat us this 
way. For my plane we had over 2 hours of mechanical problems and under 
law they have to help us and they did not! They then call us up only 
for damage control to protect themselves after the world found out what 
they had done to us and offer us a minor incentive that does nothing 
for our loss and to keep us from talking! I find this down right 
insulting and legal action should be taken against them. The amount of 
funds that each individual paid out of their own pocket we thought 
United Airlines would reimburse us, but what we found out was they 
treated us like garbage and inhuman when we asked for help! We were 
something they could discard because no one would take us serious or 
care about what happens. One more thing that really made me angry was 
that I found out after I had returned home from my sister a few months 
later, that when my mother heard about what had happened to me she 
became so worried that she had a nervous breakdown. After a few weeks 
my sister was able to get her to go to the hospital. The passing of my 
father and what happened to me did this to my mother.
    As of this day April 2, 2007 United Airlines has not called me back 
after they spoke with Gary Stoller and said they would. They also told 
him they would offer us anything we wanted since they found out that 
Mr. Stoller was going to publish another story about us on April 4, 
2007 and as of this date I know they have only contacted two passengers 
from my flight that are CEOs at two other companies. This shows without 
a shadow of a doubt their lack of respect and conduct for their 
passengers! They showed no respect or concerns for any of us!
            Sincerely,
                                         Roger Barbour, Jr.
                                 ______
                                 
                                        New York, NY, April 6, 2007
    To Whom It May Concern:

    My name is Katharine ``Katty'' Biscone and I was a passenger on 
JebBlue flight 351, JFK to Burbank, that was supposed to depart JFK at 
6:45 a.m. Feb. 14, 2007, Valentine's Day. After boarding the plane at 
6:15 a.m., my flight was basically held hostage and forced to sit on 
the tarmac for the next eleven hours. We never left the runway, never 
made it back to a gate, and never had any protection under the current 
law. JebBlue is claiming it was a weather issue, but there is much more 
to this story than that.
    After we boarded the plane at 6:15 a.m., we all thought, even 
though the weather wasn't perfect, it must be okay for us to fly or 
else they would have never boarded us. If there was a chance we would 
get canceled, they would have had us just wait in the terminal, right? 
Wrong. JebBlue said after taxi-ing at 6:45 a.m., we were going to have 
to wait a few minutes to leave until the weather cleared up just a 
little. That began the eleven-hour game of cat and mouse that the 
airline played with us. They would put us in the taxi line, then say we 
had to be de-iced, then they would tell us we froze to the runway, then 
they would put us back in line to leave, then they said we would 
deplane as soon as a gate opened up. But, a gate never opened up, so 
they put us back in the line to leave. This went on forever, and the 
entire time we were forced to stay seated. Remember, we were supposed 
to be the first flight out that day, and we ended up being the last to 
get de-planed.
    My very full flight was loaded with the elderly (who are very 
susceptible to blood clots), people with new babies and toddlers, and a 
handful of pregnant women. I had shoulder surgery last summer and am 
still healing from it, so I knew a 6-7 hour flight would test my body, 
including my back and hips, but I thought I could handle it with no 
problem. Unfortunately, at around hour 8, my hips, shoulder and back 
began to throb, and I've had problems with all three ever since the 
ordeal and I'm know I'm not alone in my physical pain. People all 
through the plane were complaining of back and body issues the entire 
time.
    During these 11 hours, they never told us why they couldn't get us 
back to a gate, and to this day I still don't know why. They kept 
promising at any moment we would leave. But, at one point, the air 
system froze, and it became sweltering in the plane. The satellite 
froze up, so the TV was on and off constantly, and the worst was when 
the lavatories filled up completely, and we could no longer use the 
bathrooms the last few hours of the ordeal. There was also no beverage 
or food service. If you went to the back of the plane and begged, they 
would give you a tiny bottle of water, and maybe a bag of chips or 
cookies. But, after 11 hours, that was not enough. It was cruel. And 
there was nothing we could do about it. In the current state of airport 
security, people don't bring food or beverages with them from home. I 
know a lot of people counted on sleeping during the flight, but when we 
were put in a constant state of flux, no one really slept, and people 
were hungry and thirsty. People were behaving well, but some people 
really started to panic and get claustrophobic, and who wouldn't after 
being stuck on a small, crowded plane for a day. I've had panic attacks 
ever since. They usually occur when I'm on a very crowded subway and it 
starts to get hot. I feel trapped, just like I did on Valentine's Day 
on my flight. JebBlue also reminded us if anyone tried to force their 
way off the plane, they would get 20 years in jail automatically 
because of the PATRIOT Act. There was even an emergency AA meeting in 
the aisle by the rear lavatories. People didn't know what to do. There 
was nothing we could do. We were absolutely trapped, and had no 
protection, no recourse. I have to say, I thought that the passengers 
were really amazing and totally patient. The fact that no one lost his 
or her mind is still shocking to me. JebBlue was very, very lucky!
    To add insult to injury, when we tried to call and reschedule our 
flights from our cell phones on the plane, JebBlue wouldn't let us 
because they kept saying our flight had not been canceled . . . even 
though we had been trapped for over 6 hours at that point. If they had 
at least given us a chance to figure out another way to get to Burbank 
. . . but they even took that option away from us. They did not 
officially cancel the flight until the 10th hour, and by that time, 
there wasn't room on any of their flights until Saturday, and when I 
asked if they could book me on a different airline . . . we got 
``disconnected.'' It was obvious that our welfare meant nothing to 
JebBlue. All they care about is the bottom line, and the fact they 
would torture and entire plane of passengers and crew is just evil. The 
final reason we ended up not taking off is because our crew would have 
technically been illegal to go because of the hours they are allowed to 
work. The second their time ran out, somehow JebBlue was able to get a 
staircase to the plane and put us on buses to the terminal. Which mean, 
They could have done that the entire timE!!! Or at least bused out food 
or drained our bathrooms or something! Anything! We were lied to, 
abused, and held hostage with absolutely no options what so ever. We 
have got to start protecting passengers.
    They had no one helping us to figure out what to do when we got off 
the plane. We just wandered around the airport until we figured out 
which 4-hour line to stand in to get help. At that point, they couldn't 
even get me out until Saturday night. Remember, this was a dawn flight 
on Wednesday. I never even went to California. I missed my best 
friend's first movie premiere ever, and it took me weeks to not be in 
constant pain. God knows what other people lost by being stuck on that 
plane. The only good thing that came out of that experience is I can 
win any ``Worst Valentine's Day Ever'' contest. Please, please, please 
pass this bill of rights. I don't ever want this to happen to anyone 
else ever again.
            Thank you,
                                             Katty Biscone.

    The Chairman. Thank you very much, Ms. Hanni.
    Now may I call upon Mr. Chandran?

  STATEMENT OF RAHUL CHANDRAN, PROGRAM COORDINATOR, CENTER ON 
                   INTERNATIONAL COOPERATION

    Mr. Chandran. Thank you, Mr. Chairman, honorable Committee 
members. Thank you for the opportunity to testify today.
    I am a frequent flier, and I don't represent anyone.
    Over 8 years have passed since I was first stranded on the 
tarmac in Detroit, courtesy of Northwest Airlines. It was now--
it's an infamous incident by now, and I'm sure that you've 
heard plenty of the details. I simply recall many hours of 
miserable monotony, unpunctuated by either water or food, the 
frequent refusal to allow customers to use the facilities, and 
a complete lack of information or communication. In the furor 
that surrounded this incident, the airlines promised us greater 
self-regulation, arguing there was no need for legislative 
protection of passengers, as the airlines had our best 
interests at heart. So, I continued to fly. It's my job. I have 
no choice.
    Shortly thereafter, in early 2000, I was on a United flight 
at Washington Dulles in the middle of the summer, a sweltering 
summer's day, and it was a short hop up to New Haven, 
Connecticut. We left the gate sometime around 1 p.m. We 
returned back to the gate around 5:30, having sat in a tiny, 
terribly hot turboprop, with neither water nor food nor access 
to the bathrooms, and certainly no information. We sat there, 
in near silence, for 4 and a half hours, on a D.C. tarmac under 
the hot sun, no air conditioning. I'm sure you can imagine how 
much fun that was. There were no more than eight people aboard 
this flight, but eight people trapped in a metal tube designed 
to retain heat on that tarmac for 4 hours are still eight 
people on the boundaries of reasonable tolerance.
    On the 16th of March, less than 1 month ago, I suppose 
having not learned my lesson and continuing to fly regularly--
--
    [Laughter.]
    Mr. Chandran.--and just 1 month after the incidents that 
affected JetBlue, you know, 10 weeks after the American 
Airlines incidents, I arrived at JFK Airport at 8 p.m. There 
had been some snow and earlier flight cancellations at other 
airports, but the website for the airline that I was flying, 
Cathay Pacific, assured me that the flight would take off, as 
scheduled.
    Having flown over a million miles, I came with several 
Heath Bars, a couple of bottles of water, and made sure my 
laptop was juiced up, because I figured there would be some 
delay. After two, two and a half hours of waiting, we boarded 
the plane at midnight. I exited the same plane at 9:43 in the 
morning, 9 hours and 43 minutes after we had left the gate. The 
intervening period had been passed on the runway, waiting--
waiting for de-icing fluid, waiting for gates to become 
available, waiting for taxi space. In short, waiting. Waiting, 
that is, with our seatbelts securely fastened, our tray tables 
stowed, and our seatbacks upright, so no ability to enjoy even 
the little, but incredibly important, 3 inches of recline that 
you get in economy.
    [Laughter.]
    Mr. Chandran. Now, in certain respects, and in all fairness 
to Cathay Pacific, this was the best terrible, intolerable 
delay that I have ever encountered. The captain was reasonably 
communicative. He promised us 45 minutes of resolution every 
hour and a half; and then, every hour and a half, told us that, 
in fact, the problem had not been resolved. The crew generously 
allowed us to use the restrooms, which was fairly exciting, but 
they didn't offer us water, so that we weren't encouraged to 
use the restrooms too often. We were actually, in fairness, 
watered after 1 hour, and then again after 6 and a half hours.
    Eventually, when the flight was canceled, and prior to a 
final 2-and-a-half-hour wait for a gate, they fed us what was 
supposed to be our dinner. Now, given that almost all the 
dining establishments in the terminal had stopped serving food 
around 10 p.m., this meant a good 10 and a half hours since 
most people--and it was a flight full of kids--since most 
people--10 and a half hours since people had had any food, 
during which they had stayed awake, with their seatbacks fully 
upright.
    So, we were watered twice, fed once, and sent upon our way. 
Upon disembarking, we received a $15 voucher for food available 
at the terminal, and passengers were asked to wait around. I 
chose not to wait any further, and decided to go home and live 
my life.
    Honorable Senators, I'm sure, as you are all aware from 
your experience, there comes a point where the consequences of 
a series of poor decisions accrete and you have an intolerable 
outcome. Plane delays happen. I continue to fly. I've been 
delayed in over 30 countries, for reasons that range from the 
very, very real and salient to the slightly incredible. I 
recognize that pilots need to respond both to the profit 
motives of their airlines and to make a good-faith effort to 
try and get passengers off the ground, airborne--and safely. 
But it is clear to me, through all of these experiences, that 
the companies that run airlines have failed to implement the 
measures that will prevent the intolerable outcome: passengers 
trapped on a plane on the tarmac for more than 5 hours. That, 
ladies and gentlemen, is simply intolerable.
    We continue to fly--I think I speak for all air 
passengers--because air travel is part of the engine of 
economic growth that has made America great. It's simply a 
necessity. It's no longer a luxury. A simple bill of rights 
that provides passengers with the confidence that airlines will 
take care of our basic needs--we are like plants, we need to be 
fed, we need to be watered, and occasionally we need our 
compost cleaned--airlines must take care of our basic needs and 
prevent us from being confined in intolerable conditions. We 
must ensure that they are responsible to us, and held 
accountable. And this, and only this, will secure our continued 
confidence in flying.
    If this type of incident is truly infrequent, and if 
airlines truly consider confining passengers to the airplanes 
aberrant, then it will do so at little cost to the industry, as 
these are measures the airlines have long claimed to have in 
place.
    An earlier witness talked about the possible [inaudible]. I 
can't speak for anybody else but myself. I can, however, tell 
you this with confidence. If I am on an airplane for more than 
4 hours, I want to get off. I want to go home. I want to 
continue my work. I want to make sure my children will be fed. 
I want to make sure my family is OK, and make sure a dog 
somewhere--I don't have a dog, but I'm sure there are many 
hypothetical dogs out there--that the dog is taken care of and 
walked. And I recognize that the system has experienced 
problems and needs time to recover. And recover, it will.
    I thank you for the opportunity to testify today. I will be 
glad to take any questions.
    Thank you.
    [The prepared statement of Mr. Chandran follows:]

      Prepared Statement of Rahul Chandran, Program Coordinator, 
                  Center on International Cooperation
    Chairman Inouye, Vice Chairman Stevens, honourable Committee 
Members, it is an honor to testify today, and I thank you for the 
opportunity to discuss the need for improvements to airline services.
    Over 8 years have passed since I was first stranded on a tarmac in 
Detroit, courtesy of Northwest Airlines during the now infamous 
incident of January 1999. I have not thought about the incident for 
many years, and I am sure that the honorable members of the Committee 
are familiar with the incident; I simply recall many hours of miserable 
monotony, unpunctuated by water or food, the frequent refusal to allow 
customers to use the ``facilities,'' and a complete lack of information 
or communication.
    In the furor that surrounded this incident, the airlines promised 
greater self-regulation, arguing that there was no need for legislative 
protection of passengers as the airlines had their best interest at 
heart. The free round-trip ticket I received from Northwest as 
``compensation'' for the ordeal, I returned to Northwest.
    Shortly thereafter, in early 2000, I was on a United flight at 
Washington Dulles, during a sweltering summer day, for a short-hop up 
to New Haven, CT. We left the gate, sometime around 1 p.m. 
Approximately 4 hours later, having sat in a tiny turbo-prop, with 
neither water, nor access to the bathrooms--and certainly no clear 
information, we returned to a position near a gate, and the door was 
opened as the passengers were near rioting. There were, I believe, no 
more than eight people onboard this flight. Eight people, trapped in a 
metal tube designed to retain heat, on the tarmac in the hot summer 
sun, without air-conditioning or refreshment for 4 hours, are still 
eight people on the boundaries of reasonable tolerance.
    On the 16th of March, less than 1 month ago, and just 1 month after 
the series of incidents that affected JebBlue, I arrived at JFK airport 
at 8 p.m. Although there had been some snow, and earlier flight 
cancellations at other airports, the website for Cathay Pacific--the 
airline that was slated to carry me to Vancouver--suggested that flight 
889 would take off as scheduled. I came prepared, as several hundred 
thousand miles of flying have left me convinced that airline websites 
are rarely up-front about delays.
    After about 2 hours of waiting, we boarded the plane at midnight. I 
exited the same plane at 9:43 a.m, 9 hours and forty-three minutes 
after had left the gate. The intervening period had been passed on the 
runway, waiting for de-icing fluid, waiting for gates to become 
available, waiting for taxi space--in short, waiting. Waiting, that is, 
with our seat-belts securely fastened, our seat-backs upright and tray-
tables stowed, and no ability to enjoy even the little--but important--
comfort of the three-inch recline that economy class offers.
    Now in certain respects, this was the best delay I have ever 
encountered. The captain was reasonably communicative about the delays, 
although his promises of a forty-five minute resolution were only 
reported as having failed after about an hour and a half. The crew 
allowed passengers to use the restrooms, and offered us water. Twice 
that is--once after about 1 hour, and once after six and a half hours. 
Eventually, when the flight was canceled--and prior to the last 2 hour 
wait for a gate--they fed us what was supposed to be our dinner. Given 
that almost all the dining establishments in the terminal had stopped 
serving food around 10 p.m, this was a good ten and a half hours after 
most people had last had any food, during which they had been kept 
awake.
    So we were watered twice, fed once, and sent about our way. Upon 
disembarking, we received a $15 voucher for food available at the 
terminal. I chose not to wait any further, and went home.
    Honorable Senators, as I am sure you are all aware from your 
experiences, there comes a point when the consequences of a series of 
poor decisions accrete, and you have an intolerable outcome. Plane 
delays happen--I continue to fly, and have been delayed in over 30 
countries, for reasons that range from the real to the incredible. 
Pilots need to respond to the profit-motive of their masters, and to 
make a good-faith effort to get their passengers off the ground, and 
airborne, safely.
    It is, however, clear to me through all of these experiences that 
the companies that run airlines have failed to implement management 
procedures that prevent the intolerable outcome--passengers trapped on 
airplanes for more than 6 hours.
    We continue to fly because air travel is part of the engine of 
economic growth that has made America the success story that it remains 
today. A simple bill of rights that provides passengers with confidence 
that airlines will take care of their basic needs, prevents them from 
being confined in intolerable conditions, and ensures that airlines are 
responsible and held accountable for their actions will help to ensure 
that this remains the case.
    Thank you for your time.

    The Chairman. Thank you very much.
    May I now call upon Mr. May?

         STATEMENT OF JAMES C. MAY, PRESIDENT AND CEO, 
           AIR TRANSPORT ASSOCIATION OF AMERICA, INC.

    Mr. May. Thank you, Mr. Chairman. I--and members of the 
Committee--I'm pleased to be here today on behalf of nearly 
400,000 passenger airline employees, who, every day, make it 
their mission to transport over 2 million passengers throughout 
the United States, and the world, as quickly and smoothly as 
possible.
    Much has been said today about the quality of airline 
customer service; some of it harsh, some of it fair and 
deserved. While we don't always get it right, with more than 
20,000 flights a day, we do get it right most of the time. What 
troubles me is the suggestion that our members and their 
employees don't care about how passengers are treated. That's 
simply not true. They care deeply about their customers and the 
service that they receive. And suggestions to the contrary are 
wrong.
    Following safety, on-time service is the most important 
factor for success in the airline business. The reputations 
that the airlines earn for good service is the currency they 
have to offer in the marketplace for passengers.
    This afternoon, I'd like to emphasize two key points.
    You can't effectively legislate operational response to 
what we call irregular operations, including severe weather; 
and, two, arbitrary deadlines and inflexible standards have 
serious unintended consequences.
    Delays and cancellations are the enemies of every airline. 
They're costly, they interfere with customers' plans, they 
drive missed connections and mishandled bags, they upset 
carefully constructed flight schedules, and create a cascading 
effect that can spread to many cities and disrupt passengers' 
plans for several days. The DOT estimates that delays cost 
airline passengers $9\1/2\ billion in 2005--I think that's 
2006; and the airlines, nearly $6 billion. Thus, passengers and 
airlines have an identical goal of completing scheduled flights 
safely and on time.
    And I think these factors alone are incentive enough for 
airline members to work hard to avoid delays and cancellations. 
But there's another powerful incentive at work, and it's the 
marketplace.
    Recent events have clearly caused all carriers to review 
their policies and procedures, update contingency plans, and 
engage their key airports in discussions about dealing with 
severe weather situations. In addition, as you heard earlier, 
the DOT Inspector General is reviewing these incidents very 
specifically, and will soon issue a report that should clarify 
exactly what did, or did not, happen, and make appropriate 
recommendations. ATA, our board, actually called for DOT to 
review these incidents, following our February board meeting, 
and we very much look forward to the Inspector General's 
report.
    Finally, extended delays are, in fact, rare, and the 
extraordinary weather that triggered these events cannot be 
overlooked. The decisions American and JetBlue made as their 
situations unfolded involved extensive and ongoing internal 
coordination, consultation with ATC and FAA officials, and were 
made with the goal of getting passengers to their destinations 
safely. As it turned out, on December 29, 2006, American 
Airlines experienced more diversions than on any other day in 
the entire airline's history, with the exception of 9/11. 
Moreover, delay statistics maintained by DOT show that just 36, 
out of more than 7 million flights in 2006, had delays of more 
than 5 hours. And about 1,260 flights were delayed between 3 
and 5 hours. Even if you were to triple or quadruple those 
numbers in response to Ms. Hanni's concern, that is a very 
small percentage of the 7.2 million flights annually in the 
United States.
    Now, in short, I don't think Congress can legislate good 
weather or the best way to respond to bad weather, because 
every situation is clearly unique. A strict 3-hour limit, even 
with a 30-minute extension, would eliminate carrier flexibility 
to deal with these unique situations, and inconvenience, we 
think, more, not fewer, passengers. No passenger likes a 
delayed flight. But what they like even less is not being able 
to reach their destination at all.
    The proposed legislation will force airlines to 
inconvenience planeloads of people to satisfy the demands of a 
few to deplane. And we don't think that is good customer 
service. By forcing carriers to deplane passengers, which, in 
most cases, would require--most cases, not all--would require 
the plane to return to the terminal, the legislation could lead 
to an overall increase in cancellations, unplanned overnight 
stays for individuals, including unaccompanied minors, more 
bags missing connections, missed meetings, vacations, and 
cascading cancellations and delays caused by planes and crews 
out of position. Moreover, fully loaded airplanes make 
rebooking passengers on flights increasingly difficult. And I'd 
like to re-emphasize that point. With full load factors, if we 
cancel a flight, rebooking those passengers on future flights 
is increasingly difficult.
    So, in conclusion, I think flexibility is the best tool an 
airline has in responding to these situations. More passengers 
will be inconvenienced by a strict rule requiring airlines to 
deplane them, instead of letting the airlines deal with these 
extremely rare situations using their knowledge and experience.
    What is in the best interest of passengers is, in fact, in 
the best interest of the airlines, which is limiting 
cancellations and completing flights safely. Airlines and their 
customers need crews and planes to get to their destination to 
keep the system running. With 42,000 city pairs and more than 
20,000 flights a day, carriers require that flexibility to 
respond to irregular operations and get passengers safely to 
their destinations.
    Thank you for allowing me to appear today, and I obviously 
expect there'll be a few questions.
    [The prepared statement of Mr. May follows:]

        Prepared Statement of James C. May, President and CEO, 
               Air Transport Association of America, Inc.
Introduction
    The hallmark of the Airline Deregulation Act of 1978 (``ADA'') was 
Congress' policy determination to place ``maximum reliance on 
competitive market forces and on actual and potential competition'' \1\ 
among airlines to drive efficiency, innovation and low prices, and to 
provide ``the variety and quality of, and determine prices for, air 
transportation services.'' \2\ While not always neat and clean, 
marketplace competition in the airline industry has produced stunning 
consumer benefits in the form of low fares, expanded service options 
and product differentiation, and a steady flow of new airlines eager to 
challenge incumbents. As a result, more Americans fly for business and 
pleasure, and ship goods by air, than ever before. Air transportation 
has become an indispensable element of America's infrastructure and our 
Nation's economic well-being.
---------------------------------------------------------------------------
    \1\ 49 U.S.C. Sec. 40101(a)(6).
    \2\ 49 U.S.C. Sec. 40101(a)(12).
---------------------------------------------------------------------------
    The proposed Airline Passenger Bill of Rights Act of 2007 (the 
``Bill'') was offered in response to specific delay events involving 
two ATA member airlines. These events were serious and regrettable, and 
travelers' unhappiness is understandable. As explained below, however, 
the concerns that this Bill seeks to address do not require new 
legislation. The market forces the ADA unleashed, bolstered by existing 
regulatory mechanisms, are fully capable of bringing about appropriate 
changes to airline policies and procedures. Indeed, those changes are 
underway already. On the other hand, this Bill would undermine 
Congress' judgment to place ``maximum reliance'' on market forces, add 
costs for airlines and reduce consumer benefits going forward. In 
addition, the Bill would have numerous unintended consequences that 
would increase, rather than prevent, customer inconvenience.
Airlines Care about and Provide Good Customer Service
    It should be obvious that no one cares more about completing 
scheduled flights on time than the airlines and their employees. After 
safety, on-time service is critical for success in the airline 
business. Good service and on-time performance are what the airlines 
sell, and the reputation an airline earns for good customer service is 
the currency it has to offer in the marketplace for passengers. Good 
service and on-time performance ensure repeat business, and that is the 
goal for all airlines because it leads to commercial success. On the 
other hand, poor service and on-time performance drive customers away 
and, ultimately, lead to failure. No airline is in business to fail.
    Every year, airlines spend millions of dollars on new products and 
upgrades, reservations and check-in systems, online systems, personnel 
and training to make it easier for passengers to purchase tickets, 
print boarding passes, obtain special services, and enhance the 
inflight experience. They do this not only because of competition to 
differentiate themselves from their competitors and to drive customer 
satisfaction, but also because the easier it is for passengers to 
access their flights and services, the more efficient the airline 
operation becomes. This, in turn, drives down costs and frees up 
resources for growth, capital spending and further product 
enhancements.
    A good example is online check-in. Many airlines have now deployed 
this service, which allows passengers to print their boarding passes at 
home or work and bypass traditional airport passenger processing. This 
benefits passengers and airlines alike, reducing the passenger's time 
at the airport, easing crowded airport lobbies, and allowing gate 
agents and customer service representatives to focus on passengers who 
need personal assistance.
    Other examples abound. Airlines have begun introducing Spanish-
language check-in kiosks, and many airlines are adding check-in kiosks 
throughout their systems as e-ticketing becomes more prevalent. New 
terminals are being constructed and aircraft interiors are being 
refurbished with new seats and entertainment systems.
    In response to the 1999 Customer Service Commitment, ATA member 
airlines instituted a variety of measures and developed new systems to 
improve customer service, such as automated voice and Internet 
messaging about delays and schedule changes, automated re-booking 
systems when severe weather forecasts lead airlines to proactively 
cancel flights in advance of extreme weather conditions, and re-booking 
hotlines. They also have developed internal policies and procedures to 
monitor delay situations, including taxi-out delays, and to implement 
event-specific plans to minimize customer inconvenience.
    Notwithstanding these varied customer service initiatives, airline 
customer satisfaction is measured first and foremost by on-time service 
and flight completion. Airline operations are incredibly complex, 
intricate systems with a significant number of moving parts that 
airlines can control, but also two major external factors that are 
completely out of their control: weather and the air traffic control 
(ATC) system. These two factors greatly affect on-time performance and 
flight completion and, for this reason, can be the source of great 
frustration for airlines. Together they accounted for approximately 66 
percent of all delays in 2006, according to FAA data.\3\ When bad 
weather hits, the best efforts of the airlines sometimes cannot 
overcome the impact on operations. That was the case in December 2006 
and February 2007.
---------------------------------------------------------------------------
    \3\ FAA Opsnet, http://www.apo.data.faa.gov/opsnet/entryOPSNET.asp. 
The Bureau of Transportation Statistics, which DOT uses for its monthly 
``Air Travel Consumer Report,'' uses slightly different data and 
categories, reported that just under 60 percent of 2006 delays were 
caused by weather and ATC.
---------------------------------------------------------------------------
Legislation Is Not Needed
Unusual Weather Conditions Triggered Unusual Delays
    The two delay events that led to the proposed Bill were caused by 
extraordinary weather conditions. This factor alone distinguishes these 
two events. In the case of American Airlines on December 29, a storm 
pattern in north Texas affecting Dallas-Ft. Worth International Airport 
(DFW) that normally would have dissipated relatively quickly (often in 
less than an hour) kept reforming over a period of 8 hours. Every time 
it appeared that an operational window was about to open, the storm 
refocused and the window slammed shut. The storm literally defied years 
of experience and weather forecasting expertise. On almost any other 
day, the planes diverted to Austin would have recovered to DFW within 
two or 3 hours. In fact, American experienced more diversions on that 
day than any other day in its history except 9/11.
    Likewise, in the case of JetBlue Airways, the winter storm that 
struck John F. Kennedy International Airport (JFK), which also affected 
most of the northeastern U.S., was extremely intense and unlike 
forecasts for much of the time consisted of a particular type of 
precipitation known as ``ice pellets.'' FAA recently had dictated 
severe departure restrictions in ice pellet conditions and these 
restrictions unexpectedly but effectively prevented JetBlue and other 
airlines from being able to operate departures. The airport continued 
to accept arrivals, however, and it quickly became gridlocked, with 
aircraft unable to either takeoff or return to the terminal.
    In both cases, there were numerous factors that led to passengers 
being onboard some airplanes much longer than ever expected. Chief 
among them were (1) the reasonable expectation, based on past 
experience and current forecasts, that weather and airport conditions 
would change and permit operations to resume; (2) the knowledge that 
the overwhelming majority of passengers much prefer to take a delay but 
get to their destinations rather than have their flights canceled, 
especially over holiday travel periods; (3) crew members, like 
passengers, prefer to depart late and get home or to their intermediate 
destination rather than have a flight canceled--particularly if the 
flight has been diverted; and (4) operational recovery occurs more 
quickly, and all upcoming passengers benefit, if as many airplanes and 
crew members as possible are able to reach their scheduled 
destinations, even if delayed. In short, these incidents are classic 
cases of ``creeping delays'' and best intentions of carriers gone awry.
    In hindsight, could these situations have been handled better? 
Undoubtedly so, as the carriers themselves have stated. But it is also 
true that these airlines, and every other U.S. airline, learned 
valuable lessons from these incidents. As a result, ATA member airlines 
are all taking steps to prevent a recurrence of events such as these. 
Can we say they will never occur again? In truth, no. But the 
likelihood they will is extremely small.
Extreme Delays are Rare
    Another reason why this legislation is not needed is that extreme 
taxi-out delays are rare. In 2006, 36 out of 7,141,922 flights reported 
had delays of more than 5 hours after pushing back from the gate. That 
is just 0.0005 percent, or five ten-thousandths of a percent. This 
statistic is hardly reason to justify legislation to substitute the 
judgment of Congress for that of the executives who not only run these 
businesses on a daily basis but also are responsible for their safe and 
timely operation.\4\
---------------------------------------------------------------------------
    \4\ To put that number into perspective, the chance of a flight 
delay of greater than 5 hours (approximately one-in-200,000) is 
approximately the same as dying from falling down the stairs, based on 
National Safety Council statistics. See: http://www.nsc.org/lrs/
statinfo/odds.htm.
---------------------------------------------------------------------------
    Even if this number were to double in 2007, which we do not believe 
will be the case, it would not support new governmental impositions on 
the airlines. Likewise, if we consider the 2006 delays of three to 5 
hours, there were only 1,259 flights affected. That amounts to 0.00018 
percent of the 7,141,922 flights reported. In short, for a system that 
operates 24 hours a day, 365 days a year, that must respond to winter 
snowstorms and summer thunderstorms, and that safely moves more than 
740 million passengers and 2.5 million tons of cargo annually, there 
are remarkably few extreme delays.
Delays are Costly for Airlines and Passengers
    Delays and cancellations are the enemies of every airline. They 
interfere with customers' plans, drive missed connections and 
mishandled baggage, upset carefully balanced flight schedules, throw 
off carefully planned crew scheduling, and potentially create a 
cascading effect that can spread to many cities and disrupt passengers' 
plans for several days. DOT has estimated the cost of delays to U.S. 
airline passengers in 2005 at $9.4 billion. At $62 in direct operating 
costs per minute of flight delay, DOT has estimated that in 2005 delays 
cost airlines an additional $5.9 billion.
Market Forces and Existing Regulatory Oversight are Working
    Regulation of an industry or enterprise is justified when market/
economic forces do not cause that industry or enterprise to conform to 
social norms or to protect the health and safety of workers and the 
public. That is not the case here. On the contrary, the intense media 
coverage of the negative public reaction to these incidents caused both 
American and JetBlue to promptly modify their policies and procedures. 
American, for example, has adopted an internal policy that will prevent 
onboard delays from exceeding 4 hours. Likewise, JetBlue voluntarily 
adopted a policy that will prevent onboard delays of more than 5 hours. 
JetBlue also implemented its own Customer Bill of Rights that covers 
(and in certain cases compensates for) delays and cancellations. This 
positive response by both carriers demonstrates that the pressure of 
market forces is working and that government intervention is not 
necessary.
    Other carriers likewise have heard customer concerns and have 
responded by initiating internal reviews of their policies and 
procedures to deal with extended delays, by reviewing and updating 
contingency plans, and by engaging their key airports in discussions 
about how best to deal with these kinds of situations. Carriers also 
are examining the capacity of their call systems, adopting contingency 
plans for handling high volumes during emergencies, as well as 
evaluating computer-based systems that would automatically re-book 
passengers whose flights are canceled.
    In addition to airlines' voluntary responses, Department of 
Transportation (DOT) Secretary Peters has asked the DOT Inspector 
General (IG) to investigate these incidents in light of the airlines' 
commitment to meet customers' essential needs during extended onboard 
delays and to have contingency plans in place for such events. The 1999 
``Airline Customer Service Commitment'' by 14 ATA member airlines 
provides that ``the airlines will make every reasonable effort to 
provide food, water, restroom facilities and access to medical 
treatment'' in the event of extended onboard delays consistent with 
safety considerations. The Secretary also requested the IG to provide 
recommendations on what airlines, airports and the government might do 
to prevent a recurrence of these kinds of extended delays and to 
highlight industry best practices. American and JetBlue, as well as 
many other airlines, have cooperated with the IG's office during this 
investigation and have provided numerous documents and extensive data 
not only about these events, but also about their internal policies and 
procedures.
    The IG's report, due in mid-May, thus will identify potential 
measures for carriers and other stakeholders to consider adding to 
their policies and procedures with respect to avoiding, and responding 
to, significant delays. ATA looks forward to the IG's report because it 
will also clarify the facts of these incidents--and correct inaccurate 
media reports indicating that particular flights had no food, water or 
working lavatories. We understand that neither American nor JetBlue 
flights were without food, drinks or water, and at least one working 
lavatory.
    Finally, the proposed legislation is unnecessary because DOT 
already has existing authority to investigate air carrier compliance 
with its consumer protection regulations, including the prohibition 
against unfair and deceptive trade practices, and to fine carriers for 
violations of these obligations. DOT's enforcement office executes this 
authority and has a long history of actively protecting consumer 
rights, including issuing fines to airlines.
    Congress' determination to rely on market forces clearly was the 
right judgment. As the carrier responses to the recent problems 
demonstrate, market forces are driving improvements to customer 
service. And the market-driven responses already undertaken by airlines 
have been bolstered by the Secretary's request for an investigation and 
report by the IG. When issued, the IG's report may identify additional 
measures the carriers can take. Finally, not to be overlooked is the 
significance of congressional hearings like this one and the upcoming 
hearing before the House Aviation Subcommittee. Together, these 
measures are more than adequate to ensure that consumer rights and 
interests are protected.
Airline Operations Are Complex and the Proposed Bill Would Have Adverse 
        Consequences for Passengers
    The proposed Bill provides that any passenger who wants to get off 
an airplane delayed on departure for 3 hours must be deplaned if safe 
to do so, unless the pilot reasonably believes the plane will takeoff 
within 30 minutes. A hard and fast rule like this will have numerous 
unintended consequences that, ultimately, will create even more 
inconvenience for passengers and lead to even more flight 
cancellations.
    No passenger likes delay, especially long delays. But what the 
majority of passengers like even less is not being able to get to their 
destination at all. A late flight is better than no flight, and can 
mean the difference between attending and not attending an important 
event or long-planned vacation. If the flight returns to the gate and 
is canceled, then the passengers will very likely be delayed at least 
into the next day, if not longer. Even if the flight is not canceled, 
planes will lose their place in line to depart by being forced to go 
back to the terminal or getting out of line to deplane passengers by 
air stairs. This, necessarily, will cause even longer delays for 
everyone else. Consequences that will occur, particularly from a return 
to the gate to deplane a passenger, include:

  <bullet> Cancellations because crews ``time out.'' \5\
---------------------------------------------------------------------------
    \5\ FAA regulations on duty limits and rest requirements for pilots 
and flight attendants, as well as carrier collective bargaining 
agreements that go beyond the regulations, limit the amount of time 
pilots may be on duty without a rest break. Limited provisions that 
allow the duty day to be extended because of reasons beyond the control 
of the airline assist in dealing with weather related delays. However, 
the utility of these provisions will be curtailed significantly by 
forcing planes back to the gate to deplane passengers.

  <bullet> Flights delayed because they lose their place in the 
---------------------------------------------------------------------------
        departure line.

  <bullet> Unplanned overnight stays for unaccompanied minors.

  <bullet> Mishandled baggage.

  <bullet> Missed meetings and vacations.

  <bullet> Cascading cancellations and delays caused by planes and 
        crews out of position, especially when diversions are involved.

  <bullet> An overall increase in cancellations because airlines will 
        pre-cancel flights to limit passenger inconvenience and 
        operational complications caused by the Bill's requirements.

    These consequences are likely to be exacerbated if a flight cancels 
at a city to which it has been diverted.
    The impact of flight cancellations extends beyond the passengers on 
the canceled flight. Operationally, the consequences for airlines and 
the next day's passengers include:

  <bullet> Crews and aircraft are ``out of position'' and the next 
        day's schedule is compromised.

  <bullet> Passengers at the destination city must wait for the 
        aircraft to arrive the following day, delaying or canceling 
        their departures.

  <bullet> Flight crews ``deadheading'' on the canceled flight will not 
        reach their destinations and will not be available to operate 
        their scheduled flights.

  <bullet> Aircraft will be forced to traverse congested runways/
        taxiways when logistically possible (as it was not for long 
        periods at JFK during the storm gridlock) to return to the 
        terminal.

Airline Customer Service in the Post-9/11 Era
    On a broader basis, airline customer service in the post-9/11 is a 
relevant discussion point for this hearing. Good customer service is 
important to our members and they understand it drives consumer 
choices. But, as with virtually every other aspect of airline 
operations, the effects of 9/11 continue to be felt in the customer 
service area. While our members have done much to address customer 
service concerns over the last five-plus years, they also recognize 
that in some respects customer service is not at the level they want it 
to be or provided in the preferred manner. The reasons for this are 
many. Chief among these are the operating limitations imposed by an 
aged and inefficient air traffic control (ATC) system.
The Air Traffic Control System is at Capacity
    The current ATC system relies on a series of ground-based platforms 
that are linked to form a very complex network system that supports 
airways, through which aircraft fly. The system was designed to create 
point-to-point routings which we now recognize are inherently limiting 
and inefficient. Today, airways increasingly resemble many highways: 
they have become saturated. Even in good weather, the system is just 
able to handle the traffic demand. When severe weather disrupts the 
airway system, the impact on airline operations is immediate and often 
widespread. FAA has developed a number of programs to ensure safe 
operations in these conditions, but the effect of these programs is 
flight delays and cancellation, which inexorably leads to unhappy 
passengers.
    Government must do everything it can both in the near term and long 
term to improve airspace capacity and system performance, particularly 
during adverse weather conditions. Point-to-point airways cannot 
produce substantial new capacity, or allow operations in weather 
conditions that today force FAA to reduce airway capacity. In the long 
term, we have no choice but to introduce new technology to generate 
needed capacity and new operating capabilities. Potential capacity 
enhancements and efficiency improvements, so critical to meeting 
growing air traffic demand and responding to environmental concerns, 
will remain unrealized unless the ATC system is promptly and thoroughly 
transformed. In the near term, incremental capacity enhancements must 
be pursued vigorously. These include the New York and Chicago airspace 
redesign projects, ADS-B implementation and expedited development of 
RNAV/RNP procedures.
Most Airlines Remain Financially Precarious
    The well-documented drop in traffic after 9/11 and the related 
external shocks of SARS, the Gulf War and skyrocketing jet fuel prices 
brought the industry to its knees. From 2001 through 2006, the industry 
lost $33 billion, including 2006 estimated net earnings of $2 billion 
in 2006.\6\ These conditions put four major airlines into Chapter 11 
and forced the industry to shed jobs and airplanes, slash capital 
spending, and take on massive amounts of new debt, just to survive. 
Through 2006, airlines cut more than 150,000 jobs, shed more than $8 
billion in annual labor costs and parked hundreds of airplanes. At its 
peak in 2004, industry debt is estimated to have exceeded $107 billion, 
and most recently stood at approximately $79 billion. In short, the 
airline industry as a whole remains in extremely fragile condition. 
Earnings in 2006 and projected earnings for 2007 are helping to revive 
the industry, but it is far from where it needs to be to weather the 
next exogenous shock or economic recession. In fact, only one U.S. 
passenger airline enjoys an investment-grade credit rating from 
Standard and Poor's. Moreover, the industry's recovery remains hostage 
to stable oil prices, as the recent spike in oil prices stemming from 
Iran's capture of twelve British sailors demonstrates. In short, the 
projected 2007 earnings would quickly disappear should oil and jet fuel 
prices surge for a sustained period of time.
---------------------------------------------------------------------------
    \6\ By comparison, the industry earned only $23 billion in 1995-
2000, the industry's most profitable period ever. DOT has not yet 
released airline industry financial results for the fourth quarter of 
2006.
---------------------------------------------------------------------------
Cost and Capacity Discipline Remain Critical
    Assuming the industry recovery continues, airlines have many 
financial demands. These include repairing their balance sheets, 
funding fleet acquisitions to meet growing demand while reducing growth 
in emissions, improving wages and benefits for their employees--who 
have endured significant reductions since 9/11, funding airport 
development projects intended in part to improve customer service, 
acquire or upgrade ground service equipment to meet both operational 
needs and emissions reductions targets, modernize reservations and 
online booking systems to meet customer needs, and so forth. The point 
here is that as much as airlines might like to redirect financial 
resources at improving customer service--by hiring lots of new staff 
and deploying new equipment--they must act deliberately to make sure 
that all priorities, including those related to passenger safety, are 
met and that they do not lose control of their costs. Airlines simply 
cannot afford a ``fix it at any cost'' mentality.
    The same holds true with respect to capacity. The industry was 
finally able to achieve a profit in 2006 largely because supply began 
to align with demand. Prior to that point, supply--seat capacity--
outstripped demand and, as a result, revenue could not keep up with 
costs. While our members recognize that increased capacity could, 
perhaps, make planes less crowded and provide a cushion to accommodate 
passengers when their flights are canceled, the unfortunate truth is 
that this would greatly increase airline costs. Airlines either would 
have to raise prices, which is difficult to do in a highly competitive 
pricing environment driven by low-cost carriers, find new ways to cut 
costs--which could include more service cuts, or slip back into the 
category of money losing enterprises.
The Current FAA Funding System Hobbles the Airlines
    As we have stated in previous testimony concerning FAA 
reauthorization, the current funding system for the FAA unfairly 
burdens commercial airlines. There is no correlation today between 
revenue collected and services consumed. Airlines pay well over 90 
percent of Trust Fund revenues but drive less than 70 percent of ATC 
system costs. The result of this inequity is that airlines, and 
ultimately their customers, are heavily subsidizing other users of the 
system--corporate aviation users in particular. A cost-based usage fee 
system would correct this disparity and, in the process, free up 
significant resources for airlines that can be used for, among other 
things, improving customer service.
Conclusion
    While commendable for its goals, the Bill is neither necessary nor 
prudent. Extreme weather conditions of the kind that struck in December 
2006 and February 2007 are unusual, and DOT statistics demonstrate 
that, in fact, extreme delays are rare. And just as Congress 
anticipated when it enacted the Airline Deregulation Act, market forces 
have already caused airlines to change the way they prepare for, and 
respond to, extreme weather conditions and resulting delays and 
cancellations. Additionally, existing regulatory mechanisms are 
ensuring appropriate action by carriers and protect consumer interests.
    As we all know, weather remains, by far, the chief cause of airline 
delays and cancellations. When weather hits, FAA slows down the system 
and airports often lose runway capacity. Because the existing ATC 
system is, for all intents and purposes, maxed out, the ripple effect 
on airline operations that results from ATC responses is enormous. 
Rather than layer on additional regulatory burdens that could prove 
costly and result in greater numbers of passengers being 
inconvenienced, we urge the Committee to pass legislation that will 
enable FAA to modernize the ATC system as quickly as possible. 
Expanding system capacity and putting technology in place that will 
allow better operations when weather hits is the most effective action 
for improving customer service.

    The Chairman. I thank you very much, Mr. May.
    And now may I recognize Senator Boxer?
    Senator Boxer. Thank you.
    Mr. May, I find your testimony incredulous. I'm stunned by 
your testimony. I don't know whether you travel--do you travel? 
Do you have a private plane or do you travel commercial?
    Mr. May. I travel commercial, exclusively.
    Senator Boxer. OK, good for you. So do I. And I can tell 
you, your testimony, to me, sounds like you're living in a 
dreamworld. I just find--I find your testimony even arrogant. 
You say you don't always get it right, you get it right most of 
the time. Good. Thank goodness, yes, you do. And I think I've 
flown more than a million miles by now, because I got elected 
to Congress in 1982 and have been going back and forth ever 
since, and I'm a loyal flyer of United Airlines. You get it 
right most of the time. You should. You better. I mean, we're 
trusting you with our lives. So, good, you get it right most of 
the time.
    But I say, when you don't get it right, on those few 
occasions you say it is, just a few occasions, then you ought 
to welcome the fact that we want to stop compounding the 
problem, and you ought to work with us, and you ought to say, 
``Good, sure, we're not afraid of a passenger bill of rights, 
Senator Snowe and Senator Boxer. We want to work with you.''
    You say that we set arbitrary deadlines. And, Mr. Mitchell, 
who represents business flyers--but none of them that I know 
today, sir, in your attitude toward our bill, if I might say 
that--``arbitrary deadlines,'' what does that mean? Is it an 
arbitrary deadline that we vote at 18? Yes, you might say it, 
but it's common sense. We figured if you can go to war, you 
should be able to vote. Most states, you can have a drink at 
21. Is it too--is it arbitrary? Yes, I suppose you could say it 
is--21. We get Social Security either at 62, 65, or 70. 
Arbitrary? Yes, I guess you could say. Common sense, though, 
pretty much. Medicare at 65, you could argue that one. But 
whether it's marriage age or any other age or any other 
decisions you make in your life--when you tell your kid, ``Come 
home a certain time or you're grounded''--there are no 
absolutes in life. But what Olympia and I have tried to do is 
put our heads together, listen to what people are telling us 
happen, look at your own customer first 12-point customer 
service commitment, which I ask unanimous consent to place in 
the record, and I will so do.
    [The information previously referred to follows:]

Customers First 12 Point Customer Service Commitment
    ATA members are committed to providing the highest possible level 
of service to our customers. Each participating airline has published a 
Customer Service Plan: Please consult your airline's Website for the 
particulars of its customer commitment. Copies of those plans have been 
provided to Congress and the Department of Transportation.
    Each participating airline commits to:
    1. Offer the lowest fare available--Each airline will offer the 
lowest fare available for which the customer is eligible on the 
airline's telephone reservation system for the date, flight and class 
of service requested.
    2. Notify customers of known delays, cancellations and diversions--
Each airline will notify customers at the airport and onboard an 
affected aircraft, in a timely manner, of the best available 
information regarding known delays, cancellations and diversions. In 
addition, each airline will establish and implement policies for 
accommodating passengers delayed overnight. A clear and concise 
statement of airlines' policies in these respects will also be made 
available to customers.
    3. On-time baggage delivery--Each airline will make every 
reasonable effort to return checked bags within 24 hours and will 
attempt to contact any customer whose unclaimed, checked luggage 
contains a name and address or telephone number.
    4. Support an increase in the baggage liability limit--The airlines 
successfully petitioned the Department of Transportation to increase 
the baggage liability limit.
    5. Allow reservations to be held or canceled--Each airline will 
allow the customer either to hold a telephone reservation without 
payment for 24 hours or (at the election of the carrier) to cancel a 
reservation without penalty for up to 24 hours, in order to give 
customers an opportunity to check for lower fares through other 
distribution systems, such as travel agents or the Internet.
    6. Provide prompt ticket refunds--Each airline will issue refunds 
for eligible tickets within 7 days for credit card purchases and 20 
days for cash purchases.
    7. Properly accommodate disabled and special-needs passengers--Each 
airline will disclose its policies and procedures for handling special-
needs passengers, such as unaccompanied minors, and for accommodating 
the disabled in an appropriate manner.
    8. Meet customers' essential needs during long on-aircraft delays--
The airlines will make every reasonable effort to provide food, water, 
restroom facilities and access to medical treatment for passengers 
aboard an aircraft that is on the ground for an extended period of time 
without access to the terminal, as consistent with passenger and 
employee safety and security concerns. Each carrier will prepare 
contingency plans to address such circumstances and will work with 
other carriers and the airport to share facilities and make gates 
available in an emergency.
    9. Handle ``bumped'' passengers with fairness and consistency--Each 
airline will disclose to a passenger, upon request, whether the flight 
on which the passenger is ticketed is overbooked, if, within the usual 
and ordinary scope of such employee's work, the information is 
available to the airline employee to whom the request is directed. Each 
airline will also establish and disclose to the customer policies and 
procedures, including any applicable requirements (such as check-in 
deadlines), for managing the inability to board all passengers with 
confirmed reservations.
    10. Disclose travel itinerary, cancellation policies, frequent 
flyer rules and aircraft configuration--Each airline will disclose to 
the customer: (i) any change of aircraft on a single flight with the 
same flight number; (ii) cancellation policies involving failures to 
use each flight segment coupon; (iii) rules, restrictions and an annual 
report on frequent flyer program redemptions; and (iv) upon request, 
information regarding aircraft configuration, including seat size and 
pitch.
    11. Ensure good customer service from code-share partners--Each 
airline will ensure that domestic code-share partners make a commitment 
to provide comparable consumer plans and policies.
    12. Be more responsive to customer complaints--Each airline will 
assign a Customer Service Representative responsible for handling 
passenger complaints and ensuring that all written complaints are 
responded to within 60 days. Each airline will develop and implement a 
Customer Service Plan for meeting its obligations under the Airline 
Customer Service Commitment. Customer Service Plans will be completed 
and published within 90 days and will be fully implemented within 6 
months. Airline implementation will include training for airline 
reservation, customer service and sales personnel to enhance awareness 
of the responsibilities involved in implementation of the Customer 
Service Commitment and Plans. The Airlines will publish and make 
available their Customer Service Plans: (i) on airline Internet 
websites; (ii) at airports and ticket offices (upon request); and, 
(iii) to travel and reservation agents.

    Senator Boxer. And we came up with an idea. Some people 
said it was too weak, actually. We had a recommendation to add 
ventilation and medicine. I'm willing to look at that, for 
sure. But we've put together something that you should embrace, 
it seems to me, and work with us on, instead of fighting us and 
fighting the people who pay every day to fly. If it's so rare, 
then what's wrong about a simple bill that gives the pilot the 
flexibility. You used the word ``flexibility.'' We give the 
pilot 100 percent flexibility, period. I trust pilots a lot. I 
worked with Bob Smith so that pilots could carry guns on the 
planes, if they were so trained to be air marshals, after 9/11. 
I trust them--a lot more than I trust some guy with a green 
eyeshade sitting in an office somewhere, saying, ``Oh, boy, 
don't bring that plane back, we could lose X number of 
dollars.''
    You are dealing with real lives here. You sat next to two 
people here. How could you be so unmoved by what they said it's 
like?
    I had a daughter trapped on a plane for about 4 hours. She 
called me from the airplane. She was desperate, because she had 
to get home to see her kid. She just wanted to know what was 
going on. I called the airline. No information. Zippo. Nothing.
    These are human beings, treated in the worst possible way. 
I was so hopeful, when the Chairman said he was going to have 
this hearing, that we could come together, rather than have a 
battle--again. And I just hope the Senate is going to treat its 
constituents with dignity. What if someone gets a heart attack 
on one of your airplanes because of the stress, or a stroke? 
What happens? Oh, then you'll be up here, saying, ``Gee, 
Senator, I guess I was wrong. I should have given the pilot, 
you know, some discretion.'' But it could happen.
    And I think this legislation is a modest step, because, you 
know what? I trusted you before. I was here. Guess what? I 
didn't fight you. I joined you. I said, ``You're willing to do 
this 12-point plan. I trust you.'' Well, look at this. ``We 
will properly accommodate disabled and special-needs 
passengers.'' And here, you have people who had special needs 
who couldn't even get to their medicine. They will--you ``will 
meet customers' essential needs during long on-aircraft 
delays''--food, water, restroom facilities, medical treatment--
your words. If I did this--I could be thrown out of the Senate 
if I said, ``I pass this law, and I will uphold it,'' and I 
didn't uphold it. I don't know why you can't help us with this. 
``Insure good customer service from code share partners.'' ``Be 
more responsive to customer complaints.'' And Ms. Hanni, who I 
admire so much, she didn't need this in her life, she just 
said, ``I cannot put it out of my mind.'' Everybody does that, 
and we all have this, we move on. We say, ``It was awful, let's 
not think about it.'' It's like after you give birth, you know, 
you forget about the pain and everything you went through.
    [Laughter.]
    Senator Boxer. And you just don't want to go back and 
remember the pain and the aggravation, because we're all 
optimists. But we have to fix this. And Mr. Mitchell says, 
``Fix it by getting new runways, getting more air traffic 
controls.'' Amen. I'm with you, sir. And we will work toward 
that, because, Senator Rockefeller is right, we don't have 
enough money. But we need to do that. And we will do that. But 
that's not tomorrow. We need to do this tomorrow. And I'm going 
to fight hard. And I know that Senator Snowe agrees. We're a 
team, and we're going to push this on every bill that we can to 
get this thing done, because it isn't right, it isn't fair. We 
backed off in 1999. We trusted you, sir. I don't mean you, 
personally--your industry. You put it in writing, and you 
didn't live up to it.
    I have one question, for Ms. Hanni. Do you react the same 
way I'm reacting to Mr. May? I mean, not--it's not a personal--
he may be a lovely gentleman, but, I mean, his attitude of----
    [Laughter.]
    Senator Boxer.--you know, ``Leave us alone, this is 
ridiculous and arbitrary, and go away.'' Does this bother you?
    Ms. Hanni. I feel furious inside.
    Senator Boxer. Well, tell me about it a little.
    Ms. Hanni. Well, I just get that, unless someone has 
experienced what we experienced, that it's hard for them to 
have the same visceral reaction that I have. And I feel it now 
whenever I hear another stranding story, because I know what it 
felt like to be in that situation and not know what to do, not 
know what to tell my children, my husband trying to keep me 
calm, other people discussing in the plane, ``Maybe there's 
terrorism going on in the airport. There must be some greater 
reason why we're being held than simply someone decided not to 
let us off the plane,'' when there were clearly gates 
available. And it is so troubling to me to hear these baseless 
arguments, basically, for something so simple and humane as 
what has been put together, that would protect us.
    And the things that we witnessed that day from our plane, 
people walking their dogs on the tarmac, police cars going to 
planes and arresting people, ambulances going to planes to 
treat people on the tarmac, rather than allowing those planes 
to go into a gate and safely deplane the diabetic paraplegic 
with a colostomy bag on flight 534, and people flashing SOS 
signs out their windows--you know, tarmac rage was imminent on 
our plane, when our pilot decided against orders to take the 
plane in. And he told us, every few--you know, 45 minutes or 
so, what was going on, and that he was being refused a gate, 
even though there were gates. So, it was extremely confusing, 
troubling. I just don't think people's tolerances, for a 
variety of reasons, can handle it. And there was conversation 
of popping the emergency exits, just before he decided to pull 
the plane in. And I don't know--you know, it wouldn't have been 
safe for us to jump from the plane.
    Senator Boxer. Well, the problem that's compounding it now 
is, of course, any action when you're in an airplane----
    Ms. Hanni. Is arrestable.
    Senator Boxer.--is deemed a hostile act.
    Ms. Hanni. Correct.
    Senator Boxer. And any one of those airline people could do 
something pretty desperate to stop you. So, it's sort of 
putting you in a very--extremely dangerous situation. Well----
    Ms. Hanni. Yes. And the----
    Senator Boxer. Yes.
    Ms. Hanni.--flight attendants are in a dangerous situation. 
I have over 1,000 flight attendants that have e-mailed, saying 
that they want this bill to be passed. They are tired of being 
trapped with us in the planes.
    [Laughter.]
    Ms. Hanni. That's what they've said. They're scared.
    They don't have any training to deal with that type of 
situation, beyond a certain amount of time. The hostility is 
entirely directed at them.
    Senator Boxer. Right.
    Ms. Hanni. And there are so few of them, in relationship to 
the number of passengers on the plane. Clearly, our flight 
attendant did not know what was going on, and said, ``I just 
don't know why they're not letting us go to a gate. Maybe 
they're afraid that 1,000 angry passengers would be too much 
for the terminal after that many hours,'' because there were so 
many planes on the tarmac that needed to go in. It was--it was 
unbelievable. I--it was surreal, and we felt like aliens 
arriving----
    Senator Boxer. Well, I was going to----
    Ms. Hanni.--you know----
    Senator Boxer.--say, the sense that I have, having just a 
little bit of this experience, but nothing like what you've 
had--which is a miracle, in itself--is that, Mr. Chairman the 
people there really lose their individuality and are viewed as 
sort of the enemy, in a way, by the airline, that they have to 
just deal with them and shut them up and keep them quiet. And 
it's just--this isn't American. This isn't how we do things. 
Each of us has a story, each of us has a reason why we're on an 
airplane. Usually it's--very urgent reason or a happy reason or 
something. And we pay a lot of money for the privilege of 
getting that ticket.
    Well, thank you. I am just more bound and determined to get 
this done than I've ever been before, so I wanted to make that 
comment.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Senator Snowe?
    Senator Snowe. Thank you, again, Mr. Chairman.
    I mean, the issue here is, Mr. May, that there is just no 
accountability on the part of the airlines. I mean, there 
aren't choices when you're sitting in an aircraft, enclosed for 
an extended period of time. It's inconceivable, as I said 
earlier, to be trapped in a plane, with no choices, not being 
able to move, not to be able to use the restroom. It goes on 
and on. And I think we've heard some of the stories here today, 
with Ms. Hanni and Mr. Chandran, and we've heard other graphic 
stories.
    And listening to the Inspector General earlier, I'm 
somewhat surprised, Mr. May, that you would not have responded 
to the issues that were raised, because, if anything, he was 
describing an industry that is essentially retreating when it 
comes to customer satisfaction. In fact, I think that you need 
to respond, your industry needs to respond. And I realize 
they're going to be doing another report, but this was issued 
in November of last year, and it describes an industry that 
really is, at best, paying lipservice to some dimensions of 
customer service.
    There's no choice. It's not as if you don't like the 
restaurant, you're going to get up and go to the next one. 
People make considerable investments. If I go to the store and 
I buy an appliance, and things don't work, I can take it back. 
There's really, essentially, no recourse. And it has--and, as I 
said, it has a reverberating effect. If you have a vacation, 
you know, that you lose days in which you've paid for, or a 
rental car. It goes on and on, not to mention family weddings 
or funerals. And when you're emplaned and entrapped, there's 
nothing that you can do.
    Congress has a responsibility, in terms of public safety. 
We have an obligation in an industry that is regulated and 
controlled, you know, if you think about air traffic control, 
ground control, the infrastructure, the airports, publicly 
funded, passenger fees and taxes that are imposed by the 
Government. So, it is a controlled and regulated industry. In 
fact, not too long ago, the FAA--with respect to the FAA 
reauthorization, I understand the industry, you know, would 
like to have a new aviation safety account, to be primarily 
funded out of the General Fund of the Federal budget, because 
it is a public safety issue, as the industry indicated.
    This is an issue of public safety. You know, this isn't the 
lottery, well, you know, 4 hours, 5 hours, maybe 6 hours. Have 
you ever sat on a plane when they told you specifically--and I 
understand the exigencies with weather conditions. But what we 
heard here earlier, that the delays attributed to weather were 
5 to 10 percent of the overall flights--so, the question is all 
the other issues, and it's exercising good judgment. And the 
pilot was constrained, and when he finally was so exasperated, 
he went back to the airport, the American Airline pilot. He 
finally--he just finally decided to do it, irrespective of what 
was being handed down from within the company.
    So, I think that that is the issue here today. We've got a 
matter of public safety. This is, you know, a minimal standard 
that ought to be adhered to. And that's what we're--that's what 
we have to face, because we don't want an incident that results 
in a death and that we're back here discussing that. I don't 
want that to happen. Barbara doesn't want that to happen. 
That's why we're--I mean, that's why we've taken this approach, 
because it is a matter of life and death; it's a potentially 
life-threatening situation.
    This isn't an issue of marketing. This is an issue of 
public safety. And that's why we're compelled to introduce this 
legislation, because obviously the industry is not engaged in 
self-policing, and that is certainly evident with the report 
that was issued by the Inspector General that was released in 
November of 2006. So, this isn't just an old report. And 
February was the second highest rate for delays ever. And sure, 
some were attributed to weather, but there were a lot of other 
exigencies, as we all know--we've heard it all--from paperwork 
to lost crews, it goes on and on. So, we understand all that. 
The question is, is accountability.
    And what disturbs me more than anything else is that, above 
and beyond these tragic situations, we find that the industry 
is not adhering to its own, you know, Passenger Bill of Rights, 
the one that it had promised to adhere to, back in 1999 and 
2000. The fact is, as the IG said, and I'll say it again, only 
5 of the 13 members of your association are doing anything with 
respect to quality assurance or performance measurements 
systems. There are no audits of customer service protection 
plans, not looking at what's happening with delays and 
cancellations, and going to the gates and understanding, you 
know, whether or not they're providing timely announcements, 
and on and on it goes. And if you say that--it's really an 
abysmal report, in describing the industry. So, the industry is 
not policing itself.
    And I think it really has--you know, for all practical 
purposes, has really given tremendous disregard to customer 
service. And that's what, I think, you know, is something that 
we obviously have to address. But in this specific instance, it 
is critical. We have an obligation and responsibility, because 
billions and billions of dollars are spent by the Federal 
Government and the Federal taxpayers to support the industry, 
because it's in our national interest to do so, and because of 
matters of public safety.
    So, I don't understand why you would think that being 
entrapped on a plane without having the access to basic 
necessities is something that, you know, is warranted, and why 
any instance that has already been described here today would 
have happened under any circumstances, the kind of training 
that has not been provided and the kind of standards 
established by the industry itself, so it would avert these 
types of situations, irrespective of the reason.
    Thank you, Mr. Chairman.
    The Chairman. Thank you very much.
    I've learned, a long time ago, that when Senator Snowe and 
Senator Boxer get involved and latch onto an issue, it will be 
resolved.
    [Laughter.]
    The Chairman. I'd like to thank all of you for appearing 
today to testify. It's been very helpful. I know that it has 
been difficult in some cases, but I can assure you that the 
Committee will give your testimony very serious consideration.
    Thank you very much.
    [Whereupon, at 4:35 p.m., the hearing was adjourned.]
                            A P P E N D I X

               Prepared Statement of Hon. John F. Kerry, 
                    U.S. Senator from Massachusetts
    Thank you Mr. Chairman for holding this important hearing. There 
have been some high profile delays recently in which passengers have 
been stranded on planes, calling into question consumer protections 
within the airline industry. In January, an American Airlines flight 
bound for Dallas/Ft. Worth was stuck on the runway for 9 hours in 
Austin. In February, passengers on a JetBlue flight departing from 
Kennedy Airport were trapped on the plane for 11 hours. In both cases, 
the airlines were unable to get passengers back to the gate after it 
was obvious that these flights would be canceled. Passengers lacked not 
only adequate food and sanitary conditions, but just basic information 
as well.
    Perhaps the most striking aspect of these delays is the lack of 
Federal laws and regulations to protect passengers. Since 1999, the 
airlines have been operating under a voluntary agreement to address 
customer service issues including delays, complaints, lost baggage, and 
other issues. I think it's pretty clear that this voluntary approach is 
not working. In fact, it has allowed the airlines take a lackadaisical 
approach to their responsibilities and the Department of Transportation 
to skirt any serious oversight of customer service issues.
    I personally believe Congress should revisit the idea of a 
``Passenger Bill of Rights'' first proposed during the Clinton 
Administration and provide aggressive oversight to ensure that air 
travelers are protected when the airlines fail their customers. I know 
the airlines oppose any regulation in this area and prefer a market-
based solution, but it is clear to me that ``voluntary enforcement'' is 
not the answer. The airlines should not be policing themselves. There 
is no excuse for keeping passengers on the runway for 11 hours, and 
Congress needs to take action to solve these problems.
    I look forward to questioning the witnesses and working with the 
Chairman and Co-Chairman on these issues. Thank you.
                                 ______
                                 
 Prepared Statement of Hon. John Thune, U.S. Senator from South Dakota
    Chairman Inouye/Rockefeller, Vice Chairman Stevens/Lott, thank you 
for holding this hearing today. I would also like to thank our 
witnesses for their testimony. Nearly everyone who has ever flown has a 
disaster story of their own. Some are worse than others. Some of the 
stories that are being highlighted at today's hearing are among the 
worst.
    Senators are heavy users of our aviation system. I try to fly home 
to South Dakota every weekend to see my wife and one daughter still at 
home. I'm sure some of the members of the Committee think their flight 
delay and cancellation stories rank right up there with the worst of 
them. Unfortunately for the airlines, we get to see the good and the 
bad in their industry on a weekly basis.
    At first glance, the recent horror stories might seem like 
aberrations in an otherwise decent air service system. But if you look 
at the bigger picture, from say--the 30,000 foot level (pardon the 
pun)--the story remains the same. Flight delays are not decreasing. 
Airline customer service is not improving.
    Airlines on-time arrival rate according to the Department of 
Transportation was 73.1 percent in January 2007, down from 78.8 percent 
in January 2006. 588 flights waited on the tarmac for more than 2 hours 
in January 2007. This is nearly twice as many as January 2006, which 
had 298.
    The annual Airline Quality Rating report was released on April 2, 
2007. It found that on-time performance worsened across the industry 
with 75.5 percent flights arriving on time in 2006 compared with 77.3 
percent in 2005. More passengers were bumped from flights and more bags 
were lost or stolen last year than in 2005 as well. Perhaps the most 
disappointing statistic from the report was that despite worse 
performances by the airlines in 2006, complaints held steady. There 
were approximately 0.88 complaints for every 100,000 passengers, 
similar to 2005. Experts agree that customers are lowering their 
expectations.
    The airlines are arguing that further government regulation is not 
the answer. They lay out that airline operations are extremely complex, 
and that new, cumbersome regulations will not give them the flexibility 
they need to provide the best service. They also argue that the current 
market forces are strong enough to change airline behavior.
    I believe the jury is still out on their first point, but the 
second point is simply not the case. Passengers need more information 
about their flight options. If relevant airline performance information 
was presented to consumers when purchasing tickets and receiving their 
tickets, consumers would be in a better position to use this 
information to make educated travel decisions.
    It is for this reason that I have introduced the ``Informed Air 
Traveler Act'' today that would equip passengers with more information 
about their flight options. Passengers should be able to easily access 
on-time data, cancellation rates, and other information on the flights 
they are thinking about taking. Better informed travelers would make 
better decisions about which air carrier they will choose to get them 
to their destination in a timely manner. That should mean more 
competition as well. Airlines will have a greater incentive to improve 
their on-time performance if they know their customers will have this 
information and will be making purchasing decisions based on it.
    I am introducing this bill to get the debate going over what might 
be the best course of action necessary to reinvigorate competition 
among the airlines for not only price, but also the quality of service 
they provide. I hope we can make changes that will help turn around the 
statistics that have been offered up by me and other members of the 
Committee here today.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                          Michael W. Reynolds
    Question 1. There are reports that when flights are canceled, it is 
taking much longer for airlines to accommodate passengers on later 
flights than it has in the past. In some cases it is reported to take 
up to 3 days for passengers to find alternative flights.
    a. Why is it taking longer to find alternative flights for 
displaced passengers?

    b. What can the airlines do to address this growing problem?

    c. What can the Department of Transportation do?
    Answer. We have occasionally received anecdotal reports that it is 
taking longer to find alternative flights for passengers whose flights 
have been canceled. We are not aware of specific data indicating to 
what extent this problem has worsened. However, record load factors on 
passenger airlines (exceeding 80 percent), reductions in domestic 
capacity, and layoffs of customer service agents prompted by persistent 
financial losses for legacy carriers since 2001 all obviously 
contribute to the problem in re-accommodating passengers whose flights 
are canceled (or who miss their connecting flights). Until these 
problems are corrected, it is unlikely that the airlines will 
materially improve their performance in this regard. Mandates such as 
requirements that airlines accommodate their competitors' passengers, 
that they provide additional compensation, or maintain additional crew 
are not likely to work and would in any case impose massive costs on 
the industry. The Department is currently examining ways to ameliorate 
this problem, among other things, through more comprehensive disclosure 
by airlines to their customers of their rights in the event of a 
cancellation.

    Question 2. One proposal during the last round of hearings on this 
issue was to improve services for notifying travelers of delays. Nearly 
all airline travelers today have a cell phone, and some airlines 
already send a message to individual passengers telling them whether or 
not a flight is on time. How many airlines have a system in place to 
notify passengers of delays?
    Answer. The table below includes responses from the largest U.S. 
carriers regarding notification systems:


------------------------------------------------------------------------
                                                       Current plans or
                                                         contemplated
                                  Have system for    initiatives to make
                                     notifying            more seats
            Carrier               passengers about       available to
                                  expected delays?   reroute  passengers
                                                      whose flights were
                                                          canceled?
------------------------------------------------------------------------
United                          We proactively       Will do indirect
                                 contact passengers   reroutings and,
                                 via the contact      when necessary,
                                 info provided with   rerouting on other
                                 their reservation.   carriers with whom
                                Also, passengers      UA has an
                                 can sign up for a    agreement (243
                                 UA system called     carriers
                                 ``EasyUpdate''       worldwide).
                                 which will notify   ``A new initiative
                                 them of schedule     activated by our
                                 irregularities via   Inventory
                                 telephone, e-mail,   Management
                                 text message,        division provides
                                 pager, or fax.       for additional
                                                      seat inventory for
                                                      rebooking during
                                                      irregular
                                                      operations. This
                                                      is possible due to
                                                      higher customer no-
                                                      show rates during
                                                      the same time and
                                                      has proven to be
                                                      very successful
                                                      during recent
                                                      irregular
                                                      operations. From
                                                      April 3 through
                                                      April 25, 2007, we
                                                      were able to
                                                      accommodate an
                                                      additional 3,614
                                                      customers during
                                                      irregular
                                                      operations.''
                                                     Also, UA's
                                                      automated system
                                                      for rebooking
                                                      passengers
                                                      affected by
                                                      canceled flights
                                                      and potential
                                                      misconnections is
                                                      being enhanced to
                                                      permit less-direct
                                                      routings and
                                                      service on other
                                                      carriers.
------------------------------------------------------------------------
Continental                     Passengers can sign  CO strategically
                                 up to receive        ``pre-cancels''
                                 voicemail or e-      flights likely to
                                 mail messages        be affected by
                                 about schedule       severe weather.
                                 irregularities.
                                If passenger does
                                 not sign up, CO
                                 contacts
                                 passengers via the
                                 contact
                                 information in the
                                 reservation.
                                 However, 49
                                 percent of CO
                                 reservations
                                 arrive via third
                                 parties (travel
                                 agent, Expedia,
                                 etc.), and some of
                                 them don't provide
                                 passenger contact
                                 information for
                                 competitive
                                 reasons..
                                By the end of the
                                 year CO will begin
                                 asking every
                                 passenger no later
                                 than check-in for
                                 a means of contact
                                 that the carrier
                                 can use for the
                                 rest of the
                                 passenger's trip.
------------------------------------------------------------------------
Northwest                       Passengers affected  ``Northwest has not
                                 by a canceled        experienced any
                                 flight are           material
                                 rebooked by an       difficulty in
                                 automated system     rerouting
                                 and receive phone    passengers
                                 messages from        affected by a
                                 another automated    flight
                                 system.              irregularity.
                                Passengers can sign   Because this has
                                 up to receive        not been a problem
                                 notice of schedule   for us, we have no
                                 irregularities via   plans or proposed
                                 e-mail, pagers, or   initiatives to
                                 PDAs.                modify our current
                                                      procedures.''
                                                      Typical rerouting
                                                      on NW and other
                                                      carriers with whom
                                                      they have
                                                      agreements
                                                     In the ``rare''
                                                      instance when it
                                                      is appropriate, NW
                                                      may substitute a
                                                      larger aircraft in
                                                      order to
                                                      accommodate
                                                      passengers
                                                      rerouted from a
                                                      canceled flight
------------------------------------------------------------------------
Delta                           ``Delta Messenger''  Typical rerouting
                                 system: passengers   on DL, DL
                                 who sign up are      codeshare
                                 advised of flight    carriers, and
                                 delays and           other carriers (in
                                 cancellations via    that order). DL
                                 phone, pager or e-   will ``often''
                                 mail (passenger's    substitute a
                                 preference). Goal    larger aircraft on
                                 is to do so 3        the next flight to
                                 hours prior to       accommodate
                                 flight.              passengers
                                                      affected by a
                                                      schedule
                                                      irregularity.
------------------------------------------------------------------------
Southwest                       ``Flight Status      * Construct
                                 Messaging'':         unpublished
                                 Passengers who       connections on
                                 sign up will         existing flights.
                                 receive a text      They add ``flag
                                 messages to his/     stops'' to nonstop
                                 her cell phone,      flights when
                                 pager, PDA or e-     necessary to
                                 mail address.        accommodate
                                Before the December   passengers
                                 holidays Southwest   affected by a
                                 hopes to have a      schedule
                                 system that will     irregularity.
                                 automatically call
                                 passengers
                                 affected by a
                                 schedule
                                 irregularity.
------------------------------------------------------------------------

    Question 3. Is there a system in place that tracks delays and their 
causes, and notifies passengers of the reason so they can seek 
compensation if appropriate?
    Answer. Pursuant to 14 CFR Part 234, the largest U.S. carriers are 
required to file monthly on-time performance data with the Department, 
which data includes one of five causes of delay: weather; carrier 
(e.g., mechanical or crew); National Airspace System (e.g., FAA ground 
hold and airport construction); security (e.g., closing of a concourse 
for security-related purpose); and late arriving aircraft. Including 
two carriers that voluntarily file on-time performance data, a total of 
20 carriers file such data. That information is available to the public 
on the website of the Department's Bureau of Transportation Statistics. 
There is no requirement that carriers notify passengers directly of the 
cause of a delayed flight. However, most carriers that have instituted 
customer commitments promise to update passengers about the delay 
status of their flights.

    Question 4. Has the DOT been looking at any options to provide 
consumers with better information about the history of their flights in 
the event they are chronically delayed or canceled?
    Answer. Yes. Based on the on-time reporting required of carriers 
under 14 CFR Part 234, the Department's Bureau of Transportation 
Statistics maintains historical data regarding the on-time performance 
of all flights operated by the reporting carriers, including the number 
of canceled and diverted flights. On-time information by flight number, 
including the percentage of flights that are at least 15 minutes late, 
the length of delays and the percentage of cancellations, is available 
to the public on the website of the Department's Bureau of 
Transportation Statistics. Under Part 234, carriers that are required 
to file on-time performance data with the Department are currently 
required to advise passengers, upon request, of the on-time performance 
of any flight about which the passenger is inquiring, whether or not it 
has been chronically late or canceled. In addition, in its monthly Air 
Travel Consumer Report (ATCR), the Department identifies specific 
flights that arrived late at their destination at least 80 percent of 
the time and provides general information regarding the percentage of 
each carrier's total flights that arrived late at least 70 percent of 
the time. The ATCR also provides an hour-by-hour breakdown of on-time 
arrival performance at the Nation's major airports so that consumers 
can see the best and worst times to arrive at these destinations. The 
ATCR is available on the Department's website. We are in the process of 
reviewing various ideas and proposals relating to airline consumer 
data, but we do not have any formal proposals at this time.
    We are considering improvements to the data reported by the 
airlines under Part 234. The Bureau of Transportation Statistics held a 
public meeting on June 20 to receive comments on how flights that 
depart the gate, return to the gate and depart again should be 
reported. BTS also asked for comments on reporting tarmac times for 
flights that are subsequently canceled and reporting additional 
information on diverted flights. The docket (RITA-2007-28522) remains 
open for comments until about the end of July.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                          Michael W. Reynolds
    Question 1. Many of the customer service issues addressed at the 
hearing are governed by a voluntary industry-wide agreement in 1999. It 
would help if you could clarify the Department of Transportation's 
(DOT) role in preventing incidents like the American and JetBlue delays 
and its authority to protect passengers from poor service and 
mistreatment. Does the DOT have the authority to require an airline to 
return passengers to the gate during delays or allow them to exit in 
some other manner? If yes, why didn't it intervene with American and 
JetBlue? If not, should it?
    Answer. Yes, the Department has the authority to require an airline 
to return passengers to the gate or permit them to exit the aircraft in 
some other manner during a delay, but there is currently no rule 
covering such situations. The Department would be required to pursue 
any such requirements through a rulemaking proceeding. Any such rule 
would have to take into account the logistical issues created by a 
requirement of this sort including the possibility that it would 
exacerbate delays for passengers who do not desire to de-plane. The 
Department believes it is important that airlines live up to the 
commitments made several years ago to meet passengers' essential needs 
(food, water and access to working lavatories) during prolonged on-the-
tarmac delays. Secretary Peters has asked the Department's Inspector 
General to investigate the American and JebBlue situations and to 
provide her with recommendations. We are awaiting his report, including 
any recommendations, to determine if rulemaking might be in the public 
interest.

    Question 1a. Can you describe the Department's response to the 
American Airlines and JetBlue incidents?
    Answer. In response to the American and JetBlue incidents, 
Secretary Peters asked the Department's Inspector General to 
investigate the situations and provide her with recommendations.

    Question 1b. Was the DOT or Federal Aviation Administration (FAA) 
aware that these planes were sitting on the runway?
    Answer. Yes, the FAA Air Traffic Controllers were aware that the 
American and JetBlue aircraft were on the respective runways involved.

    Question 1c. Was there any discussion about intervening?
    Answer. Absent extraordinary circumstances, such as those affecting 
the safe operation of a flight, it is not the Department's, including 
the FAA's, practice to intervene in a carrier's decision about whether 
to maintain its aircraft on a tarmac waiting for a break in inclement 
weather so that it could transport its passengers to their ultimate 
destination.
    With respect to JetBlue, the FAA'sAir Traffic Control System 
Command Center and local JFK facility contacted JetBlue to determine 
whether they required assistance. In these situations, the FAA can 
offer assistance in the form of reprioritization of flights and revised 
traffic flow management strategy. JetBlue did not avail themselves of 
this assistance.
    The same was true for American Airlines. They also elected not to 
avail themselves of the services that could have been provided by the 
FAA.

    Question 1d. Did the DOT touch base with airline officials and 
express concern?
    Answer. A decision about whether or not to stay on the tarmac 
awaiting a break in the weather in order to take off is generally a 
matter within the purview of each individual carrier. The FAA 
intervenes in such matters only if necessary to preserve safety or 
system efficiency. Subsequent to the incidents, the Department 
contacted each carrier and asked for an explanation of the respective 
incidents.

    Question 1e. Can the DOT fine American and JetBlue for these 
inexcusable delays? If so, will it?
    Answer. No regulation prohibits a carrier from deciding to maintain 
its aircraft on a tarmac while waiting for a break in inclement weather 
so that it can transport its passengers to their ultimate destination. 
Therefore, neither carrier violated any rule that would give rise to a 
civil penalty. Air transportation is subject to conditions of carriage 
that the airlines must disclose to their passengers; carriers that 
violate these conditions can be held accountable for breach of 
contract.

    Question 2. In his written testimony, the DOT Inspector General 
Scovel concludes that the Department has not done enough to respond to 
passenger complaints. Specifically, as a part of a 2006 review, he 
explains that:

        DOT was using its additional resources to oversee and enforce 
        air travel consumer protection requirements with a focus on 
        investigations and enforcement of civil rights issues, 
        including complaints from passengers with disabilities. But, 
        when DOT discovered violations and assessed penalties, it 
        almost always forgave the penalty if the air carrier agreed to 
        mitigate the conditions for which the penalty was assessed. 
        DOT's follow-up monitoring of compliance with these conditions 
        was limited, and in some cases there was no follow-up 
        monitoring at all. In recent years, DOT has not conducted on-
        site compliance reviews, relying instead on air carriers' self-
        certifications and company-prepared reports submitted without 
        supporting documentation.

    Is this criticism valid? Is the airline industry policing itself?
    Answer. We believe this testimony creates a misimpression as to how 
these matters have been, and continue to be, handled. In a deregulated 
environment it is initially the carriers' responsibility to provide 
acceptable levels of customer service. However, the airline industry 
has not been left to police itself. If the Department has evidence that 
a carrier or the industry is engaged in an unfair or deceptive 
practice, it may through individual enforcement actions brought by its 
Aviation Enforcement Office, or through industry-wide rulemaking, where 
appropriate, act to prohibit such conduct. The Aviation Enforcement 
Office does not forgive civil penalties assessed a carrier solely 
because ``the carrier agree[d] to mitigate the conditions for which the 
penalty was assessed.'' Rather, in the typical case resulting in a 
consent order, the carrier must come into compliance before the 
Aviation Enforcement Office will agree to settle the violations in 
question. While, as part of a settlement of violations the Aviation 
Enforcement Office often suspends up to 50 percent of the assessed 
civil penalty for a period of time, it is important to note that the 
consent orders require that before the suspended portion of the 
assessed civil penalty can be ultimately forgiven, the carrier must 
have first paid the portion of the assessed penalty that was due and 
have committed no additional violations of a similar nature over the 
12-24 month period following the issuance of the order. In all consent 
orders, carriers are required to cease and desist in perpetuity from 
the conduct that gave rise to the penalty. Some consent orders contain 
``offsets'' in which a carrier agrees to take remedial action above and 
beyond that which is required by law in exchange for a reduction in the 
portion of the assessed civil penalty that would otherwise be paid to 
the government.
    Through these types of settlements of potential violations, the 
Aviation Enforcement Office seeks to provide carriers a strong 
incentive to comply with Department requirements and to improve airline 
customer service instead of merely requiring civil penalties to be paid 
into the U.S. Treasury. While the Aviation Enforcement Office's follow-
up monitoring of carrier compliance with enforcement orders has been 
more limited, due to both monetary and personnel resource limitations, 
than the Inspector General felt appropriate, importantly he did not 
note a single case where a carrier had failed to implement the 
compliance matters that it had certified to the Aviation Enforcement 
Office as having been completed. As described below, the Aviation 
Enforcement Office has nevertheless taken steps to improve its 
monitoring of carrier compliance.

    Question 2a. Can you explain what you are doing to address these 
deficiencies?
    Answer. As stated above, we believe that the Inspector General's 
statement gives the wrong impression regarding our actions in this 
area. Nevertheless, the Aviation Enforcement Office has revised its 
monitoring efforts, including implementing a computerized tracking 
system to improve its monitoring of compliance with enforcement orders. 
In addition, that office has a plan to conduct on-site compliance 
reviews, resources permitting, of carriers in connection with its 
review of chronically delayed flights.

    Question 2b. Would the Department support new legislation to 
improve service within the airline industry?
    Answer. The Department would need to have an opportunity to review 
such legislation before being able to comment. The Department generally 
believes that our focus should be on ensuring that consumers have 
complete and adequate information regarding airline service 
commitments--and their remedies in event of failure to provide promised 
services--at the point of purchase such that marketplace forces 
incentivize airlines to improve.

    Question 2c. Would it support enacting the 1999 voluntary agreement 
into law?
    Answer. The customer commitments are already part of the contract 
of carriage of most airlines and are therefore enforceable by consumers 
to the extent that carriers fail to abide by their terms.

    Question 2d. Would Secretary Peters support a bill requiring the 
airlines to return passengers to the gate after a 3-hour delay?
    Answer. Secretary Peters is awaiting the report of DOT's Inspector 
General regarding the American and JetBlue situtations, including any 
recommendations he might make, to determine what if any action might be 
in the public interest.

    Question 2e. Six months from now, absent Congressional 
intervention, what changes will the Department have implemented to 
improve oversight over customer service issues?
    Answer. The Department's Aviation Enforcement Office has a number 
of pending enforcement cases involving consumer protection matters that 
should be completed by then and anticipates opening many more within 
the next 6 months. In addition, following receipt of the Inspector 
General's report, the Department will consider what other measures are 
needed.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                          Michael W. Reynolds
    Question 1. In the early 1990s, the U.S. Supreme Court made it 
clear that the U.S Department of Transportation and not State Attorneys 
General have the authority to pursue unfair and deceptive practices and 
unfair methods of competition with respect to an air carrier or ticket 
agent. In your testimony, you cite a section of U.S. Code that 
addresses this subject (49 U.S.C. 41712). To paraphrase, the Secretary 
may begin an investigation based on a complaint of a U.S. or foreign 
air carrier, ticket agent or on the Secretary's own initiative if it is 
in the public interest. If the Secretary finds that a party is engaged 
in an unfair or deception practice, the Secretary shall order them to 
stop. Under Secretary Peters, how many investigations have been 
initiated under this section of the U.S. Code? How many have been 
completed?
    Answer. Since September 30, 2006, the date Secretary Peters was 
confirmed by the U.S. Senate, at least 80 cases involving potential 
violations of 49 U.S.C. 41712 have been opened by the Department's 
Office of Aviation Enforcement and Proceedings. Additionally, since 
Secretary Peters' confirmation, the Aviation Enforcement Office has 
continued or completed work on numerous other cases involving potential 
violations of section 41712 that were opened before her confirmation.

    Question 2. Of the total, how many of the investigations were 
started at the Secretary's initiative? How many of these investigations 
involved airline consumer complaints?
    Answer. The Department's Office of Aviation Enforcement and 
Proceedings is responsible for instituting investigations involving 
potential violations of 49 U.S.C. 41712. Many resulted in whole or in 
part from consumer complaints but records are not kept in this regard.

    Question 3. Are the results of these investigations public? If so, 
outside of what the Secretary asked Mr. Scovel to look into, could you 
provide me with an example where the Department initiated an 
investigation involving consumer complaints and what the resulting 
remedy was?
    Answer. The results of investigations that have been completed are 
publicly available. An example of an enforcement action initiated due 
to consumer complaints involves the Enforcement Office's investigation 
and enforcement action against Ritetime Travel and Tours, which 
stranded hundreds of charter passengers in Nigeria and the United 
States when it failed to pay for charter flights as promised. That 
investigation, begun as a result of consumer complaints, resulted in 
two consent orders to cease and desist from violations of the 
Department's charter rules: one against World Airways assessed civil 
penalties totaling $350,000; the other against Ritetime and its 
principal assessed civil penalties of $220,000 and banned the principal 
from involvement with public charter operations for 1 year.

    Question 4. Should the current rules be changed to allow the 
Secretary to initiate investigations based on airline consumer 
complaints?
    Answer. There is no need to do so. The Department already has 
statutory authority and rules in place that permit investigations based 
on consumer complaints.

    Question 5. In your testimony, you say that the 49 U.S.C. 41712 is 
enforceable but violations can be difficult to demonstrate. How so?
    Answer. Enforcement actions based on section 41712 require the 
Aviation Enforcement Office to demonstrate that the conduct in question 
amounts to an unfair and deceptive practice. Proving violations of this 
standard remains, in the absence of an specific regulations proscribing 
certain conduct, highly fact specific. Because the statute requires the 
carrier to be engaging in a course of conduct that amounts to an unfair 
or deceptive ``practice,'' such cases require extensive investigation 
to prove violations. Enforcement investigations that are not based on 
existing regulations are therefore very resource intensive and the 
outcome is not assured.

    Question 6. If the Secretary finds a carrier is engaged in an 
unfair or deceptive practice, outside of ordering them to stop, what 
authority under current law does the Secretary have to penalize the 
carrier for its actions?
    Answer. Pursuant to 49 U.S.C. 46301, carriers are subject to civil 
penalties of up to $25,000 per violation and, in the case of a 
continuing violation, $25,000 for each day each such violation 
continues.

    Question 7. Mr. Scovell testified that if a carrier agrees to fix 
violations discovered by the Department, the Department, as a matter of 
practice, has not assessed penalties against the carrier. That does not 
seem as much of a deterrent. It seems to me that the Secretary may need 
explicit authority to penalize parties found to be in violation. Do you 
agree?
    Answer. The Department already has authority to penalize parties 
found to have violated applicable statutes or Department regulations 
and orders and its Aviation Enforcement Office uses that authority 
vigorously. The Aviation Enforcement Office has never had a practice of 
not assessing a civil penalty in an enforcement order against a carrier 
if the carrier agrees to fix the violation in question. Between October 
2006 and May 2007, cases brought by the Aviation Enforcement Office 
have resulted in more than 15 consent orders directing carriers and 
travel companies such as air charter brokers and travel agencies to 
cease and desist from further violative conduct and assessing them a 
total of almost $1.5 million in civil penalties. In each of those cases 
the Aviation Enforcement Office demands that the airline or other 
respondent agree to cease and desist from future violations. A civil 
penalty was not assessed in only one of those cases.
    The Aviation Enforcement Office, on occasion, may close a matter 
without seeking civil penalties or with only a warning, where 
appropriate, such as where the company involved is a small business (a 
factor Congress requires be taken into account) and/or where the 
violation is inadvertent, minor or an isolated instance and the matter 
is corrected immediately or resolved to consumers' satisfaction. 
Between October 2006 and May 2007, the Enforcement Office issued 25 
warning letters to carriers and travel companies. Thus, with the 
exception of these limited circumstances, the Aviation Enforcement 
Office seeks an enforcement order when it can prove violations and in 
those cases it obtains enforcement orders that invariably include civil 
penalties even in instances where a carrier agrees to correct a 
violation.
    There has been some misunderstanding regarding the Enforcement 
Office's use of forgiveness provisions and offset provisions in 
connection with its settlement of enforcement cases. The Aviation 
Enforcement Office does seek to provide carriers every incentive to 
comply with the law and Department regulations. Moreover, it seeks to 
have carriers provide services, beyond what is required under law or 
Department rules, that are beneficial to consumers. In this regard, 
enforcement orders often include a provision whereby one-half of an 
assessed civil penalty is paid and the other half is suspended and will 
ultimately be forgiven after a period of time, usually one or 2 years, 
if the carrier commits no further violations during that time period. 
Carriers subject to this form of order thus have an additional 
incentive to achieve future compliance. Other enforcement orders seek 
to obtain from carriers services or benefits to consumers that are 
above and beyond what would be required under existing law and 
Department rules. For example, although there is no requirement that 
carriers provide civil rights training to their employees, several 
recent consent orders required that individual carriers expend as much 
as $1,500,000 in such efforts in lieu of civil penalties. Additional 
services or benefits are also agreed upon as offsets to civil penalties 
assessed and otherwise due and payable. Thus, to the extent, carriers 
are able to expend funds toward those agreed upon matters, the 
unexpended funds would be paid to the U.S. Treasury in the form of a 
civil penalty.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Daniel K. Inouye to 
                       Hon. Calvin L. Scovel III
    Question 1. In your testimony, you state the DOT, through its 
office of the General Counsel, should take a more active role in and 
increase scrutiny of airline customer service issues. What additional 
activities do you propose, and how would they address the various 
airline operational problems that have occurred over the past several 
months?
    Answer. There are at least two actions that the Department can 
undertake immediately to address the various airline operational 
problems that occurred this past winter. First, the Department's Office 
of Aviation Enforcement and Proceedings (OAEP)--in collaboration with 
FAA, airlines, and airports--should review incidents involving long, 
on-board ground delays and their causes; identify trends and patterns 
of such events; and implement workable solutions for mitigating 
extraordinary flight disruptions.
    Second, to provide a better sense of the magnitude of long, on-
board delays, the Department should require that each air carrier's 
monthly Airline Service Quality Performance Report include gate 
departure times when an aircraft returned to the gate, since some 
carriers report initial gate departure times and others report a second 
gate departure time. Carriers should also report gate departure times 
when a flight is ultimately canceled, which they are not currently 
required to do. The Department is examining these reporting issues; DOT 
officials met with industry groups and airlines on June 20, 2007, to 
discuss better ways of reporting flight delays caused by cancellations 
and diversions.

    Question 2. I understand the difficulty in determining a cut-off 
time at which passengers who choose to deplane are permitted to get off 
the aircraft. In these cases of extreme delay, I am told that there is 
often a credible expectation by the pilots, the airline, and air 
traffic controllers that the flight will be able to leave within the 
next \1/2\ hour, but that time can extend to several hours because of a 
snowballing sequence of events. From an operational standpoint, what 
would be the process for permitting a plane to return to a gate to 
deplane passengers while still retaining its place in line for take 
off?
    Answer. The process for permitting a plane to return to a gate to 
deplane passengers while still retaining its place in line for take off 
is properly within the purview of the Federal Aviation Administration 
(FAA). FAA has operated for many years under a ``first come, first 
serve'' rule when it comes to the departure sequence. However, the 
standing rule has been that the plane must go to the end of the queue 
if it needs to return to a staging area to de-ice or to a gate to 
deplane passengers.
    There are some exceptions. Airlines have what they call 
``advocates'' in the air traffic control tower who may be able to 
negotiate on a one-time basis a return to a higher place in the queue; 
but generally, the aircraft goes back to the end of the queue. As far 
as regulatory barriers, FAA certainly possesses the ability to change 
its current rule.

    Question 3. Understanding that luggage would be an obvious problem, 
what is the feasibility of allowing some sort of ground transportation, 
such as a bus, out to a plane waiting in line to pick up passengers 
wishing to deplane because of an extended delay?
    Answer. The practice of using ground transportation, such as 
portable people movers or buses, to pick up passengers wishing to 
deplane because of an extended delay exists at all large and medium-
sized airports and probably at many smaller commercial airports. 
Passengers were deplaned via ground transportation at some airports in 
the December 2006 incident involving American Airlines and the February 
2007 incident at JFK involving JetBlue and other airlines. Some 
airlines operate their own ground transportation while others contract 
this service with a third party or request assistance from airports 
that operate their own ground transportation. Of course, deplaning 
passenger in this way would be highly safety dependent and would depend 
on the passengers' conditions and the ability of ground personnel to 
move about safely under all conditions, especially in severe weather 
conditions.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. John F. Kerry to 
                       Hon. Calvin L. Scovel III
    Question 1. Can you describe the scope of your investigation into 
the American Airlines and JetBlue delays?
    Answer. Our review of American Airlines and JetBlue Airways, which 
was requested by Secretary Peters, focuses primarily on the events that 
occurred on December 29, 2006, at Dallas/Fort Worth International (DFW) 
and Austin-Bergstrom International Airports and on February 14, 2007, 
at JFK involving long, on-board ground delays. We are examining whether 
passengers' essential needs were met; especially those who were 
stranded aboard aircraft on the airport tarmac, in some cases, for 9 
hours or longer. We are also reviewing what actions American Airlines 
and JetBlue Airways have taken to prevent a recurrence of such events. 
We can report that American and JetBlue have revised their operating 
practices for mitigating long, onboard delays. For example, American 
instituted a new policy designed to prevent onboard delays from 
exceeding 4 hours. JetBlue also set a time limit of 5 hours maximum 
duration for any long, on-board delay away from a gate.

    Question 2. Did American and JetBlue violate any Federal 
regulations? What authority does the Department have to penalize them?
    Answer. Based on our review of the events of December 29, 2006, and 
February 14, 2007, we are not aware of any Federal regulations that 
American Airlines or JetBlue Airways violated, including violations of 
access for air travelers with disabilities. The Airline Customer 
Service Commitment provision dealing with ``meeting passengers' 
essential needs during long, on-board delays'' is not governed under 
the Department's existing air travel consumer protection rules, so the 
Department cannot penalize the airlines for non-compliance with the 
provision.

    Question 3. The airlines claim that it is difficult to bring 
passengers back to a gate when there are delays. Is this true? Are you 
investigating the availability of gates at Dallas/Ft. Worth and Kennedy 
airports to determine if American and JetBlue could have brought their 
passengers back to the terminal earlier?
    Answer. There may be situations or conditions that make it 
difficult to bring passengers back to a gate during long, on-board 
delays. What we identify as problems, mainly, are the physical layouts 
of the airports. Some airports; by virtue of their location, design, 
and more modern age; may be able to safely accommodate this type of 
aircraft movement. Other airports, because they are much more crowded 
and narrow, may not be able to accommodate aircraft moving about in 
this way or guarantee passenger safety.
    In our review of the American Airlines and JetBlue Airways 
incidents, we examined whether gate availability was a factor in 
passengers being stranded aboard aircraft for extended periods of time. 
For American Airlines at DFW on December 29, 2006, gate availability 
was not a factor, and the few long, on-board delays that American's 
passengers experienced there resulted from a series of ramp closures 
due to lightning, which effectively shut down the airport for extended 
periods of time.
    On that same day at Austin-Bergstrom International Airport, a 
combination of factors resulted in American's passengers experiencing 
long, on-board delays, including gate availability, staffing shortages, 
and communications breakdowns between flight crews and American's local 
dispatch office at the airport. At one point, the airport made a gate 
available for 1 of American's 11 diverted flights, but American did not 
have the ground crew available to direct a flight safely to the gate.
    For JetBlue Airways at JFK on February 14, 2007, gate availability 
was the primary factor in passengers experiencing long, on-board 
delays. JetBlue operates 21 gates at JFK and at one point during the 
day had 52 aircraft scattered around the airport. JetBlue called other 
airlines, including foreign airlines, to see about available gates, but 
no gates were available. The airport also unsuccessfully tried to 
assist JetBlue in finding gates for its flights. Based on our review of 
the events of that day, it appears that the airlines and airports were 
trying to help each other; however, the severe weather hampered much 
movement of aircraft on the airfield.

    Question 4. Do you believe the voluntary agreement governing 
airline service is working?
    Answer. There are certain areas where the Commitment provisions are 
working well but the greatest progress is not directly associated with 
whether a flight is delayed or canceled. These areas are: quoting the 
lowest fare, holding non-refundable reservations without penalty, 
responding in a timely manner to complaints, and paying larger sums for 
lost luggage. However, as we found in our 2006 review of selected 
Commitment provisions, the airlines must refocus their efforts on 
airline customer service by resuming efforts to self audit their 
customer service plans, emphasizing to their customer service employees 
the importance of providing timely and adequate flight information, 
disclosing to customers chronically delayed flights, and focusing on 
the training for personnel who assist passengers with disabilities.

    Question 5. Should it be mandatory under Federal law?
    Answer. Currently, the debate is over the best way to ensure 
improved airline customer service: either through voluntary 
implementation by the airlines, legislation, additional regulations, or 
some combination of these. This is clearly a policy issue for Congress 
to decide. As it did in 1999 and 2001, Congress is again considering 
whether to enact a ``passenger bill of rights,'' with legislation 
pending in both the House and Senate.

    Question 6. Do you think a ``Passenger Bill of Rights'' is a good 
idea?
    Answer. Many of the provisions of the Airline Customer Service 
Commitment are already governed under existing Federal regulations, 
such as baggage liability limits, proper accommodations for passengers 
with disabilities and special needs, prompt ticket refunds, and denied 
boarding compensation. There are also provisions that Federal 
regulations require to be in the airlines' contracts of carriage, such 
as disclosing policies for flight cancellations and ticket refunds.
    We are not opposed to a legislative mandate that would require 
airlines to do what they promised to do, that is: (1) define what 
constitutes a long, onboard delay, (2) set a time limit on delay 
durations before deplaning passengers, (3) incorporate such policies in 
their contracts of carriage and post them on their websites, and (4) 
work with airports to minimize long, on-board delays. With regard to 
other issues, such as the provision of meeting passengers' essential 
needs, a consistent policy across the industry would certainly be 
helpful to customers. We would certainly endorse that.

    Question 7. In my statement, I said I am concerned that the airline 
industry is policing itself and that the DOT has taken a lackadaisical 
approach to its oversight responsibilities. Do you agree with this 
assessment?
    Answer. The Department's OAEP is the division within the Office of 
the General Counsel that enforces the Department's air travel consumer 
protection rules. These rules encompass many areas, including unfair 
and deceptive practices and unfair methods of competition by carriers 
and travel agents.
    The OAEP also has the authority to investigate and enforce 
violations of rules governing denied boarding compensation, access for 
travelers with disabilities, ticket refunds, and airline quality 
service performance reporting. When violations occur, the OAEP can 
pursue enforcement action, which may range from warning letters, to 
civil penalties, to litigation in U.S. District Courts.
    In our 2006 review of selected airline customer service areas, we 
found that while the OAEP has made efforts to enforce civil rights 
violations, it needs to improve its oversight of consumer protection 
laws, including its efforts to monitor compliance with the terms and 
conditions of enforcement actions. In recent years, the OAEP has not 
conducted onsite compliance reviews; instead, it relies on air 
carriers' self-certifications and company-prepared expense summaries 
submitted without supporting documentation.
    We also found that the enactment of new laws such as AIR-21 
mandated several additional consumer protection responsibilities to be 
carried out by the OAEP, including: a new aviation civil rights 
provision; a provision requiring individual, comprehensive 
investigations of each disability-related complaint received by the 
OAEP; a provision extending the air carrier disabled passenger 
discrimination law (Air Carrier Access Act) to foreign air carriers; 
and new data collection and reporting requirements. The new workload 
has drawn OAEP resources away from its more traditional consumer 
protection activities. Traditional consumer protection activities that 
have been curtailed include investigating the availability of 
advertised fares and consumers' ability to redeem frequent flyer award.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                       Hon. Calvin L. Scovel III
    Question 1. Mr. Scovel, do you think the legal authority Mr. 
Reynolds cites under 49 U.S.C. 41712 provides an adequate framework for 
the Department to address airline consumer complaints? Do you think 
that the current process is effective?
    Answer. 49 U.S.C. Section 41712 provides indirect rather than 
direct authority to address airline consumer complaints. During our 
work on airline customer service issues over the last several years, we 
have found that, historically, the broad unfair and deceptive practice 
authority in section 41712 has not been used effectively by the 
Department to address airline customer service issues.

    Question 2. It seems to me that it is a high hurdle to translate 
airline passenger complaints into the language of an unfair and 
deceptive practice. For example, in Mr. Hudson's testimony, he says 
airlines have an incentive to schedule flights at the most popular 
times even if they know that the scheduled times cannot be met due to 
airport capacity and overcrowding. Do you know if the Department has 
looked into this issue at all?
    Answer. First, the Department maintains--and we agree--that 49 
U.S.C. Section 41712 provides the legal authority to pursue 
investigation and take enforcement actions for unrealistic scheduling 
practices. The theory is that when airlines schedule flights that 
rarely arrive or depart as scheduled, their actions are deceptive to 
the consumer.
    Second, we understand that the Department has launched an 
investigation into unrealistic scheduling practices and has sent 
investigatory letters to all major carriers to understand how a flight 
could be late 70 or 80 percent of the time for 2 to 3 consecutive 
months.

    Question 3. Should the current rules be changed to allow the 
Secretary explicitly to initiate investigations based on airline 
passenger complaints?
    Answer. The Office of the Secretary has such authority, through the 
Office of General Counsel, to initiate investigations based on airline 
passenger complaints and shall, by law, investigate all complaints it 
receives from air travelers with disabilities. In our 2006 review on 
airline customer service issues, we found that the Department oversees 
and enforces air travel consumer protection requirements with a focus 
on investigation and enforcement of civil rights issues, including 
complaints from passengers with disabilities. Investigations based on 
other airline passengers complaints, such as availability of advertised 
fares and consumers' ability to redeem frequent flyer award, are 
limited and the Department can only take enforcement action when 
violations occur.
    But, when DOT discovered violations and assessed penalties, it 
almost always either forgave the penalty as an incentive for the air 
carrier's future compliance or offset a significant portion of the 
penalty if the air carrier agreed to improve service to the consumer 
above and beyond what is required by existing rules or the air 
carrier's contract of carriage. DOT's follow-up monitoring of 
compliance with these conditions was limited, and, in some cases, there 
was no follow-up monitoring at all. In recent years, DOT has not 
conducted onsite compliance reviews; instead, it relies on air 
carriers' self-certifications and company prepared reports submitted 
without supporting documentation.

    Question 4. Should the Office of the Secretary have explicit 
authority to penalize a carrier if it finds it is engaged in an unfair 
or deceptive practice?
    Answer. 49 U.S.C. Section 41712 provides the Office of the 
Secretary with authority to take enforcement actions when it finds an 
air carrier engaged in unfair and deceptive practices. When violations 
occur, the Department pursues enforcement action, which may range from 
warning letters, to civil penalties, to litigation in U.S. District 
Courts.

    Question 5. Do you think the Department might benefit from looking 
into how the Federal Trade Commission addresses unfair and deceptive 
practices and unfair methods of competition?
    Answer. During our 2006 review of airline customer service issues, 
we met with Federal Trade Commission lawyers and examined the 
Commission's model for best practices. The Department would benefit 
from learning more about how the Federal Trade Commission handles the 
industries it regulates.
                                 ______
                                 
   Response to Written Question Submitted by Hon. Maria Cantwell to 
                              James C. May
    Question. You testified that market mechanisms will bring about the 
appropriate changes in addressing airline passenger service complaints. 
At larger airports, where there are multiple carriers competing on 
routes, I can understand your point. But as the Subcommittee has 
learned in earlier hearings, there are a number of regional and smaller 
markets where consumers have limited choices to get from point A to B. 
In these instances, I am concerned that there is not sufficient 
competition for market mechanisms to sort things out on its own. How do 
you respond?
    Answer. The fact that there may be fewer flight choices at some 
airports does not affect the marketplace impact on air carriers with 
respect to customer service because this is not an airport-specific or 
market-specific issue. In today's world, customer service problems at 
even the smallest commercial service airports draw media coverage and 
attention.
    My comment about market mechanisms and customer service relates to 
the fact that our airline members have set national policies for the 
treatment of passengers in their contracts of carriage and on their 
websites. Those national policies on customer service differentiate 
among passenger airlines; they differentiate our carriers as well as 
non-ATA airlines from each other.
    That policy is the same for very rural, middle-sized or large 
airports. So while only one airline may serve a very rural area, there 
is competition among the carriers on a national basis to offer quality 
service. This creates market incentives for each airline to offer 
reliable and efficient customer services throughout the Nation.
                                 ______
                                 
     Response to Written Questions Submitted by Maria Cantwell to 
                           Edmund Mierzwinski
    Question 1. As you know, in 2000, existing airlines agreed to 
include an Airline Customer Service Commitment into their customer 
agreements, called ``conditions of carriage,'' which are legally 
enforceable by the customer against the airline. How difficult is it 
for consumers to enforce these agreements? Do you have any good 
examples?
    Answer. It is U.S. PIRG's understanding that only some airlines 
have made their Customer Service Plan (CSP) commitments part of their 
Contract of Carriage. Of the 8 airlines that the Aviation Consumer 
Action Project and the Coalition for an Airline Passengers' Bill of 
Rights recently surveyed for the CAPBOR Airline Stranding Report Card, 
as of 6/12/07 United, Delta, Continental and Southwest had CSPs that 
were not legally binding, American had some essential needs commitments 
in its contract of carriage but these were qualified as ``subject to 
availability", and only US Airways, JetBlue and Northwest do include 
their CSP commitments in their contract of carriage.
    But the CSPs--even if in the Contracts of Carriage--are not 
enforceable as a practical matter because:

        (a) airlines claim Federal law (using language in the Airline 
        Deregulation Act of 1978) pre-empts any legal action in state 
        courts, including small claims courts where such enforcement 
        would normally occur,

        (b) such claims generally could not be brought in Federal 
        courts for jurisdictional and cost reasons,

        (c) the DOT and airlines have no arbitration or dispute 
        resolution system as is customary for consumer disputes in many 
        industries (the CSPs typically only provide that the airline 
        will ``respond'' to a customer complaint/claim within 60 days), 
        and no provision for a neutral decisionmaker for customer 
        disputes,

        (d) there is no penalty for violations of CSPs and all 
        Contracts of Carriage state they exclude punitive damages, 
        consequential damages, out of pocket expenses for alternate 
        transportation and expenses, pain and suffering, inconvenience, 
        therefore generally limiting damages to ticket refunds or lost 
        baggage compensation up to the regulatory limit of $3,000, etc.

    What is needed are specific provisions that are required by statute 
or regulation to protect consumers that must be included in the 
contract of carriage as is customary for insurance contracts, and most 
other contracts of adhesion that are imposed on consumers by providers 
of services to the general public, where there is no realistic 
possibility of negotiation of the terms of the contract. Also 
enforcement provisions that are low cost and speedy (like small claims 
court or non-binding arbitration with time limits) are a necessity for 
consumer disputes. Another possibility is to provide for treble damages 
and/or attorney fees where an airline rejects a customer claim that is 
later upheld by a court or arbitrator. Fines for a pattern of CSP 
violations or egregious behavior or bad faith rejections of consumer 
claims should also by imposed by DOT. And because DOT has a long 
history of lax or no enforcement and waiving the low fines it does 
impose, consumers should be empowered as in antitrust cases to bring 
class actions or enforcement actions in the public interest in court to 
stop deceptive, unfair, bad faith, or fraudulent airline practices with 
treble damage provisions (such as the practice of confining passengers 
for extended periods in aircraft to prevent ``passenger migration'' and 
avoid refunds and other expenses associated with flight cancellations 
and extended delays now apparently used by American Airlines).

    Question 2. Do you believe the Department and consumers would 
benefit by DOT creating a senior position of ``consumer advocate'', 
among other things, to address airline passenger complaints?
    Answer. We understand that a DeFazio amendment passed twenty years 
ago provided for such an office and even a phone number, but that it 
has never been funded, staffed or advertised. A consumer advocate at 
DOT could be useful, but with such a history of such positions being 
created but not funded nor given enforcement or defined powers and 
duties shows they have limited effect and can be ignored with impunity 
if the regulator or airline chooses. Such an advocate should have the 
power to go into court on behalf of consumers for relief if the 
regulator or airline is unresponsive (this is a power which state 
attorneys general usually possess but consumer agency advocates 
generally do not). Such an advocate could also be empowered and given 
the duty to propose rules, remedial legislation, submit amicus briefs, 
intervene in disputes of general interest, issue an annual report on 
the status of airline passenger customer service rights and problems.
                                 ______
                                 
   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                           Kevin P. Mitchell
    Question 1. In your testimony, you state that Department 
enforcement of existing carrier commitments, regulations and laws would 
address many of the concerns raised. Do you believe that the 
Department's current enforcement serves as an adequate deterrent?
    Answer. I do not believe the DOT/FAA is aggressive enough in 
enforcement action or just using the Bully Pulpit to improve airlines' 
responsiveness.

    Question 2. In your testimony, you state that the FAA's recent 
rules regarding planes taking off when ice pellets are falling may have 
made the JetBlue situation worse. My understanding is the FAA is 
concerned that ice pellets will stick to a plane's wings and throw off 
its aerodynamics. In a sentence or two can you explain what the basis 
of the disagreement with the FAA is about regarding this rule? Do you 
know if the FAA is reviewing its rule?
    Answer. The issue here is that the FAA was not inclusive or 
effective enough in its rulemaking regarding the pellet issue. There 
was confusion amoung the airlines and among FAA inspectors about the 
rule and its interpretation.

    Question 3. In general, do you believe that there are actions the 
FAA can take with respect to how air traffic controllers at an airport 
deal with outbound flights during extreme weather situations that could 
improve the situation for air passengers? Would these changes require 
legislation, a rulemaking, or could they just be implemented 
administratively?
    Answer. There are common sense things that can help such as 
(depending on the configuration of a given airport) allowing a plane to 
return to a gate without losing its takeoff slot.

                                  <all>

</pre></body></html>
